<html>
<title> - WATER SUPPLY CHALLENGES FOR THE 21ST CENTURY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                        WATER SUPPLY CHALLENGES
                          FOR THE 21ST CENTURY

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 2008

                               __________

                           Serial No. 110-102

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______




                     U.S. GOVERNMENT PRINTING OFFICE

42-250 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           TOM FEENEY, Florida
LAURA RICHARDSON, California         RANDY NEUGEBAUER, Texas
PAUL KANJORSKI, Pennsylvania         BOB INGLIS, South Carolina
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. MCCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
BEN CHANDLER, Kentucky               BRIAN P. BILBRAY, California
RUSS CARNAHAN, Missouri              ADRIAN SMITH, Nebraska
CHARLIE MELANCON, Louisiana          PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio


                            C O N T E N T S

                              May 14, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........     7
    Written Statement............................................     7

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................     9

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10

Prepared Statement by Representative Adrian Smith, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10

                               Witnesses:

Dr. Stephen D. Parker, Director, Water Science and Technology 
  Board, National Research Council
    Oral Statement...............................................    12
    Written Statement............................................    13
    Biography....................................................    16

Dr. Jonathan Overpeck, Director, Institute for the Study of 
  Planet Earth; Professor, Geosciences and Atmospheric Sciences, 
  University of Arizona
    Oral Statement...............................................    17
    Written Statement............................................    18
    Biography....................................................    23

Dr. Robert C. Wilkinson, Director, Water Policy Program, Donald 
  Bren School of Environmental Science and Management, University 
  of California-Santa Barbara
    Oral Statement...............................................    23
    Written Statement............................................    25
    Biography....................................................    90

Mr. Marc Levinson, Economist, U.S. Corporate Research, J.P. 
  Morgan Chase
    Oral Statement...............................................    90
    Written Statement............................................    92
    Biography....................................................    94

Dr. Roger S. Pulwarty, Physical Scientist, Climate Program 
  Office; Director, The National Integrated Drought Information 
  System (NIDIS), Office of Oceanic and Atmospheric Research, 
  National Oceanic and Atmospheric Administration, U.S. 
  Department of Commerce
    Oral Statement...............................................    94
    Written Statement............................................    96
    Biography....................................................   101

Discussion
  Expanding the Federal Government's Role in Water Research and 
    Development..................................................   101
  Water Information and Technology Abroad........................   104
  Biofuels.......................................................   105
  Climate and Water Quality and Quantity.........................   105
  Workforce and Education........................................   106
  More on Climate and Water Quality and Quantity.................   106
  Population Growth and Water Supply Concerns....................   108
  Water Quality Concerns.........................................   109
  Ocean Desalinization's Environmental Impacts...................   110
  Water Storage..................................................   110
  The Environmental Protection Agency's Role.....................   113
  Can We Capture and Store Rain Water?...........................   114
  More on Ocean Desalinization's Environmental Impacts...........   115

              Appendix: Answers to Post-Hearing Questions

Dr. Stephen D. Parker, Director, Water Science and Technology 
  Board, National Research Council...............................   118

Dr. Jonathan Overpeck, Director, Institute for the Study of 
  Planet Earth; Professor, Geosciences and Atmospheric Sciences, 
  University of Arizona..........................................   177

Mr. Marc Levinson, Economist, U.S. Corporate Research, J.P. 
  Morgan Chase...................................................   181

Dr. Roger S. Pulwarty, Physical Scientist, Climate Program 
  Office; Director, The National Integrated Drought Information 
  System (NIDIS), Office of Oceanic and Atmospheric Research, 
  National Oceanic and Atmospheric Administration, U.S. 
  Department of Commerce.........................................   184


              WATER SUPPLY CHALLENGES FOR THE 21ST CENTURY

                              ----------                              


                        WEDNESDAY, MAY 14, 2008

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                        Water Supply Challenges

                          for the 21st Century

                        wednesday, may 14, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, May 14, 2008, at 10:00 a.m. the House Committee on 
Science and Technology will hold a hearing entitled ``Water Supply 
Challenges for the 21st Century.'' The purpose of the hearing is to 
examine the challenges of managing water supplies to meet social, 
economic and environmental needs in the United States. Population 
growth, changes in water use patterns, competing demands for water 
supply, degradation of water quality, and climatic variation are all 
factors influencing the availability and use of water. The hearing will 
also examine the role of the Federal Government in helping states and 
local communities adopt and implement sensible and cost-effective water 
resource management policies.

Background

    Water is necessary to every aspect of life. Although some regions 
of the U.S. have limited water supplies, especially areas west of the 
Mississippi River, the U.S. is endowed with substantial supplies of 
fresh water. However, population growth, increased per capita water 
use, water quality degradation, and increased withdrawals to support 
agricultural, industrial, and energy production activities combined 
with climate variability have increased water shortages across the 
country.
    In order to meet the challenge of providing safe, reliable water 
supplies for society we need improved information about the status of 
our water resources, policies to encourage water conservation, and 
technological improvements that will enable us to maintain and improve 
water quality and to improve our water-use efficiency to allow us to 
accomplish society's goals with less water. Through this hearing, the 
Committee hopes to ascertain how and to what extent water science and 
technology can ease the Nation's water resource challenges.

Assessment of U.S. Water Supply

    In the 19th century, U.S. population stood at a little more than 
five million citizens. By 1959, the U.S. population had grown to almost 
180 million people. Our population is now over 300 million with a one 
percent rate of growth. Available surface water supplies have not 
increased in the United States since the 1990s, and groundwater tables 
are continuing to decline.\1\ It is clear that the U.S. water supply 
cannot support future populations and economic activity at its current 
rate of consumption.
---------------------------------------------------------------------------
    \1\ ``Report to Congress on the Inter-dependency of Energy and 
Water,'' U.S. Department of Energy. December 2006.
---------------------------------------------------------------------------
    In order to better manage water supplies, there is a critical need 
for good data about our water resources and how supplies vary over 
time. Currently, quantitative knowledge of water supply is inadequate 
in the United States.\2\ The U.S. Water Resources Council completed the 
most recent, comprehensive, national water availability and use 
assessment in 1978.\3\
---------------------------------------------------------------------------
    \2\ U.S. Government Accounting Office, 2003 Report: Freshwater 
Supply States' Views of How Federal Agencies Could Help Them Meet the 
Challenges of Expected Water Shortages. GAO-03-514; National Research 
Council, 2004. Assessing the National Streamflow Information Program. 
National Academies Press, Washington, D.C
    \3\ The Council, established by the Water Resources Planning Act in 
1965 (P.L. 89-80), comprising the heads of several federal departments 
and agencies, such as Interior and the Environmental Protection Agency, 
has not been funded since 1983. U.S. Government Accounting Office, 2003 
Report: Freshwater Supply States' Views of How Federal Agencies Could 
Help Them Meet the Challenges of Expected Water Shortages. GAO-03-514.
---------------------------------------------------------------------------
    In response to increased concerns about future increased water 
shortages, the Bush Administration created the Subcommittee on Water 
Availability and Quality (SWAQ) of the National Science and Technology 
Council's Committee on Environment and Natural Resources to coordinate 
a multi-year plan to improve research on water availability and 
quality. The Subcommittee concluded in a 2007 report that a robust 
process for measuring water requires a systems approach to assess 
surface water, ground water, rainfall, and snowpack from the 
perspectives of quantity, quality, timing, and location.\4\
---------------------------------------------------------------------------
    \4\ The Subcommittee on Water Availability and Quality. A Strategy 
for Federal Science and Technology to Support Water Availability and 
Quality in the United States. September 2007. 35pp.

Initiatives to Address Water Supply Shortages

    States have initiated a number of steps to address water shortages. 
These activities include: Development of drought preparedness plans to 
reduce their vulnerability to droughts and development of drought 
response plans to provide assistance to communities and businesses that 
are vulnerable to drought; monitoring water availability and water use 
of major water supplies; coordinating management of ground and surface 
water supplies; developing and implementing policies to encourage water 
conservation and allocate water among competing uses within their 
jurisdictions; exploring options for increasing water supply such as 
cloud seeding to increase rainfall or investment in desalinization 
plants.
    At the federal level, there are numerous federal departments, 
independent agencies, and several bilateral organizations have some 
responsibility for water programs and projects within the United 
States. The federal agencies with primary responsibilities for water 
resources include: The Bureau of Reclamation which provides municipal 
and irrigation water and operates hydroelectric facilities in the 
western states; the Army Corps of Engineers which has responsibility 
for projects involving flood control and flood plain management, water 
supply, navigation, and hydroelectric power generation; the National 
Oceanic and Atmospheric Administration which is responsible for weather 
and climate prediction through the National Weather Service, including 
the operation of the National Drought Information System and maintains 
wildlife habitat and ecosystem protection through its coastal zone and 
fisheries management programs; the U.S. Geological Survey which 
assesses the quality, quantity, and use of U.S. water resources and 
maintains a national stream gauge network used for monitoring stream 
and river flows and flood forecasting; the Environmental Protection 
Agency which protects public health and the environment by ensuring 
safe drinking water, controlling water pollution, and protecting ground 
water.
    The Federal Government has also established standards for toilets 
and the Environmental Protection Agency recently established a 
voluntary program, WaterSense, to encourage the marketing and adoption 
of water conserving technologies and practices.
    Most of the authority for allocating water resides within State 
governments. When water disputes arise involving two or more states, 
the federal government has a role to play based upon Congress's power 
to regulated interstate commerce and through congressional approvals of 
binding agreements known as compacts. The seven Colorado Basin states 
have a long-established compact governing water allocation of the 
Colorado River. The extended drought in the Southeast has brought 
attention to an ongoing interstate conflict among Alabama, Florida, and 
Georgia over water allocation in the Apalachicola-Chattahoochee-Flint 
(ACF) river system. According to the Congressional Research Service, at 
least 47 states and the District of Columbia at some time have been 
involved in disputes over water that have resulted in litigation or 
initiated negotiations to establish an interstate compact.\5\
---------------------------------------------------------------------------
    \5\ Congressional Research Service, Memorandum to the House 
Committee on Science and Technology, ``States involved in Interstate 
Water Disputes,'' May 9, 2008. 3pp.
---------------------------------------------------------------------------
    In a 2003 report of the Government Accountability Office (GAO) 
report, states identified five federal actions they believed could best 
support their efforts to improve water management. Better coordinated 
federal participation in water management agreements along with 
financial assistance to increase storage and distribution capacity, 
improved water data, flexibility in the administration of environmental 
laws, and increased consultation on federal or tribal use of water 
rights.\6\
---------------------------------------------------------------------------
    \6\ U.S. Government Accounting Office, 2003 Report: Freshwater 
Supply States' Views of How Federal Agencies Could Help Them Meet the 
Challenges of Expected Water Shortages. GAO-03-514

Economic Impacts Associated with Water Shortages

    In the United States, over 50,000 water utilities withdraw 
approximately 40 billion gallons per day of water from the Nation's 
resources, to supply water for domestic consumption, industry, and 
other uses.\7\ When severe water shortages occur, the economic effect 
can be substantial. According to a 2000 report from the National 
Oceanic and Atmospheric Administration, eight water shortages from 
drought or heat waves each resulted in $1 billion or more in monetary 
losses over the past 20 years.\8\
---------------------------------------------------------------------------
    \7\ ``Water Loss Control,'' George Kunkel, Jr. Water Efficiency.
    \8\ U.S. Government Accounting Office, 2003 Report: Freshwater 
Supply States' Views of How Federal Agencies Could Help Them Meet the 
Challenges of Expected Water Shortages. GAO-03-514.
---------------------------------------------------------------------------
    An adequate supply of treated water is integral to many industries, 
including agriculture and food processing, beverages, power generation, 
paper production, manufacturing, and mineral extraction. Water 
shortages can negatively affect companies and entire industries and 
reduce job creation and retention. Current industry trajectories, 
population growth, and dwindling water supplies all point to increased 
water shortages. Increased water demand will come with increased costs 
to all businesses, industries, and municipalities which rely on the 
same water resources. The Association of California Water Agencies 
(ACWA) reported in April 2008 that California is now losing income and 
jobs due to the state's water supply crisis.\9\
---------------------------------------------------------------------------
    \9\ ``California Water Supply Crisis Affecting Economy,'' Water and 
Wastewater News. April 21, 2008

Water Energy Nexus

    Water is a vital component of our economy's energy sector. Water is 
used for resource extraction, refining and processing and 
transportation. Water also is essential for electricity generation. The 
expansion of biofuel supply is also going to require substantial water 
resources. The National Research Council predicts that the surge in 
ethanol production is likely to lead to adverse effects on local water 
sources and water quality.\10\
---------------------------------------------------------------------------
    \10\ ``Fuel for Thought,'' National Academies in Focus. Volume 8 
Number 1.
---------------------------------------------------------------------------
    The use of water in the extraction and processing of petroleum-
based transportation fuels is relatively small compared to the 
electric-generating industry. According to the Department of Energy's 
National Energy Technology Laboratory, the thermoelectric power sector 
accounts for 39 percent of total freshwater withdrawal in the United 
States, and 3.3 percent of total freshwater consumption. This 
consumption for electricity production accounts for over 20 percent of 
nonagricultural water consumption. Water is also used directly in 
hydroelectric generation, which constituted approximately 14 percent of 
energy produced in the United States in 2006 according to the Energy 
Information Administration (EIA).
    Not only do we need vast quantities of water for energy production, 
but we also need energy to transport and treat water. DOE estimates 
that nationwide, about four percent of U.S. power generation is used 
for water supply and treatment. Across the country, the amount of 
energy used to provide water to meet agriculture needs represents the 
most significant regional difference. However, the supply and transport 
of water can be quite energy-intensive. For example, pumping water to 
consumers that live far away from the source can be energy intensive. 
California's State Water Project pumps water 444 miles of aqueducts 
from three recreational lakes in Plumas County in Northern California 
to Riverside County in Southern California and is the state's largest 
energy consumer using between two to three percent of California's 
energy (5,000 GWh per year).\11\
---------------------------------------------------------------------------
    \11\ ``Water Energy Use in California,'' California Energy 
Commission.

---------------------------------------------------------------------------
Witnesses

Dr. Stephen Parker, Director, Water Science and Technology Board, 
National Research Council. Dr. Parker will discuss the recent work 
undertaken by the Water Science and Technology Board of the National 
Academy of Sciences on water supply and water management. He will also 
discuss the major challenges facing states and local governments in 
providing adequate water supply to meet societies competing needs.

Dr. Jonathan Overpeck, Director, Institute for the Study of Planet 
Earth, and Professor, Geosciences and Atmospheric Sciences, University 
of Arizona. Dr. Overpeck will discuss the potential impacts of climate 
change on water supply, particularly in the Southwest.

Dr. Robert Wilkinson, Director, Water Policy Program, Bren School of 
Environmental Science and Management, University of California-Santa 
Barbara. Dr. Wilkinson will discuss the linkage between energy and 
water supplies both in terms of the water needed to provide energy and 
in terms of the energy needed to transport and treat water.

Mr. Marc Levinson, Economist, U.S. Corporate Research, JPMorgan Chase. 
Mr. Levinson will discuss the key findings of JP Morgan's recent report 
``Watching Water: A Guide to Evaluating Corporate Risks in a Thirsty 
World,'' and the potential impacts of water supply shortage on 
businesses and the economy.

Dr. Roger Pulwarty, Program Director, National Integrated Drought 
Information System (NIDIS) NOAA Climate Program Office. Dr. Pulwarty 
will discuss what information is currently available through NIDIS to 
regional, State and local water decision-makers. He will also address 
what future information is required for better water policy planning.
    Chairman Gordon. Good morning and welcome everyone, and to 
our witnesses, thank you for letting us conduct a little 
business here.
    As was stated, this is a busy time. We have several Members 
in markups elsewhere. They will be coming back, but their staff 
is either here or in the anteroom watching. This will be 
televised, so we will have the opportunity for this to go out, 
and we appreciate you being here.
    Water is an essential input to virtually everything we do, 
from growing and processing food to manufacturing the products 
we use to date, to producing the energy we need to power our 
economy. Water is essential to all life and to maintain public 
health and the diversity and beauty of our environment.
    The recent droughts experienced in the West and the 
Southeast and increased competition for water supplies suggest 
that we must take a closer look at how we are managing our 
water resources. Thirty-six states expect to experience 
significant water shortage by 2013, population growth, 
increased per-capita water use, degraded water quality, and 
climate change have all impacted our availability, our 
available supplies of water.
    In my district water sources have dried up, and wells have 
run dry. Towns have been forced to implement water restrictions 
to deal with a decreased supply. According to the Tennessee 
Valley Authority, the first eight months of 2007 were the 
driest in the last 118 years of Tennessee history. When severe 
water shortage occurs, the economic impact is substantial. In 
2007, the Tennessee Valley Authority was forced to shut down a 
nuclear reactor due to a lack of acceptable cooling water in 
the Tennessee River.
    According to a 2000 report from NOAA, each of the eight 
water shortages over the past 20 years from drought or heat 
wave resulted in $1 billion or more in monetary losses. A 
recent report by J. P. Morgan indicated that a single 
production interruption at a semiconductor plant could cost 
$200 million in lost revenue.
    I believe with investment in research and development, 
public education, and better information on the status of our 
water supplies, we could avoid the high cost, social 
disruption, and environmental damage associated with water 
shortage.
    Our committee has already begun to bring forward 
legislation to help us better utilize water resources. Last 
week the Subcommittee on Energy and Environment reported bills 
by Representative Hall and Mr. Matheson to authorize research 
at the Department of Energy and Environmental Protection Agency 
on water treatment and to increase the efficiencies of our 
water use.
    We will be looking for more opportunities to address this 
important issue.
    I would like to thank our panelists for appearing before us 
today to share with us their views on the problems we currently 
face in water supply and their suggestions for addressing these 
problems in the future, and I look forward to a lively 
discussion from this impressive panel.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good morning and welcome to today's hearing.
    Water is the essential input to virtually everything we do--from 
growing and processing food to manufacturing the products we use 
everyday to producing the energy we need to power our economy. Water is 
essential to all life and to maintain public health and the diversity 
and beauty of our environment.
    The recent droughts experienced in the West and the Southeast and 
increased competition for water supplies suggest that we must take a 
closer look at how we are managing our water resources.
    Thirty-six states expect to experience significant water shortages 
by 2013. Population growth, increased per-capita water use, degraded 
water quality, and climate change have all impacted our available 
supplies of water.
    In my district, water sources have dried up and wells have run dry, 
and towns have been forced to implement water restrictions to deal with 
decreased supply.
    According to the Tennessee Valley Authority, the first eight months 
of 2007 were the driest in the last 118 years of Tennessee history.
    When severe water shortages occur, the economic impact is 
substantial. In 2007, the Tennessee Valley Authority was forced to shut 
down a nuclear reactor due to a lack of acceptable cooling water in the 
Tennessee River.
    According to a 2000 report from NOAA, each of the eight water 
shortages over the past 20 years from drought or heat waves resulted in 
$1 billion or more in monetary losses.
    A recent report by JP Morgan indicated that a single production 
interruption at a semiconductor plant could cost $200 million in lost 
revenue.
    I believe with investment in research and development, public 
education and better information on the status of our water supplies we 
can avoid the high costs, social disruption, and environmental damage 
associated with water shortages.
    Our committee has already begun to bring forward legislation to 
help us to better utilize water resources.
    Last week, the Subcommittee on Energy and Environment reported 
bills by Rep. Hall and Rep. Matheson to authorize research at the 
Department of Energy and the Environmental Protection Agency on water 
treatment and to increase the efficiency of our water use.
    We will be looking for more opportunities to address this important 
issue.
    I would like to thank our panelists for appearing before us today 
to share with us their views on the problems we currently face in water 
supply and their suggestions for addressing these problems in the 
future. I look forward to a lively discussion from this impressive 
panel.

    Chairman Gordon. At this time I would like to yield to my 
distinguished colleague from Texas, our Ranking Member, Mr. 
Hall, for an opening statement.
    Mr. Hall. I thank you, Mr. Chairman, and I am, of course, 
pleased that we are having this hearing here today.
    Water supply is, as you say, a very critical issue facing 
our country. Water is the lifeblood of our economy. Every 
sector requires it and would be crippled without it. Energy and 
agriculture are the two largest consumers of water, I 
understand, but it is also a vital part of manufacturing, 
fishing, and obviously, everyday living.
    Water's importance to U.S. prosperity is one that has been 
discussed in various reports over the last decade, government 
sponsored and private sector alike. It has hit home for some of 
us where our districts have been subjected to periods of long 
drought or massive flooding. This Congress is well aware of the 
dangers of water shortages and over-abundance.
    Two years ago we passed, and the President signed, the 
National Integrated Drought Information System Act of 2006. We 
did this in response to a need for a centralized location for 
drought information. I am very pleased that Dr. Pulwarty is 
here to talk about it. Although this law is not the only 
answer, it is part of the larger solution required for good 
water policy and good management.
    What we need are the proper tools and resources for local, 
State, and regional decision-makers to adapt to changing 
conditions. I look forward to hearing from the panelists today 
on possible solutions to our nation's water challenges.
    And I thank you, and I yield back the balance of my time.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you, Mr. Chairman. I am pleased we are having this hearing 
today. Water supply is a very critical issue facing our country. Water 
is the life-blood of our economy. Every sector requires it and would be 
crippled without it. Energy and agriculture are the two largest 
consumers of water, but it is also a vital part of manufacturing, 
fishing, and obviously, everyday living.
    Water's importance to U.S. prosperity is one that has been 
discussed in various reports over the last decade, government-sponsored 
and private-sector alike. It has hit home for some of us, where our 
districts have been subjected to periods of long drought or massive 
flooding. This Congress is well aware of the dangers of water shortages 
and overabundance.
    Two years ago, we passed, and the President signed, the National 
Integrated Drought Information System Act of 2006. We did this in 
response to a need for a centralized location for drought information. 
I am very pleased the Dr. Pulwarty is here to talk about it. Although 
this law is not the only answer, it is part of the larger solution 
required for good water policy and management.
    What we need are the proper tools and resources for local, State 
and regional decision-makers to adapt to changing conditions. I look 
forward to hearing from the panelists today on possible solutions to 
our nation's water challenges. I yield back the balance of my time.

    Chairman Gordon. Thank you, Mr. Hall, and thank you for 
your hospitality. We had a hearing down at Texarkana on the 
COMPETES Bill this Monday, and it was very interesting. It adds 
to our committee's institutional memory and knowledge in this 
very important area.
    And I ask unanimous consent that all additional opening 
statements submitted by the Committee Members be included in 
the record. Without objection, so ordered.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you, Mr. Chairman. As Chair of the Subcommittee on Water 
Resources and Environment, this issue is very important to me.
    Dallas, as does other cities, has a propensity to flood. Adequate 
infrastructure is important to properly manage water and avoid flooding 
problems.
    On the other hand, the State of Texas has encountered years of 
tremendous drought. Our cattle ranchers and farmers have depended on 
disaster relief from the devastating lack of water.
    The Science Committee has a role to play in water issues.
    We can invest in research to examine infrastructure needs.
    We can support efforts to improve water clarity and purity, to 
protect the health of our populace.
    We can direct studies on climate change and its impact on our water 
resources.
    We are tasked with the responsibility of ensuring a safe, reliable 
water supply for society.
    We need improved information about the status of our water 
resources and policies to encourage water conservation,
    We must discover technological improvements that will enable us to 
maintain and improve water quality and to improve our water-use 
efficiency to allow us to accomplish society's goals with less water.
    Today's witness panel includes individuals representing federal 
advisory groups such as the National Research Council and National 
Oceanographic and Atmospheric Association (NOAA).
    It also includes academic witnesses, such as Dr. Overpeck from the 
University of Arizona and the University of California-Santa Barbara.
    The Committee will be interested to hear the panel's suggestions as 
to water research and development priorities at the federal level.
    Again, welcome to today's witnesses. I thank the Chairman and 
Ranking Member for their leadership on this issue and yield back my 
time.

    [The prepared statement of Mr. Carnahan follows:]
           Prepared Statement of Representative Russ Carnahan
    Mr. Chairman, thank you for hosting this important hearing on 
managing the U.S. water supply. Population growth, variation in our 
climate and degradation of water quality all complicate current water 
supply management in our nation.
    It is incumbent upon those of us in Congress to examine ways that 
we can improve water conservation efforts, and research both new 
technologies such as desalinization to increase water supply as well as 
avenues to improve water quality. I am particularly concerned about 
water quality in my own congressional district. One county within my 
district is changing from a rural to more suburban county, which has 
created pressure to supply more water to more people. Septic tanks are 
leaking into tributaries and streams with the potential for 
contaminating water supply. In another area, sewer overflows occur due 
to an aging infrastructure.
    I am also interested in the link between energy and water, which I 
anticipate Dr. Wilkinson will address in his testimony today. I would 
appreciate hearing more about his views on hydroelectric power in this 
country, whether this untapped resource is worthy of additional federal 
investments and if he sees room for further research into more 
efficient power generation from hydroelectric dams.
    I would like to thank today's witnesses, Dr. Parker, Dr. Overpeck, 
Dr. Wilkinson, Mr. Levinson and Dr. Pulwarty, for taking the time to 
appear before us. I look forward to hearing all of our witness's 
testimonies.

    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Thank you, Mr. Chairman.
    The diminishing supply of water is an issue that truly hits home.
    In Arizona, our habitability is closely tied to the availability of 
reliable safe water sources.
    According to the Arizona Department of Water Resources, Arizona has 
experienced drought for over a decade. The Colorado River system as a 
whole is now in its eighth year of drought.
    I believe that it is absolutely critical that we address the 
growing shortage of our nation's water supply and work to establish 
progressive and cost-effective water resource management policies.
    I look forward to hearing from our witnesses about the challenges 
of managing water supplies.
    I yield back.

    [The prepared statement of Mr. Smith follows:]
           Prepared Statement of Representative Adrian Smith
    Thank you, Mr. Chairman.
    Water supply issues are a challenge in my home State of Nebraska. 
Water availability is a critical concern in much of my district where 
center pivot irrigation is the lifeblood of farmers. A nearly decade-
long drought in Nebraska's Panhandle has put extreme stress on water 
resources and those who rely on them.
    Water quality problems are potentially burdensome for small towns 
in my district, which face high costs for remediation of their drinking 
water supplies in order to comply with U.S. Environmental Protection 
Agency regulations pertaining to naturally-occurring contaminants, such 
as arsenic, in their wells.
    Energy is a topic on everyone's mind and many energy generation 
methods require water to produce power. Hydropower, nuclear energy, 
petroleum refining, clean coal technologies, and biofuels production 
all require large amounts of water. I have long been an advocate of 
keeping all energy options on the table. I want to ensure the water 
needed is available for the energy choices of the marketplace.
    Balancing the various uses of water is a constant challenge as 
various groups demand its use for drinking water; agriculture; energy 
generation; habitat, especially for endangered species; and recreation. 
As a Nebraskan and a Congressman, I want to ensure these demands are 
properly prioritized, and, as possible, they each are recognized for 
their contribution to Nebraska's economy and quality of life.
    I look forward to hearing the testimony of our witnesses and hope 
they will be able to shed light on each of these problems and offer 
practical steps for their resolution.
    Thank you, Mr. Chairman, and I look forward to working with you in 
the future.

    Chairman Gordon. It is my pleasure now to introduce the 
witnesses this morning.
    Dr. Stephen Parker is the Director of the Water Science and 
Technology Board at the National Research Council, and Ms. 
Giffords, I would like to yield to you. Somehow we always work 
Arizona into most hearings, so you are up.
    Ms. Giffords. Thank you, Mr. Chairman.
    It is a privilege for me to introduce a tremendous 
colleague from Arizona, Dr. John Overpeck, who is one of the 
brightest stars of the University of Arizona. Dr. Overpeck is a 
Climate Systems Scientist at the UofA, where he is also the 
Director for the Institute for the Planet, for the Study of 
Planet Earth, Professor of Geosciences and a Professor of 
Atmospheric Sciences.
    Dr. Overpeck has published over 120 papers on climate and 
the environmental sciences. He recently served as a 
Coordinating Lead Author for the Fourth Assessment Report of 
the UN Intergovernmental Panel on Climate Change, which shared 
the 2007 Nobel Peace Prize with former Vice President Al Gore.
    And I want to thank you and your colleagues for coming to 
present before our committee the reports from that very 
important document.
    For his interdisciplinary research Dr. Overpeck has also 
been awarded the U.S. Department of Commerce bronze and gold 
medals, as well as the Walter Orr Roberts Award of the American 
Meteorological Society. He has been a Guggenheim Fellow and 
serves on the Board of Reviewing Editors for Science Magazine.
    Dr. Overpeck's research focuses on global change dynamics 
with a major component aimed at understanding how and why key 
climate systems vary on time scales longer than seasons and 
years. Through his research Dr. Overpeck is working to help 
foster a new paradigm of interdisciplinary knowledge creation 
between physical, biological, and social scientists, all with 
the goal of serving the environmental needs of society in a 
more effective manner.
    I am very pleased to have Dr. Overpeck here. He is an 
authority in Arizona, and I am pleased to have such a 
distinguished panel, group of panelists to talk about an issue 
that is vitally important to the West and to our country.
    Chairman Gordon. Thanks, Ms. Giffords.
    Dr. Wilkinson, I won't be quite as generous with you, but 
nonetheless you are very distinguished. You are the Director of 
the Water Policy Program at the Bren School of Environmental 
Science and Management, at the University of California-Santa 
Barbara. Welcome.
    And Mr. Marc Levinson is the Economist for the U.S. 
Corporate Research at J.P. Morgan Chase and author of J.P. 
Morgan's recent report, ``Watching Water, a Guide to Evaluating 
Corporate Risks in a Thirsty World.''
    And finally, our last witness is Dr. Roger Pulwarty, 
Director, Program Director for the National Integrated Drought 
Information System at NOAA Climate Program Office.
    We would like for you to try to keep your opening statement 
to about five minutes and your written testimony will be made a 
part of the record. When you have completed your testimony, we 
will have questions by our Members.
    Dr. Parker, please begin.

STATEMENT OF DR. STEPHEN D. PARKER, DIRECTOR, WATER SCIENCE AND 
          TECHNOLOGY BOARD, NATIONAL RESEARCH COUNCIL

    Dr. Parker. Good morning, Mr. Chairman, Members of the 
Committee, and others. I am Stephen Parker from the National 
Research Council, and I am pleased to participate in today's 
hearing.
    I have been in my position at the Water Science and 
Technology Board for 26 years and have overseen about 200 
studies relevant to today's topic. Thus my remarks are general 
and drawn from our body of work, not one particular recent 
study.
    It is hard to overstate the importance of high-quality 
water supplies to our nation, yet in many areas supplies are 
essentially fixed, and the quality is deteriorating. At the 
same time, demands for water to support population and economic 
growth, the environment, and other purposes continue to 
increase. Examples of the mounting array of water-related 
problems exist in every region of the country, especially the 
West and Southwest.
    Both of these regions have rapidly-growing populations and 
have been affected by climate variability, drought, and the 
tightening water supply picture as many new users vie for 
limited supplies and call for changes to traditional allocation 
rules.
    Lasting solutions to these challenges of water supply and 
demand and water quality will require creative science-based 
strategies and innovative water technologies.
    I have phrased my central concerns in the form of four 
questions. If the answers to some of these questions are no, I 
fear that we may be in for a national water crisis, something 
like that portrayed in the media.
    Question one, will there be sufficient water to support 
both future economic and population growth while sustaining 
ecosystems? The fast-growing Southwest and Southeast face great 
challenges in meeting increasing water demands. Most of the 
sources and supplies of water for these regions are fully 
allocated among environmental, urban, and agricultural uses. 
Unfortunately, the Nation seems lacking in a long-term 
strategic vision of alternative means for accommodating growth 
with existing supplies. We believe the Nation has under-
invested in research and development needed to help 
municipalities augment water supplies in this post-dam-building 
era. For example, through waste water reuse, desalination, and 
other approaches, including aquifer storage and recovery.
    Question two. How effectively can our water management 
systems and institutions adapt to climate change? Existing data 
reveal some significant climate changes in the U.S. in recent 
years. Warmer temperatures in some regions and potential 
impacts on water supplies are of special concern. Although 
there are uncertainties regarding future climate projections, 
there is broad scientific agreement that rising temperatures 
are having a number of effects such as earlier melting of 
snowpack, which affects agricultural production, increases 
flood risks, and is forcing changes in reservoir operations. 
Two, higher sea levels, which will increase salinity in coastal 
water supply aquifers and alter marshes and wetlands. And 
three, in changing amounts of precipitation and extreme 
climatic events.
    My question three. Will drinking water be safe? Over the 
past 100 years investments in water treatment and distribution 
infrastructure has made the quality of U.S. drinking water 
among the best in the world. Today we take safe water for 
granted. Nevertheless, new chemicals and biological agents 
continue to emerge and intentional or unintentional 
contamination of drinking water supplies represents a real and 
continuing threat. Additionally, much of our urban drinking 
water infrastructure is reaching the end of its expected 
lifetime and will need to be replaced in the next 25, 10 to 25 
years.
    Question four. Can existing water policies effectively 
respond to present and future challenges? Many of the Nation's 
water policies and practices were created and designed for 
yesterday's water resources challenges and are becoming 
obsolete. For example, the National Environmental Policy Act, 
the Clean Water Act, the Safe Drinking Water Act, and the 
Endangered Species Act were all passed in the early 1970s. 
Likewise, many dam operators and water allocation plans are 
designed for a set of users in an earlier era and are being 
challenged by increasing demands from users such as 
recreational, urban, and environmental interests.
    It seems important that the Nation's water management 
institutions and body politics stay vigilant to assure and 
perhaps restore modern and appropriate management and legal 
instruments to meet the challenges. The case is compelling for 
governmental leadership and support for water resources 
research and maintenance of strong governmental scientific and 
technical capabilities.
    My written statement discusses numerous examples of past 
federally-funded water research that have produced significant 
payoffs to the Nation. The advances in water science and 
technology that society is now requiring are likely to be 
inadequate if federal action is not taken as the states and 
non-governmental organizations have limited resources to invest 
in required research.
    That concludes my statement. I commend the Committee for 
recognizing the importance of water resource and the role of 
the government in water resources to the Nation. I hope you act 
quickly and strategically, as I often worry that we are living 
on borrowed water capacity, created by conservative engineers 
in the past, and that our water supply cushion is disappearing.
    I would be happy to answer your questions. Thank you.
    [The prepared statement of Dr. Parker follows:]
                Prepared Statement of Stephen D. Parker
    Good morning, Mr. Chairman, Members of the Committee, and others. 
My name is Stephen D. Parker. I am Director of the Water Science and 
Technology Board (WSTB) of the National Research Council. As you may 
know, the National Research Council is the operating arm of the 
National Academy of Sciences, National Academy of Engineering, and the 
Institute of Medicine of the National Academies, and its goal is to 
provide elected leaders, policy-makers, and the public with 
independent, expert advice based on evaluations of scientific evidence.
    I am delighted to have the opportunity to participate in today's 
hearing, which examines the challenges of managing water supplies to 
meet social, economic, and environmental needs of the United States. 
Population growth, changes in water use patterns, competing demands for 
water supply, degradation of water quality, and climatic variations all 
are factors that influence the availability and use of water. I have 
held my position with the WSTB for 26 years and have overseen 
approximately 200 studies relevant to the topic of today's hearing. 
Thus, my remarks are drawn from a whole body of work, rather than just 
one recent report. (Note that my written statement has attached to it a 
listing of some our most relevant reports from the past several years.) 
Given the nature of the WSTB mission--to help ensure and improve the 
scientific basis for water management--my statement tends to emphasize 
science and research.
    High quality, reliable drinking water is fundamental to human 
existence and quality of life. Not only is water a basic human need, 
but adequate, safe water supplies are crucial to the Nation's health, 
economy, security, and ecosystems. A key strategic challenge is to 
ensure adequate quantity and quality of water to meet human and 
ecological needs, especially given the growing competition among 
domestic, industrial-commercial, agricultural, and environmental uses. 
To successfully address the Nation's water resources problems likely to 
emerge in the next 10-15 years, decision-makers at all levels of 
government will need to make informed choices among often conflicting 
and uncertain alternative actions.
    There is abundant evidence that the conditions of water resources 
in many parts of the United States are deteriorating. Further, demands 
for water resources to support population and economic growth continue 
to increase, although water supplies generally are fixed in quantity 
and already are fully allocated in most areas. Examples of the mounting 
array of water-related problems exist in every region of the country. 
Today, these problems are especially pronounced in the West and in the 
Southeast. Both these areas are sites of rapidly-growing populations 
and have been affected by climate variability, drought, and a 
tightening water supply picture as multiple and new users vie for 
changes to more traditional allocation rules and patterns. Lasting 
solutions to these challenges of water supply and demand balances, as 
well as water quality, will require creative, science-based, and 
economically feasible strategies. The following questions highlight the 
central concerns; if answers to some of these questions are ``no,'' it 
portends a future with complex water resource problems that will 
challenge the capacities of our scientific, engineering, and management 
organizations charged to address water resources issues. (Note that I 
do not attempt to separate water quantity from water quality 
considerations as the two are inextricably linked.)

        <bullet>  Will there be sufficient water to both sustain 
        ecosystems and support future economic and population growth? 
        The fast-growing states and cities of the Southwest face great 
        challenges in meeting increasing water demands. Most of the 
        sources and supplies of water for this arid region are fully 
        allocated among environmental, urban, and agricultural uses. 
        Mechanisms for reallocating water away from current uses, along 
        with technological means for augmenting supplies, all have 
        physical, economic, and social limits. Other rapidly growing 
        areas of the Nation, like the Southeastern U.S., also are 
        exhibiting increasing vulnerability to drought. The traditional 
        means for coping with ever-increasing water demands was to 
        augment supplies by constructing more dams. For a number of 
        reasons, that strategy today is far less viable. Unfortunately, 
        the Nation has limited precedent and seemingly a lack of long-
        term, strategic vision for alternative means for coping with 
        increasing economic and population growth with existing, 
        limited water supplies. Furthermore, we believe the Nation has 
        under-invested in the research needed to help municipalities 
        augment water supplies, for example through wastewater reuse, 
        desalination, or aquifer storage and recovery.

        <bullet>  How effectively can our water management systems and 
        institutions adapt to climate change? Existing data reveal some 
        significant climate changes in the U.S. in recent years, with 
        implications for water quality and quantity. Warmer 
        temperatures in some regions, and potential impacts on water 
        supplies, are a special concern. Although there are 
        uncertainties regarding future climate projections, there is 
        broad scientific agreement that rising temperatures are having 
        a number of effects, such as (1) earlier melting of snowpack, 
        which affects agricultural production, increases flood risks, 
        and is forcing changes in reservoir operations; (2) higher sea 
        levels, which will increase salinity in coastal aquifers and 
        alter marshes and wetlands; and (3) changing patterns of 
        precipitation, such that extreme climatic events may increase 
        in magnitude and frequency.

        <bullet>  Will drinking water be safe? Over the past 100 years, 
        investment in water treatment and distribution infrastructure 
        has made the quality of U.S. drinking water among the best in 
        the world. Enormous gains in public health were realized from 
        the virtual elimination of typhoid and cholera, such that 
        today, the provision of safe supplies of drinking water is 
        taken for granted. Nonetheless, new chemical and biological 
        agents continue to emerge and intentional or unintentional 
        contamination of drinking water supplies represents a real and 
        continuing threat. Further, much of our drinking water 
        infrastructure is reaching the end of its usable lifetime and 
        will need to be replaced in the next 10-25 years.

        <bullet>  Will the quality of the Nation's waters be enhanced 
        and maintained? Passage of the Clean Water Act helped the 
        Nation make great progress during the 1970s and 1980s in 
        improving surface water quality, through financial support for 
        municipal wastewater treatment plants and a permitting process 
        for point sources of water pollution. Today, the more pressing 
        surface water quality problem is non-point source pollution. 
        Effective management of non-point source pollution problems 
        requires good data on surface water quality. However, there are 
        only limited water quality data for many of the Nation's rivers 
        and streams, including some large and very important ones. For 
        example, a 2008 report of ours noted the limited data and 
        limited monitoring efforts in many stretches of the Mississippi 
        River, and recommended a more extensive and integrated approach 
        to the river's water quality monitoring and assessment. Better 
        information on water quality, and better management of non-
        point source pollution problems, also will require stronger, 
        more aggressive federal leadership.

        <bullet>  Can existing water policies effectively respond to 
        present and future challenges? Many of the Nation's water 
        policies and practices were created and designed for an earlier 
        era of water resources challenges and problems. For example, 
        the National Environmental Policy Act, the Clean Water Act, the 
        Safe Drinking Water Act, and the Endangered Species Act all 
        were passed in the early 1970s. Further, many dam operations 
        and water allocation plans, designed for a set of users in an 
        earlier era, are being challenged by increasing demands from 
        users such as recreational, urban, and environmental interests. 
        Moreover, many water professionals are concerned about 
        declining engineering and scientific capacity in the Nation's 
        key water resources organizations--which is occurring at a time 
        when the Nation needs high-level, professional expertise in its 
        primary water institutions more than ever.

    Advances in the science and technology through research needed to 
address these problems are likely to be inadequate if no federal 
actions are taken, as the states and non-governmental organizations 
have limited resources to invest in required research. The Nation also 
will need stronger expertise in its leading water institutions in order 
to stay abreast of engineering and scientific developments, and to be 
able to interact productively with the scientific community at large. 
The increasing need to ensure clean and adequate water supplies, and to 
manage increasingly rapid human-induced modification of natural and 
social environments, make a compelling case for governmental support of 
water resources research and strong governmental scientific and 
technical capacity.
    There are numerous examples of federal government-funded research 
on water resources that have led to significant payoffs for the Nation. 
The flood forecasting systems that help save lives and protect 
property, and the drought forecasting systems that help keep farmers 
and municipalities abreast of water availability conditions, both rest 
on federally supported data gathering and research. Research in the 
past has led to the development of innovative water and wastewater 
treatment technologies, such as membranes. Other examples include 
improved management of salts in irrigated agriculture, and better 
understanding of implications regarding voluntary transfers of water 
among different users. Studies of eutrophication in inland waters, 
mercury deposition, and nitrogen loading in the Chesapeake Bay 
watershed seem to provide examples of federally funded research that 
has improved the effectiveness of regulatory processes. Research has 
allowed the Nation to increase the productivity of its water resources, 
such that today the same amount of water yields, on average, more 
agricultural output than it did 50 or 100 years ago. Finally, the 
Nation today uses many aspects of its water resources base far more 
efficiently than in the past, due to advances in water-efficient 
plumbing fixtures, landscaping practices, and wastewater reuse 
techniques. Future scientific and technical advances will be required 
to meet the water resources needs of an expanding U.S. population and 
to maintain the quality of the Nation's surface, groundwater, and 
aquatic systems.
    That concludes my statement. I commend the Committee for 
recognizing the importance of water resources--and the role of the 
Federal Government in water resources--to the Nation. I'd be happy to 
answer your questions. Thank you!

Some Relevant Recent WSTB Reports of Interest to the Subcommittee

Desalination: A National Perspective 2008

Colorado River Basin Water Management: Evaluating and Adjusting to 
        Hydroclimatic Variability 2007

Improving the Nation's Water Security: Opportunities for Research 2007

Integrating Multi-scale Observations of U.S. Waters 2007

Mississippi River Water Quality and the Clean Water Act: Progress, 
        Challenges, and Opportunities 2007

Prospects for Managed Underground Storage of Recoverable Water 2007

Water Implications of Biofuels Production in the United States 2007

Drinking Water Distribution Systems: Assessing and Reducing Risks 2006

Progress Toward Restoring the Everglades: The First Biennial Review, 
        2006

River Science at the U.S. Geological Survey 2006

Toward a New Advanced Hydrologic Prediction Service (AHPS) 2006

Public Water Supply Distribution Systems:Assessing and Reducing Risks 
        2005

Regional Cooperation for Water Quality Improvement in Southwestern 
        Pennsylvania 2005

Water Conservation, Reuse, and Recycling 2005

Assessing the National Streamflow Information Program 2004

Confronting the Nation's Water Problems: The Role of Research 2004

Estimating Water Use in the United States: A New Paradigm for the 
        National Water-Use Information Program 2002

Missouri River Ecosystem: Exploring the Prospects of Recovery, The 2002

Privatization of Water Services in the United States: An Assessment of 
        Issues and Experience 2002

Watershed Management for Potable Water Supply: Assessing the New York 
        City Strategy 2000

                    Biography for Stephen D. Parker
    Stephen D. Parker was educated in hydrology and civil engineering 
at the University of New Hampshire. He is a senior staff member at the 
National Research Council of the National Academies. Currently he is 
Director of the Water Science and Technology Board (since 1982). With 
the WSTB, Mr. Parker is responsible for study programs in a broad range 
of water related and natural resources topics. Subject areas include 
water supply; aquatic ecology and restoration; ground water science, 
technology, and management; hydrologic science; water quality and water 
resources management; pollution control; and other related topics. His 
duties involve strategic planning, program development, policy 
analysis, report writing, interaction with federal agency program 
managers, supervision of a staff of approximately 10, and others. 
Parker's technical expertise lies principally in hydrologic engineering 
and water resources systems analysis. Prior to joining the NRC in 1982, 
he was in charge of river basin planning studies at the Federal Energy 
Regulatory Commission (1979-82). From 1972-79, he was with the New 
England Division of the Army Corps of Engineers, where he reached the 
level of chief of hydrologic engineering; the focus of his technical 
work included water quality, flood and drought, and hydropower system 
studies. From 1970-72, Parker was employed by Anderson-Nichols 
consulting engineers in Boston where he worked on water supply oriented 
projects. In 1969-70, Mr. Parker served in the U.S. Navy in Vietnam, 
where he commanded a river patrol boat He is a certified Professional 
Hydrologist, a member of the research advisory board of the National 
Water Research Institute, and active as a member of the American 
Institute of Hydrology and American Water Resources Association. In 
1997, he was elected a fellow by the Association of Women in Science, 
and in 1998 he received the NRC Individual Achievement Award from the 
National Academy of Sciences/National Academy of Engineering.

    Chairman Gordon. Thank you, Dr. Parker, and Dr. Overpeck, 
you are recognized.

STATEMENT OF DR. JONATHAN OVERPECK, DIRECTOR, INSTITUTE FOR THE 
 STUDY OF PLANET EARTH; PROFESSOR, GEOSCIENCES AND ATMOSPHERIC 
                SCIENCES, UNIVERSITY OF ARIZONA

    Dr. Overpeck. Chairman Gordon, Ranking Member Hall, 
Congresswoman Giffords, and other distinguished Members of the 
Committee, I thank you for allowing me to come and discuss 
these issues with you today.
    One of our chief potential challenges to ensuring reliable 
water supply will be climate variability and also climate 
change. And it appears likely that both climate variability and 
climate change are already starting to challenge water supply 
in parts of our country.
    Significant parts of our nation are currently in drought. 
Droughts in the West, central plains, Texas, and the Southeast 
all vie for title of the worst current drought. These droughts 
now occurring in the U.S. are, however, modest compared to the 
severe natural droughts that took place before the 20th 
century.
    For example, western North America has seen 25-year and 
much longer megadroughts in just the last 1,000 years. It is 
safe to say that if the water supply infrastructure in many 
parts of our country, for example, the West, were to see such a 
drought, it would be overwhelmed today.
    However, what is most disturbing about these natural 
megadroughts of the past is that we are not sure what caused 
them, nor are we confident that we can predict them. It is just 
a matter of time before we will get another megadrought, and 
this means that we should think seriously about making our 
society more resilient in the face of megadroughts.
    Now, I would like to turn to the issue of climate change. 
The climate system is changing, very likely due to humans, and 
this change could also pose another major challenge to water 
supply in parts of our nation. Parts of our country have 
already warmed more than two degrees Fahrenheit in the last 
century and could warm another 15 or more degrees by the end of 
the century if we don't do something to curb emissions of 
greenhouse gases.
    The warming has already led to substantial decreases in 
spring snowpack, which, in turn, has led to decreased flow in 
some major river systems of the United States, including the 
Colorado River. Current river flow estimates for some parts of 
the country, for example, the Colorado River, that serves seven 
states and over 30 million people, indicates that water supply 
could be greatly reduced by mid century or before.
    In addition, the latest climate change science indicates 
that much of the conterminous U.S. could see an increase in the 
annual maximum number of consecutive dry days between rainfall 
events, a decrease in average soil moisture, and an increased 
likelihood of drought. Although the projected changes are less 
certain outside the West and Southwest, the current state of 
climate science suggests that they, these all should be 
considered real possibilities for the future.
    What then can we do about this challenge? Fortunately, 
there are some no-regrets actions that can be taken regardless 
of cause, natural or human-caused climate change. We need an 
accelerated effort to understand climate-related water supply 
variabilities, both physical, biological, and social.
    For example, we must incorporate realistic assessments of 
future climate change into water management models that are 
being used to assess future supply change. Also, ground water 
serves as a major buffer during times of drought. We must try 
and determine how much ground water really exists underground 
at local scales around our country and how quickly this ground 
water can be recharged in the future, both by precipitation and 
human mechanisms.
    And lastly, we need to determine, for example, how much 
water can be diverted safely from agriculture, another 
important buffer in times of drought, to uses that support 
population growth in potentially water-limited regions.
    Number two, we need an accelerated effort to understand 
climate change variability, climate variability and climate 
change processes, as well as how to predict them. Essential 
progress can be accelerated via greater funding of basic, for 
example, National Science Foundation and use-inspired, for 
example, NOAA, DOE, and NASA, climate research observation and 
modeling.
    Number three, we need a national climate service that is 
designed to support local and regional decision-makers in 
dealing with climate-related reductions in water supply.
    Finally, in addition to no-regrets options that I have just 
summarized, there is also the option of mitigating or reducing 
the likely impacts of climate change on U.S. water supply. If 
we wish to forestall for sure potential major climate change 
threats to water supply, large reductions in greenhouse gas 
emissions, namely 80 percent below 1990 levels by 2050, must be 
initiated soon.
    Mr. Chairman, Members of the Committee, thank you.
    [The prepared statement of Dr. Overpeck follows:]
                Prepared Statement of Jonathan Overpeck

Summary

    One of the chief potential challenges to ensuring a reliable water 
supply will be climate variability and climate change. An analysis of 
recent climate patterns indicates that both are already starting to 
challenge water supplies in our nation, and that these on-going 
challenges provide an important lesson for the future. Climate 
variability, in the form of decades-long drought, is a major threat to 
ensuring sufficient water supplies. Human-caused climate change, 
including temperature increases, snowpack reductions, streamflow 
decreases, and increased probability of drought, will only make the 
situation more challenging. Options for meeting these climate 
challenges include much needed focused research, a new national climate 
service focused on local and regional decision-makers, and a policy 
that reduces global greenhouse gas emissions. The outlook for climate-
related changes in U.S. water supply is not positive, particularly in 
the West, Southwest, Texas and into the Southeast. Even in other parts 
of the Nation, water supply could become more limiting. However, the 
good news is that there is time to prepare for increasing water supply 
challenge, and to also avoid water supply reduction threats deemed 
dangerous. Urgent attention is warranted.

    Chairman Lampson, Ranking Member Inglis, and other Members of the 
Committee, thank you for the opportunity to speak with you today on 
Water Supply Challenges for the 21st Century.
    My name is Jonathan Overpeck. I am the Director of the Institute 
for the Study of Planet Earth at the University of Arizona, where I am 
also a Professor of Geosciences and a Professor of Atmospheric 
Sciences. I have published more than 120 papers in climate and the 
environmental sciences, and recently served as a Coordinating Lead 
Author for the UN Intergovernmental Panel on Climate Change (IPCC) 
Fourth Assessment (2007). I have been awarded the U.S. Department of 
Commerce Bronze and Gold Medals, the Walter Orr Roberts award of the 
American Meteorological Society and a Guggenheim Fellowship for my 
interdisciplinary research. I also serve as Principal Investigator of 
the Climate Assessment for the Southwest (CLIMAS), an interdisciplinary 
Regional Integrated Science and Assessment (RISA) project funded by 
NOAA. In this capacity, and others, I work not only on climate system 
research, but also on supporting use of this research by decision-
makers in society.
    One of the chief potential challenges to ensuring a reliable water 
supply will be climate variability and climate change. I would like to 
describe these challenges, and then discuss what our nation can do to 
meet them. A basic message is that it appears likely that both climate 
variability and climate change are already starting to challenge water 
supplies in our nation, and that these on-going challenges are an 
important lesson for the future.

Climate Variability, Drought and Water Supply

    As Figure 1 shows, drought is currently affecting significant 
portions of our nation. Droughts in the West, Central Plains, Texas, 
and in the Southeast vie for the title of worst current drought. Most 
notably, the drought in the West, although recently softened by good 
winter snowfall, has persisted since about 1999, and could be far from 
over.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The causes of the current droughts across the U.S. are hotly 
debated in the climate science community, but it is safe to say that at 
least some of the current drought conditions are due to natural climate 
variability. Most likely, variability in the oceans is causing 
atmospheric circulation to drive drier-than-normal conditions in parts 
of our nation. For example, this seems to be the prime candidate for 
explaining the Southeast U.S. drought.
    Drought of the type now occurring in the U.S. is modest compared to 
the more severe natural droughts that took place before the twentieth 
century. These earlier droughts can be reconstructed using tree-rings, 
lake sediments, cave formations, and other natural archives of past 
climate. For example, western North America, from deep into Mexico, 
through the western U.S. and into Canada, was gripped by a severe 20- 
to 25-year drought in the late sixteenth century. Droughts lasting many 
decades occurred during medieval times in the West, and likely had 
profound impacts. For example, we now know from hydrological modeling 
that these past ``megadroughts,'' were they to occur in the future, 
would have dramatic negative impacts on the Colorado River and the 
water this river supplies to seven states.
    It is safe to say that the water supply infrastructure in many 
parts of our country (e.g., the West) would be overwhelmed were a 
megadrought like those of the past to occur again in the future. I will 
return to this challenge later in my testimony.
    What is most disturbing about the natural droughts of the past is 
that we are not sure what caused them, nor are we confident that we can 
predict them. Thus, it is difficult for climate scientists to say how 
long the current droughts will last, or whether they will intensify. 
What climate scientists can say, however, is that it would be foolish 
to assume that droughts much longer--and more severe--than those of the 
last 100 years won't happen again. It is just a matter of time, and 
this means that we should think seriously about making our society, 
particularly in those areas that are prone to drought (e.g., see Figure 
1), more resilient in the face of future drought.

Climate Change and Water Supply

    The climate system is changing, very likely due to humans, and this 
change could also pose another major challenge to water supply in parts 
of our nation. Although temperatures over most of our country have 
risen over the last 100 years, climate change is most notable in the 
U.S. West and Alaska. Across the West, temperatures have gone up by 
about 2<SUP>+</SUP>F, and more than the national average. This warming 
has led to significant decreases in spring snowpack, which in turn, 
have led to decreased flow in some major rivers, including the Colorado 
River. These temperature, snow, and river flow changes appear to be 
due, at least in part, to human-caused climate change. These changes 
are also quite similar to those projected by climate models for the 
future.
    Furthermore, there are some indications--still hotly debated in the 
climate science community--that the current western drought itself may 
be related to human causes. In the Southwest, we have seen a northward 
shift in winter/spring storm systems that seems consistent with our 
understanding of human-caused climate change, and leaves the region 
with below-average precipitation. However, it is too early to know for 
sure if the current western drought, the worst in at least 100 years, 
is due to humans or not. What we do know is that human-caused warming 
is making the impacts of the drought more serious than the cooler 
droughts of the twentieth century.
    Many of the climate changes we are currently seeing appear to be 
consistent with what climate models project for the future. Given the 
recent (since 2000) jump in global carbon dioxide emissions to the 
atmosphere, we are now on track, over the next 100 years, to warm parts 
of the coterminous U.S. by more than 15<SUP>+</SUP>F in summer. This 
change, when coupled with dramatic warming in other seasons as well, 
should drive a much greater atmospheric demand for moisture, reduced 
spring snowpack, and regional river flows in the western U.S.
    Figure 2 shows only one recent estimate of how runoff, and hence 
river flow, could change in the next 50 years. Other estimates exist, 
but for the Colorado River Basin, almost all estimates are negative; 
some estimate suggest as much as a 40 percent reduction could occur by 
mid-century. Future warming and precipitation change, particularly in 
the spring season, appears to point only to one direction of water 
supply change - down.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Might Climate Change Spare Water Supply in all but the West and 
                    Southwest?

    Figure 2, as well as most other projections of future climate-
related water supply, paints a challenging picture for the West and 
Southwest regions of the country that have recently been experiencing 
some of the fastest growing populations in the Nation. Does this mean 
the rest of the country is safe from climate-related reductions in 
water supply? The answer is almost certainly ``No.''
    In addition to the average change depicted in Figure 2, climate 
theory and projections also point to a human-caused increase in the 
frequency of drought. The recent IPCC (2007) assessment of climate 
model projections indicates much of the conterminous U.S. should see an 
increase in the annual maximum number of consecutive dry days between 
rainfall events, a decrease in average soil moisture, and an increased 
likelihood of drought. Although these projected changes are less 
certain outside the West and Southwest, the current state of climate 
science suggests they should be considered real possibilities for the 
future.

The Combined Challenge of Climate Variability and Climate Change.

    Current scientific understanding of both climate variability 
(drought) and climate change indicates that there is a real future 
likelihood of both natural and human-caused reductions in climate-
related water supply. We now know that decades-long droughts can occur 
naturally in parts of the U.S., just as climate change could lead to 
greater aridity and an enhanced probability of drought in many parts of 
the country, particularly the West, Southwest, Texas, and across to the 
Southeast. These are the same parts of the country that are now 
experiencing drought. Thus, the present could be a window on the 
future.

Meeting the Climate Challenge to U.S. Water Supply.

    The future climate challenge confronting our nation's water supply 
is real, and will likely be due to both natural and human-caused 
threats. Fortunately, there are some ``no-regrets'' actions that can be 
taken regardless of cause:

(1) Call for, and support, an accelerated effort to understand climate-
related water supply vulnerabilities, both physical, biological, and 
social. Much remains to be learned about our nation's water supply, and 
how it might be managed in the future. It is outside the scope of this 
testimony to go into great detail, but some key questions warrant 
greater understanding:

        <bullet>  How can we improve the current generation of 
        hydrologic models used to project future river flow? For 
        example, model-based estimates of future climate-change related 
        reductions in Colorado River flow range from small (e.g., 10 
        percent) to large (e.g., 40 percent) by the middle of the 
        century. Effective management of future water supply will 
        require better hydrologic models.

        <bullet>  How best incorporate realistic assessments of future 
        climate change into river management models? This process has 
        begun, but needs to be accelerated given the importance of 
        realistic projections not just of physical water supply, but 
        also how well these supplies can be managed to meet projected 
        use.

        <bullet>  How much groundwater exists locally around the 
        country, and how quickly can groundwater be recharged in the 
        future, both by precipitation, and/or human mechanisms? Many 
        parts of the country, particularly in the West, consider 
        groundwater to be a principal source of water, at least in 
        times of surface-flow shortage. And yet, precise information 
        about the volume of these underground water resources is often 
        not available, nor is the full potential of underground water 
        banking fully understood. This limits realistic planning.

        <bullet>  How much water can be diverted safely from 
        agricultural use to uses that support population growth in 
        potentially water limited regions? In many areas, agriculture 
        accounts for 70 percent or more of total water usage. How much 
        of this water should be diverted from agricultural use in order 
        to support population growth, or is water left in agriculture 
        best viewed as a resource that can buffer long droughts when 
        other water resources become inadequate. Water left in 
        agriculture can be sold to non-agricultural users in order to 
        make up for water lost to drought. What is the true value of 
        agricultural water use?

(2) Call for, and support, an accelerated effort to understand climate 
variability and climate change processes, as well as how to predict 
them. Climate change science has made tremendous advances in the last 
decade, but is still limited due to incomplete science infrastructure 
and knowledge. Essential progress can be accelerated via greater 
funding of basic (e.g., NSF) and ``use-inspired'' (e.g., NOAA, DOE and 
NASA) climate change research. Well-planned global climate observing 
systems--both in situ and space-based--must be completed, and special 
efforts are needed to extend these observing networks to include much 
denser climate-related observations at the local to regional scales so 
important for decision-making. Climate modeling capability must also be 
enhanced to improve the realism of state-of-the-art models, 
particularly with regard to simulating (and predicting) climate 
variability and change at the global to regional-scales needed for 
enhanced planning and decision-making.
    Some regions with likely greater-than-average exposure to climate-
related water challenges, require an extra effort to understand what is 
at stake and what we can do about it. For example, the Southwest U.S. 
is the fastest growing part of the country, but it is also the region 
that could be most at risk to water supply shortage. Despite this, we 
lack an adequate understanding of the summer monsoon system that brings 
substantial rainfall to some parts of the region. We can't say whether 
this summer rainfall will likely go up, or go down. We don't know the 
implications of how changes in this basic water resource could be 
managed. As with other key regional issues, urgent attention is needed 
to make sure that some parts of the country don't become big losers in 
the face of climate variability and change.

(3) Call for, and support, a national climate service that is designed 
to support local and regional decision-makers in dealing with climate-
related reductions in water supply. At present, the climate-related 
decision-support needs of regional stakeholders (e.g., water managers) 
are not met adequately. A number of federal and State agencies have 
recognized this problem, and planning has begun at a number of levels 
for a more organized, interagency, national climate service. The key to 
success for such a service is that it be accountable to, and meet the 
needs of, regional decision-makers. This service should benefit from 
the national climate research, observations and modeling infrastructure 
(e.g., within NOAA), and it should also benefit from the experiences, 
and stakeholder-partnerships, of the NOAA-funded interdisciplinary 
Regional Integrated Science and Assessment (RISA) program. Any national 
climate service needs to have a strong accountability mechanism to 
ensure that the regional decision-making needs are met, first and 
foremost.
    In addition to the above ``no-regrets'' options, there is the 
option of mitigating--or reducing--the likely impacts of climate change 
on U.S. water supply:

(4) Create policy that reduces global greenhouse gas emissions. Current 
state-of-the-art climate science indicates that a tighter water supply 
could occur in many parts of our nation due to climate change. Large 
temperature increases, greater atmospheric demand for moisture, 
increasing snow reductions, river flow declines, and a likely increase 
in the probability of drought, all appear to be already underway in 
some parts of the globe, including the U.S. Climate model projections 
indicate that these trends will likely create an increasing challenge 
to water supply into the future, to 2100 and beyond. A national climate 
service (see #3 above) would serve to quantify the levels of climate-
related water reductions that can be met through technology, planning 
and adaptation. Beyond any ``adaptable'' level of climate change-
related water supply reduction, however, exists potentially dangerous 
levels of climate change that can be avoided through an aggressive 
effort to reduce greenhouse gas emissions.

Summary

    The outlook for climate-related changes in U.S. water supply is not 
positive, particularly in the West, Southwest, Texas and into the 
Southeast. Even in other parts of the Nation, water supply could become 
more limiting. However, the good news is that there is time to prepare 
for increasing water supply challenge, and to also avoid water supply 
reduction threats deemed dangerous. Urgent attention is warranted.
    Thank you for the opportunity to address you today.

                    Biography for Jonathan Overpeck
    Jonathan Overpeck is a climate system scientist at the University 
of Arizona, where he is also the Director of the Institute for the 
Study of Planet Earth, as well as a Professor of Geosciences and a 
Professor of Atmospheric Sciences. He received his BA from Hamilton 
College, followed by a M.Sc. and Ph.D. from Brown University. Jonathan 
has published over 120 papers in climate and the environmental 
sciences, and recently served as a Coordinating Lead Author for the 
Nobel prize winning UN Intergovernmental Panel on Climate Change (IPCC) 
Fourth Assessment (2007). He has also been awarded the U.S. Department 
of Commerce Bronze and Gold Medals, as well as the Walter Orr Roberts 
award of the American Meteorological Society, for his interdisciplinary 
research. Overpeck has also been a Guggenheim Fellow, and was the 2005 
American Geophysical Union Bjerknes Lecturer. He serves on the Board of 
Reviewing Editors for Science Magazine.

    Chairman Gordon. Thank you, Dr. Overpeck, and Dr. 
Wilkinson, you are recognized.

 STATEMENT OF DR. ROBERT C. WILKINSON, DIRECTOR, WATER POLICY 
   PROGRAM, DONALD BREN SCHOOL OF ENVIRONMENTAL SCIENCE AND 
       MANAGEMENT, UNIVERSITY OF CALIFORNIA-SANTA BARBARA

    Dr. Wilkinson. Thank you, Mr. Chairman. Chairman Gordon, 
Members of the Committee, I appreciate the opportunity to share 
some thoughts with you today. I have got some Power Points, and 
I will try to click through them quickly.
    Let me start with the four points I would like to make. 
Integrated policy and planning I am going to pitch, and I have 
in my written testimony that we couple the science and 
technology assets that we have with policy processes. Multiple 
benefit strategies, designs for flexibility, and put it all in 
a climate change context.
    This is a map of total water withdrawals in the U.S., and I 
will draw your attention to the little mountains off on the 
right-hand side of the picture. Most of those are thermal power 
plants. I was asked to address the water energy nexus, and so 
there is a differentiation here between the east and the west 
to some extent as to what we are withdrawing water for in 
different areas.
    Many water systems in the U.S. are already over-allocated 
and stressed. Every major supply system in California is 
already over-allocated.
    Here is a population growth map and water resources, and 
you can see even in areas that are marked in blue in terms of 
water resources when we look at the drought monitor for the 
U.S. Jonathan has in his presentation the same map for two 
months later, almost exactly, drawn from the current map here 
in May, it looks almost identical, so you can see some of that 
tremendous drought in the Southeast is occurring in areas that 
until recently many thought were wet and somewhat immune to the 
same kind of droughts.
    Nearly 20 years ago two of the stars in the field of 
climate science, Roger Evall and Paul Wagoner, made a very 
important observation. Governments at all levels should 
reevaluate legal, technical, and economic procedures for 
managing water resources in the light of climate changes that 
are highly likely.
    Indeed, we are seeing those changes unfold, and we need to 
visit, again, our institutions and legal frameworks as well as 
our science and technical capacity.
    Just a quick little bit of history of where we were only 50 
years ago in our thinking about water resource management. This 
is a map of North America. You will see in the upper left the 
water collection region. Coming down through the water transfer 
region it was thought that Oregon and Washington didn't need 
much, and we will distribute it down in the Southwest and be 
very generous right on across the Mexican border. And you will 
see in the middle of the picture the optional water 
distribution region, maybe even share some there.
    This was a serious plan. Here is the plumbing for that 
plan, and that was the way we were thinking about managing 
water through inter-basin transfers only 50 years ago. A lot of 
thinking has changed from the idea of building facilities in 
the West in particular with surface storage, with conveyance 
systems. We have some remarkable engineering and remarkable 
systems, but we are having difficulty with the match between 
hydrology and those systems providing for our needs.
    What we need is integrated whole-system approaches to water 
and energy management in the context of science and technology, 
of climate change, economics, and environmental concerns. We 
need policy strategies that are designed to tap multiple 
benefits and are flexible in the face of changing 
circumstances.
    So let me briefly go through then some energy observations 
here. About nineteen percent of California's electricity (I am 
going to focus here on California, if I may) and about a third 
of our natural gas goes to water. In fact, water is the top use 
of electricity in California. Now, our systems, as you can see 
ground water and local water projects, actually provide the 
majority of water, but we have major plumbing facilities as 
well.
    I will run you through the State project very quickly. That 
is the red line on this map. Here is all the pumping plants for 
that system. Here is one of them, the largest pumping plant in 
the world. That is only half of it at the foot of the Tehachapi 
Mountains, and this is what it looks like as we plot out all of 
the energy inputs to those systems.
    Putting that on a bar chart, the red bars are the inner-
base and transfer points, including the Colorado River Aqueduct 
and the State Water Project. You will note that they exceed 
ocean water desalination in terms of energy intensity already. 
Energy intensity is the total amount of energy embodied in 
water used in a particular place.
    We run through a calculation, California has been doing 
quite a bit of this work now, to figure out every step in that 
water process and then to understand opportunities to manage it 
differently.
    Here is one of the largest uses as you can see, single 
families for the U.S., not just California, and then going to 
the, half this residential, half of that is outdoors, half is 
indoors. Here is California's official State water plan, and 
here are the sources of water for the next quarter century. I 
will draw your attention to the bar on the right. Urban water 
use efficiency, doing something about that water use on the 
demand side is where we expect to get most of our water in the 
future, along with conjunctive management and recycled water. 
Those are the big ones.
    I am going to skip through because my time is out, but here 
are some of those opportunities for water management that are 
going to provide the new water supplies, at least according to 
our State planning process in California. Coupled to that is 
capturing storm water in different techniques that are often 
simple but very effective, recycling water, going to hi-tech 
filtration, reverse osmosis for different sources.
    And then going to the flip of that very quickly, the water 
intensity of energy, actually energy, thermal energy facilities 
are the largest use of water withdrawn in the United States 
along with agriculture over a third and about a three percent 
of total consumption.
    The federal labs are doing a lot of work on this. Analysis 
is indicating that we have got lots of opportunities to produce 
energy with very little or no water, and we have other 
opportunities that use tremendous amounts of water. So we have 
choices to make.
    Quick conclusions then. Water scarcity and quality will 
remain key issues. Vast opportunities do exist, though, for 
efficiency improvements. Science and technology are critically 
important in addressing water supply quality challenges but 
policy design and implementation is equally as important. So 
integrated whole-system planning and designing policies and 
infrastructure for flexibility and multiple benefits.
    I pose two questions in my written testimony. How can we 
decouple water and energy systems where there are high costs, 
stresses, damages, or vulnerabilities to systems, and how can 
we maximize water and energy efficiency and productivity so as 
to maximize benefits to society?
    Thank you very much.
    [The prepared statement of Dr. Wilkinson follows:]
               Prepared Statement of Robert C. Wilkinson
    The Committee on Science and Technology of the United States House 
of Representatives has chosen a critically important topic with this 
hearing on Water Supply Challenges for the 21st Century. Thank you for 
the opportunity to share some information and ideas with you today.
    I will focus on the water/energy nexus as it relates to science and 
technology, and also as it relates to policy design and implementation. 
The selection and implementation of policy instruments to address water 
and energy management challenges is integrally linked to the foundation 
provided by science and technology. Policy frameworks are important in 
achieving positive outcomes based on our investments in science and 
technology.
    The two main points I would like to convey today involve the need 
for:

        1.  Integrated, whole-system approaches to water and energy 
        management in the context of science and technology, climate 
        change, economics, and environmental concerns, and;

        2.  Policy strategies that are designed to tap multiple 
        benefits and are flexible in the face of changing 
        circumstances.

    Due to the importance of the climate change context for both water 
and energy, I provide brief comments on water/energy/climate links and 
tie them specifically to science and technology policy developments, 
particularly at the State level.
    This testimony presents both detailed California examples and U.S.-
wide data and considerations. Because we have developed good data and 
analyses of some of the water/energy/climate challenges in California, 
I will focus in this testimony on specifics from the state. The 
methodology and many of the lessons may be extrapolated to other parts 
of the country.

The Water and Energy Context

    Water use for urban and agricultural purposes around the world has 
been facilitated through diversions of surface water and extraction of 
groundwater delivered through conveyance systems. Both water and energy 
are often transported over long distances from their sources to the 
place where they are ultimately used. As technological capacity 
developed over the past century, surface water diversions, groundwater 
extraction, and conveyance systems increased in volume and geographic 
extent. Interbasin transfers supplemented water available within 
natural hydrological basins or watersheds. Agricultural and urban uses 
of arid lands were vastly extended by imported water. Similarly, energy 
systems have evolved from largely local sources a century ago to 
continent-wide electricity grids and pipeline networks, and to global 
supply-lines.
    Rainfall patterns in the United States vary widely. In Las Vegas, 
the driest of America's major cities, precipitation averages barely 
four inches (102 mm) per year. Portland, Oregon has nine times the 
precipitation of Las Vegas. Miami, Florida is doused with over 55 
inches (1,397 mm) per year, and the Northeast usually receives above 75 
inches (1,778 mm) per year.
    Generally, states east of the Mississippi have been assumed to have 
abundant water resources for water supply purposes. Recent droughts and 
shortages in Florida and the Southeast as well as other parts of the 
``wet'' east are changing this perception. West of the Mississippi, and 
particularly west of the Rocky Mountains, federally subsidized 
engineered systems of large dams and aqueducts or pipelines provide 
water supplies to many users. These systems were constructed during the 
1900s, motivated primarily by droughts that occurred periodically. 
Today, the sources of water for these facilities are over-allocated, 
and ``new'' future supplies are increasingly coming from improved 
water-use efficiency and recycling rather than from expensive new water 
supply development projects.
    The focus of technology development and policy for much of the past 
century has been on the supply side of both the energy and water 
equations. That is, the emphasis was on extracting, storing, 
converting, and conveying water and energy from natural systems to 
users. Water and energy policy throughout the world has generally been 
designed to facilitate the development and use of these supply-side 
technologies. In the last quarter century, however, scientific 
developments and technological innovation has increasingly been applied 
to improvement of the efficiency of use of energy and water resources. 
(``Efficiency'' as used here describes the useful work or service 
provided by a given amount of water or energy.) Significant potential 
economic as well as environmental benefits can be cost-effectively 
achieved through efficiency improvements in water and energy systems. 
Various technologies, from electric motors and lighting systems to 
pumps and plumbing fixtures have vastly improved end-use efficiencies.
    Today, the main constraints on water extractions are not technology 
limitations. Indeed, there is significant spare capacity for pumping 
and conveyance in many areas. The limits are increasingly imposed by 
competing claims on scarce water resources (e.g., the various claims to 
the Colorado River), legal constraints, and environmental impacts.
    Costs of building and maintaining infrastructure have also risen 
dramatically. The maintenance cost for existing water and wastewater 
systems is staggering. The American Society of Civil Engineers estimate 
an annual need for over $30 billion for safe drinking water ($11 
billion) and properly functioning wastewater treatment systems (about 
$20 billion) in the United States.\1\ They also indicate a need for 
about $1 billion per year to repair unsafe non-federal dams, the number 
of which has increased by a third in the past decade.\2\
---------------------------------------------------------------------------
    \1\ American Society of Civil Engineers, Report Card, http://
www.asce.org/reportcard/2005/page.cfm?id=23
    \2\ American Society of Civil Engineers, Report Card, http://
www.asce.org/reportcard/2005/page.cfm?id=23
---------------------------------------------------------------------------
    The focus of technology development and implementation policy to 
meet water needs is therefore increasingly on more efficient use and on 
water treatment technologies. Innovation and development of technology 
in the areas of end-use water applications and water treatment has 
progressed rapidly. Techniques and technologies ranging from laser 
leveling of fields and drip irrigation systems to the improved design 
of plumbing fixtures, industrial processes, and treatment technology 
have changed the demand side of the water equation. End-uses of water 
now require much less volume to provide equivalent or superior 
services. Rainwater capture for groundwater recharge and other 
innovative water capture strategies are also enhancing water supply 
reliability. Water supply systems (e.g., treatment and distribution) 
are also becoming more efficient. For example, geographical information 
systems (GIS) and field technologies allow for improved capabilities to 
locate leaks in buried pipes.

The Climate Change Context for Water Policy

    Climate change poses important water and energy management 
challenges. Science is indicating that the rate and magnitude of 
warming and related impacts are increasing. The Intergovernmental Panel 
on Climate Change's (IPCC's) Fourth Assessment Report in 2007 projected 
that the rate of warming over the 21st century--up to 11.5 degrees 
Fahrenheit--would be much greater than the observed changes during the 
20th century. The report also confirmed that ``11 of the last 12 years 
(1995 to 2006) rank among the twelve warmest years . . . since 1850.'' 
\3\ (The year 2007 has now registered as the second hottest year, 
extending the trend.) The IPCC projects the following changes as a 
result of increased temperatures:\4\
---------------------------------------------------------------------------
    \3\ Climate Change 2007: The Physical Science Basis: Summary for 
Policy-makers. Contribution of Working Group I to the Fourth Assessment 
Report of the Intergovernmental Panel on Climate Change, p. 4. http://
www.ipcc.ch/index.htm
    \4\ Climate Change 2007: The Physical Science Basis: Summary for 
Policy-makers. Contribution of Working Group I to the Fourth Assessment 
Report of the Intergovernmental Panel on Climate Change. http://
wvw.ipcc.ch/index.htm

        <bullet>  more frequent hot extremes, heat waves, and heavy 
---------------------------------------------------------------------------
        precipitation events

        <bullet>  more intense hurricanes and typhoons

        <bullet>  decreases in snow cover, glaciers, ice caps, and sea 
        ice

        <bullet>  rise in global mean sea level of seven to 23 inches, 
        however this projection does not include accelerated ice sheet 
        melting and other factors.

    Climate models consistently indicate a warmer future for the U.S. 
West. Evidence of warming trends is already being seen in winter 
temperatures in the Sierra Nevada, which rose by almost two degrees 
Celsius (four degrees Fahrenheit) during the second half of the 20th 
century. Trends toward earlier snowmelt and runoff to the Sacramento-
San Joaquin Delta over the same period have also been detected.\5\ 
Water managers are particularly concerned with the mid-range elevation 
levels where snow shifts to rain under warmer conditions, thereby 
reducing snow-water storage. California's Department of Water 
Resources, along with the California Energy Commission, has been 
tracking the climate change science since the 1980s.\6\
---------------------------------------------------------------------------
    \5\ Dettinger, MichaeLD., and Dan R. Cayan. 1994. Large-scale 
atmospheric forcing of recent trends toward early snowmelt runoff in 
California. Journal of Climate 8: 606-23.
    \6\ California Department of Water Resources, 2006. Progress on 
Incorporating Climate Change into Management of California's Water 
Resources, http://www.climatechange.ca.gov/documents/2006-
07<INF>-</INF>DWR<INF>-</INF>CLIMATE<INF>-</INF>CHANGE<INF>-</INF>F1NAL.
PDF
---------------------------------------------------------------------------
    California law states clearly that ``Global warming poses a serious 
threat to the economic well-being, public health, natural resources, 
and the environment of California.'' \7\ The potential impacts of 
climate change and variability to California are serious.\8\ Integrated 
policy, planning, and management of water resources and energy systems 
can provide important opportunities to respond effectively to 
challenges posed by climate change. Both mitigation (i.e., reducing 
greenhouse gas emissions) and adaptation (dealing with impacts) 
strategies are being developed. While both energy and water managers 
have used integrated planning approaches for decades, the broader 
integration of water and energy management in the context of climate 
change is a relatively new and exciting policy area.
---------------------------------------------------------------------------
    \7\ California Global Warming Solutions Act of 2006, (AB32) Section 
38501 (a).
    \8\ Intergovernmental Panel on Climate Change (IPCC) documents at: 
http://www.ipcc.ch/index.htm; Wilkinson, Robert C., 2002. The Potential 
Consequences of Climate Variability and Change for California, The 
California Regional Assessment, Report of the California Regional 
Assessment Group for the U.S. Global Change Research Program, National 
Center for Geographic Information Analysis, and the National Center for 
Ecological Analysis and Synthesis, University of California, Santa 
Barbara. Available at: http://www.ncgia.ucsb.edu/products.html

Integrating Water and Energy Policy

    Government agencies at various levels are currently integrating 
water and energy policies to respond to climate change as well as to 
environmental challenges and economic imperatives. Water and energy 
systems are interconnected in important ways. Developed water systems 
provide energy (e.g., through hydropower), and they consume energy 
through pumping, thermal, and other processes. Government agencies are 
looking at water delivery system and end-use water efficiency 
improvements, source switching (e.g., using recycled water for industry 
and irrigation), improved rainwater capture and groundwater recharge, 
and other measures that save energy by reducing pumping and other 
energy inputs. Recent studies are indicating significant opportunities 
in each area.\9\ Several California examples of coupled science/
technology/policy approaches are presented here. While they are 
specific to the state, many of the basic features are similar in other 
states across the U.S.
---------------------------------------------------------------------------
    \9\ See for example: Park, Laurie, Bill Bennett, Stacy 
Tellinghuisen, Chris Smith, and Robert Wilkinson, 2008. The Role of 
Recycled Water In Energy Efficiency and Greenhouse Gas Reduction, 
California Sustainability Alliance, available at: www.sustainca.org. 
Also see: California Energy Commission (2005). Integrated Energy Policy 
Report, November 2005, CEC-100-2005-007-CMF: and Klein, Gary (2005). 
California Energy Commission, California's Water--Energy Relationship. 
Final Staff Report, Prepared in Support of the 2005 Integrated Energy 
Policy Report Proceeding, (04-IEPR-01E) November 2005, CEC-700-2005-
011-SF.
---------------------------------------------------------------------------
    New approaches to the integration of water, energy, and climate 
change policy and planning, including policy processes at the state's 
Energy Commission, Public Utilities Commission, Department of Water 
Resources, Water Resources Control Board, and Air Resources Board, are 
being developed. Methodologies to account for embedded energy in water 
systems--from initial extraction through treatment, distribution, end-
use, wastewater treatment and discharge--and water use by energy 
systems, have been developed and are outlined below.\10\ Institutional 
collaboration between energy, water, and other management authorities 
is also evolving.
---------------------------------------------------------------------------
    \10\ Wilkinson, Robert C. (2000). Methodology For Analysis of The 
Energy Intensity of California's Water Systems, and an Assessment of 
Multiple Potential Benefits Through Integrated Water-Energy Efficiency 
Measures, Exploratory Research Project, Ernest Orlando Lawrence 
Berkeley Laboratory, California Institute for Energy Efficiency; 
California Energy Commission (2005). Integrated Energy Policy Report, 
November 2005, CEC-100-2005-007-CMF: California Energy Commission 
(2005).
---------------------------------------------------------------------------
    Integrated Energy Policy Report, November 2005, CEC-100-2005-007-
CMF: and Klein, Gary (2005). California Energy Commission, California's 
Water--Energy Relationship. Final Staff Report, Prepared in Support of 
the 2005 Integrated Energy Policy Report Proceeding, (04-IEPR-01E) 
November 2005, CEC-700-2005-011-SF.
    Water is now recognized as the largest electricity use in 
California. Water systems account for approximately 19 percent of total 
electricity use and about 33 percent of the non-power plant natural gas 
use in the state.\11\ The California Energy Commission (CEC) and the 
California Public Utilities Commission (CPUC) have both concluded that 
energy embedded in water presents large untapped opportunities for 
cost-effectively improving energy efficiency and reducing greenhouse 
gas (GHG) emissions. The CEC commented in its 2005 Integrated Energy 
Policy Report that: ``The Energy Commission, the Department of Water 
Resources, the CPUC, local water agencies, and other stakeholders 
should explore and pursue cost-effective water efficiency opportunities 
that would save energy and decrease the energy intensity in the water 
sector.'' \12\ Fortunately this corresponds with the state's 2005 Water 
Plan.\13\
---------------------------------------------------------------------------
    \11\ California Energy Commission (2005). Integrated Energy Policy 
Report, November 2005, CEC-100-2005-007-CMF.
    \12\ California Energy Commission (2005). Integrated Energy Policy 
Report, November 2005, CEC-100-2005-007-CMF.
    \13\ California Department of Water Resources (2005). California 
Water Plan Update 2005. Bulletin 160-05, California Department of Water 
Resources, Sacramento, CA.
---------------------------------------------------------------------------
    The California Energy Commission's staff report, California's 
Water--Energy Relationship, notes that: ``In many respects, the 2005 
Water Plan Update mirrors the state's adopted loading order for 
electricity resources described in the Energy Commission's Integrated 
Energy Policy Report 2005 and the multi-agency Energy Action Plan.'' 
\14\
---------------------------------------------------------------------------
    \14\ Klein, Gary (2005). California Energy Commission, California's 
Water--Energy Relationship. Final Staff Report, Prepared in Support of 
the 2005 Integrated Energy Policy Report Proceeding, (04-IEPR-01E) 
November 2005, CEC-700-2005-011-SF.
---------------------------------------------------------------------------
    One of the top recommendations in the California Energy 
Commission's 2005 Integrated Energy Policy Report (IEPR) is as follows: 
``The Energy Commission strongly supports the following energy 
efficiency and demand response recommendations: The CPUC, Department of 
Water Resources, the Energy Commission, local water agencies and other 
stakeholders should assess efficiency improvements in hot and cold 
water use in homes and businesses, and include these improvements in 
2006-2008 programs.'' It observes that ``Reducing the demand for energy 
is the most effective way to reduce energy costs and bolster 
California's economy.'' \15\
---------------------------------------------------------------------------
    \15\ California Department of Water Resources (2005). California 
Water Plan Update 2005. Bulletin 160-05, California Department of Water 
Resources, Sacramento, CA.
---------------------------------------------------------------------------
    Improvements in urban water use efficiency have been identified by 
the Department of Water Resources in its official State Water Plan as 
the largest new water supply for the next quarter century, followed by 
groundwater management and reuse. The following graph indicates the 
critical role water use efficiency, groundwater recharge and 
management, and reuse will play in California's water future.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The CEC staff report notes that, ``As California continues to 
struggle with its many critical energy supply and infrastructure 
challenges, the state must identify and address the points of highest 
stress. At the top of this list is California's water-energy 
relationship.'' \16\ It continues with this interesting finding: ``The 
state can meet energy and demand-reduction goals comparable to those 
already planned by the state's investor-owned energy utilities for the 
2006-2008 program period by simply recognizing the value of the energy 
saved for each unit of water saved. If allowed to invest in these cold 
water energy savings, energy utilities could co-invest in water use 
efficiency programs, which would in turn supplement water utilities' 
efforts to meet as much load growth as possible through water 
efficiency. Remarkably, staff's initial assessment indicates that this 
benefit could be realized at less than half the cost to electric rate 
payers of traditional energy efficiency measures.'' \17\
---------------------------------------------------------------------------
    \16\ Klein, Gary (2005). California Energy Commission, California's 
Water--Energy Relationship. Final Staff Report, Prepared in Support of 
the 2005 Integrated Energy Policy Report Proceeding, (04-IEPR-01E) 
November 2005, CEC-700-2005-011-SF.
    \17\ Klein, Gary (2005). California Energy Commission, California's 
Water--Energy Relationship. Final Staff Report, Prepared in Support of 
the 2005 Integrated Energy Policy Report Proceeding, (04-IEPR-01E) 
November 2005, CEC-700-2005-011-SF.
---------------------------------------------------------------------------
    This finding is consistent with an earlier analysis which found 
that energy use for conveyance, including interbasin water transfer 
systems (systems that move water from one watershed to another) in 
California, accounted for about 6.9 percent of the state's electricity 
consumption.\18\ Estimates by CEC's Public Interest Energy Research--
Industrial, Agriculture and Water (PIER-IAW) experts indicate that 
``total energy used to pump and treat this water exceeds 15,000 GWh per 
year, or at least 6.5 percent of the total electricity used in the 
state per year.'' They also note that the State Water Project (SWP)--
the state-owned storage and conveyance system that transfers water from 
Northern California to various parts of the state including Southern 
California--is the largest single user of electricity in the state, 
accounting for two percent to three percent of all the electricity 
consumed in California and using an average of 5,000 GWh per year.\19\
---------------------------------------------------------------------------
    \18\ Wilkinson, Robert C. (2000). Methodology For Analysis of The 
Energy Intensity of California's Water Systems, and an Assessment of 
Multiple Potential Benefits Through Integrated Water-Energy Efficiency 
Measures, Exploratory Research Project, Ernest Orlando Lawrence 
Berkeley Laboratory, California Institute for Energy Efficiency.
    \19\ California Energy Commission (2006). Public Interest Energy 
Research--Industrial, Agriculture and Water, http://energy.ca.gov/pier/
iaw/industry/water.html
---------------------------------------------------------------------------
    The magnitude of these figures suggests that failing to include 
embedded energy in water and wastewater systems, and failing to tap 
energy saving derived from water efficiency improvements would be a 
policy opportunity lost.

Tapping Integrated Water/Energy Opportunities

    Elements of typical water infrastructures are energy intensive. 
Moving large quantities of water long distances and over significant 
elevation gains, treating and distributing it within communities, using 
it for various purposes, and collecting and treating the resulting 
wastewater, accounts for one of the largest uses of electrical energy 
in many areas.\20\
---------------------------------------------------------------------------
    \20\ For a methodology to examine water intensity, see: Wilkinson, 
Robert C., 2000. Methodology For Analysis of The Energy Intensity of 
California's Water Systems, and an Assessment of Multiple Potential 
Benefits Through Integrated Water-Energy Efficiency Measures, 
Exploratory Research Project, Ernest Orlando Lawrence Berkeley 
Laboratory, California Institute for Energy Efficiency.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Water systems include extraction of ``raw'' (untreated) water 
supplies from natural sources, conveyance, treatment, storage, 
distribution, end-uses, and wastewater treatment. The total energy 
embodied in a unit of water used in a particular place varies with 
location, source, and use.
    There are four principle energy elements of water systems:

        1.  primary water extraction, conveyance, and storage

        2.  treatment and distribution within service areas

        3.  on-site water pumping, treatment, and thermal inputs 
        (heating and cooling)

        4.  wastewater collection, treatment and discharge

    Pumping water in each of these stages is energy-intensive. Other 
important energy inputs include thermal energy (heating and cooling) 
applications at the point of end-use, and aeration in wastewater 
treatment processes.

        1.  Primary water extraction, conveyance, and storage. 
        Extracting and lifting water is highly energy intensive. 
        Surface water and groundwater pumping requires significant 
        amounts of energy depending on the depth of the source. Where 
        water is stored in intermediate facilities, net energy is 
        required to store and then recover the water.

        2.  Treatment and distribution within service areas. Within 
        local service areas, water is treated, pumped, and pressurized 
        for distribution. Local conditions and sources determine both 
        the treatment requirements and the energy required for pumping 
        and pressurization. Some distribution systems are gravity-
        driven, while others require pumping.

        3.  On-site water pumping, treatment, and thermal inputs. 
        Individual water users require energy to further treat water 
        supplies (e.g., softeners, filters, etc.), circulate and 
        pressurize water supplies (e.g., building circulation pumps), 
        and heat and cool water for various purposes.

        4.  Wastewater collection, treatment, and discharge. Finally, 
        wastewater is collected and treated by a wastewater system 
        (unless a septic system or other alternative is being used) and 
        discharged. Wastewater is sometimes pumped to treatment 
        facilities where gravity flow is not possible, and the standard 
        treatment processes require energy for pumping, aeration, and 
        other processes.

    The simplified flow chart\21\ below illustrates the steps in the 
water system process.
---------------------------------------------------------------------------
    \21\ This schematic and method is based on Wilkinson (2000) with 
refinements by Gary Klein, California Energy Commission, Gary Wolff, 
Pacific Institute, and others.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The energy intensity of water varies considerably by geographic 
location of both end-users and sources. Water use in certain places is 
highly energy-intensive due to the combined requirements of conveyance 
over long distances and elevation lifts, treatment and distribution, 
and wastewater collection and treatment processes. Important work 
already undertaken by various government agencies, professional 
associations, private sector users, and non-governmental organizations 
in the area of combined end-use efficiency strategies has demonstrated 
considerable potential for improvement. Significant and profitable 
energy efficiency gains are possible through implementation of cost-
---------------------------------------------------------------------------
effective water efficiency improvements.

The Energy Intensity of Water in California: A Case Study

    California's water systems are uniquely energy-intensive due in 
large part to the pumping requirements of major conveyance systems 
which move large volumes of water long distances and over thousands of 
feet in elevation. Some interbasin transfer systems such as 
California's State Water Project (SWP) and the Colorado River Aqueduct 
(CRA) require large amounts of electrical energy to convey water.
    Water use (based on embedded energy) is the second or third largest 
consumer of electricity in a typical Southern California home after 
refrigerators and air conditioners.\22\ The electricity required to 
support water service in the typical home in Southern California is 
estimated to be between 14 percent to 19 percent of total residential 
energy demand.\23\ The Metropolitan Water District of Southern 
California (MWD) reached similar findings, estimating that energy 
requirements to deliver water to residential customers equals as much 
as 33 percent of the total average household electricity use.\24\ 
Nearly three quarters of this energy demand is for pumping imported 
water.
---------------------------------------------------------------------------
    \22\ Wilkinson, Robert C. (2000). Methodology For Analysis of The 
Energy Intensity of California's Water Systems, and an Assessment of 
Multiple Potential Benefits Through Integrated Water-Energy Efficiency 
Measures, Exploratory Research Project, Ernest Orlando Lawrence 
Berkeley Laboratory, California Institute for Energy Efficiency; QEI, 
Inc. (1992). Electricity Efficiency Through Water Efficiency, Report 
for the Southern California Edison Company.
    \23\ QEI, Inc. (1992). Electricity Efficiency Through Water 
Efficiency, Report for the Southern California Edison Company.
    \24\ Metropolitan Water District of Southern California (1996). 
Integrated Resource Plan for Metropolitan's Colorado River Aqueduct 
Power Operations.
---------------------------------------------------------------------------
    Water system operations pose a number of challenges for energy 
systems due to factors such as large loads for specific facilities, 
time and season of use, and geographic distribution of loads. Pumping 
plants are among the largest electrical loads in the state. For 
example, the SWP's Edmonston Pumping Plant, situated at the foot of the 
Tehachapi Mountains, pumps water 1,926 feet (the highest single lift of 
any pumping plant in the world) and is the largest single user of 
electricity in the state.\25\ In total, the SWP system is the largest 
user of electricity in the state.\26\ A study for the Electric Power 
Research Institute by Franklin Burton found that at a national level, 
water systems account for an estimated 75 billion kWh per year (about 
three percent of total electricity demand).\27\
---------------------------------------------------------------------------
    \25\ California Department of Water Resources (1996). Management of 
the California State Water Project. Bulletin 132-96.
    \26\ Anderson, Carrie (1999). ``Energy Use in the Supply, Use and 
Disposal of Water in California,'' Process Energy Group, Energy 
Efficiency Division, California Energy Commission.
    \27\ Burton, Franklin L. (1996). Water and Wastewater Industries: 
Characteristics and Energy Management Opportunities. (Burton 
Engineering) Los Altos, CA, Report CR-106941, Electric Power Research 
Institute Report.
---------------------------------------------------------------------------
    The schematic below shows the cumulative net energy, and the 
incremental energy inputs or outputs, at each of the pumping and energy 
recovery facilities of the SWP. (Energy recovery is indicated with 
negative numbers, which reduce net energy at that point in the system.)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Approximately 5,418 kWh are required to pump one acre-foot of SWP 
water from the Sacramento-San Joaquin Delta to Cherry Valley on the 
East Branch, 2,580 kWh/af at Castaic on the West Branch, and 2,826 kWh/
af to Polonio on the Coastal Branch. Approximately 2,000 kWh/af is 
required to pump Colorado River water to Southern California.\28\ This 
is raw (untreated) water delivered to those points. From there 
conveyance continues by gravity or pumping to treatment and 
distribution within service areas.
---------------------------------------------------------------------------
    \28\ Metropolitan Water District of Southern California (1996). 
Integrated Resource Plan for Metropolitan's Colorado River Aqueduct 
Power Operations.
---------------------------------------------------------------------------
    Note that at certain points in the system the energy intensity is 
high because the service areas are located at higher elevations. At 
Pearblossom (4,444 kWh/af) raw water supplies are roughly equivalent to 
estimates for desalinated ocean water systems. (Ocean desalination is 
estimated at 4,400 kWh/af based on work by the author for the 
California Desalination Task Force.) At Crafton Hill and Cherry Valley, 
the energy intensity of imported water is well in excess of current 
estimates of ocean desalination.
    The following graph shows the energy intensity of major water 
supply options for actual inland and coastal locations in Southern 
California.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Each bar represents the energy intensity of a specific water supply 
source at selected locations in Southern California. The data is 
presented in kWh/af. Water conservation--e.g., not using water in the 
first place--avoids additional energy inputs along all segments of the 
water use cycle. Consequently, water use efficiency is the superior 
water resource option from an energy perspective (and typically from a 
cost perspective as well). For all other water resources, there are 
ranges of actual energy inputs that depend on many factors, including 
the quality of source water, the energy intensity of the technologies 
used to treat the source water to standards needed by end-users, the 
distance water needs to be transported to reach end-users, and the 
efficiency of the conveyance, distribution, and treatment facilities 
and systems.\29\
---------------------------------------------------------------------------
    \29\ Wilkinson, Robert C. (2000). Methodology For Analysis of The 
Energy Intensity of California's Water Systems, and an Assessment of 
Multiple Potential Benefits Through Integrated Water-Energy Efficiency 
Measures, Exploratory Research Project, Ernest Orlando Lawrence 
Berkeley Laboratory, California Institute for Energy Efficiency.
---------------------------------------------------------------------------
    Note that improved efficiency (e.g., fixing leaks, replacing 
inefficient plumbing fixtures and irrigation systems, and other cost-
effective measures) requires no water system energy inputs. Next to 
water conservation, recycled water and groundwater are lower energy 
intensity options than most other water resources in many areas of 
California.\30\ Even with advanced treatment to deal with salts and 
other contaminants (the blue and green bars), recycled water and 
groundwater usually require far less energy than the untreated imported 
water (red bars) and seawater desalination (yellow bars). The Chino 
desalter, a reverse osmosis (RO) treatment process providing high-
quality potable water from contaminated groundwater (the energy figure 
above includes groundwater pumping and RO filtration) is far less 
energy intensive than any of the imported raw water. From an energy 
standpoint, greater reliance on water conservation, reuse and 
groundwater provides significant benefits. From a greenhouse gas 
emissions standpoint, these energy benefits provide significant 
potential emissions reduction benefits in direct relation to their 
energy savings.
---------------------------------------------------------------------------
    \30\ Park, Laurie, Bill Bennett, Stacy Tellinghuisen, Chris Smith, 
and Robert Wilkinson, 2008. The Role of Recycled Water In Energy 
Efficiency and Greenhouse Gas Reduction, California Sustainability 
Alliance, available at: www.sustainca.org
---------------------------------------------------------------------------
    Groundwater pumping energy requirements vary depending on the lift 
required. The California Energy Commission's Public Interest Energy 
Research--Industrial, Agriculture and Water program provides the 
following assessment of pumping in important parts of the Central 
Valley: ``The amount of energy used in pumping groundwater is unknown 
due to the lack of complete information on well-depth and groundwater 
use. DWR has estimated groundwater use and average well depths in three 
areas responsible for almost two-thirds of the groundwater used in the 
state: the Tulare Lake basin, the San Joaquin River basin, and the 
Central Coast region. Based on these estimates, energy used for 
groundwater pumping in these areas would average 2,250 GWh per year at 
a 70 percent pumping efficiency (1.46 kWh/acre-foot/foot of lift). In 
the Tulare Lake area, with an average well depth of 120 feet, pumping 
would require 175 kWh per acre-foot of water. In the San Joaquin River 
and Central Coast areas, with average well depths of 200 feet, pumping 
would require 292 kWh per acre-foot of water.'' \31\ Analysis of these 
different sources provides a reasonably consistent result: Local 
groundwater and recycled water are far less energy intensive than 
imported water or ocean desalination.
---------------------------------------------------------------------------
    \31\ California Energy Commission (2006). Public Interest Energy 
Research--Industrial, Agriculture and Water, http://energy.ca.gov/pier/
iaw/industry/water.html
---------------------------------------------------------------------------
    The energy intensity of most water supply sources may increase in 
the future due to increased concerns regarding water quality.\32\ It is 
worth noting that advanced treatment systems such as RO facilities that 
are being used to treat groundwater, reclaimed supplies, and ocean 
water have already absorbed most of the energy impacts of higher levels 
of treatment. By contrast, some of the raw water supplies may require 
larger incremental energy inputs in the future for treatment. This may 
further advantage the local sources.
---------------------------------------------------------------------------
    \32\ Burton, Franklin L. (1996). Water and Wastewater Industries: 
Characteristics and Energy Management Opportunities. (Burton 
Engineering) Los Altos, CA, Report CR-106941, Electric Power Research 
Institute Report.

Policy Implications: Tapping Multiple Benefits Through Integrated 
                    Planning

    When the costs and benefits of a proposed policy or action are 
analyzed, we typically focus on accounting for costs, and then we 
compare those costs with a specific, well-defined benefit such as an 
additional increment of water supply. We often fail to account for 
other important benefits that accrue from well-planned investments that 
solve for multiple objectives. With a focus on multiple benefits, we 
account for various goals achieved through a single investment. For 
example, improvements in water use efficiency--meeting the same end-use 
needs with less water--also typically provides related benefits such as 
reduced energy requirements for water pumping and treatment (with 
reduced pollution and greenhouse gas emissions related to energy 
production as a result), and reduced water and wastewater 
infrastructure capacity (capital costs) and processing (operating 
costs) requirements. Impacts caused by extraction of source water from 
surface or groundwater systems are also reduced. Water managers often 
do not receive credit for providing these multiple benefits when they 
implement water efficiency, recharge, and reuse strategies. From both 
an investment perspective, and from the standpoint of public policy, 
the multiple benefits of efficiency improvements and recharge and reuse 
should be fully included in cost/benefit analysis.
    Policies that account for the full embedded energy of water use 
have the potential to provide significant additional public and private 
sector benefits. Economic and environmental benefits are potentially 
available through new policy approaches that properly account for the 
energy intensity of water.
    Energy savings may be achieved both upstream and downstream of the 
point of use when the energy consumption of both water supply and 
wastewater treatment systems are taken into account. Methods, metrics, 
and data are available to provide a solid foundation for policy 
approaches to account for energy savings from water efficiency 
improvements, though can and should be improved. Policies can be based 
on methodologies and metrics that are already established.

Policy Precedents and the Role of Government

    Water and energy are currently regulated by government because 
there is a compelling public interest in oversight and management of 
these critical resources. Encouraging and requiring the efficient use 
of both water and energy is a well-established part of the policy 
mandate under which government agencies operate. Inefficient use of 
water and energy leads to public and private costs to the economy and 
the environment. The public interest in resource-use efficiency relates 
directly to environmental impacts and public welfare. This is why we 
have efficiency standards for energy and water resources. Water-using 
devices, like energy-using devices, are often regulated through various 
policy measures including efficiency standards.
    Policy regarding both energy and water already addresses water use 
and related embedded energy use. For example, the U.S. Energy Policy 
Act of 1992 set standards for the maximum water use of toilets, 
urinals, showerheads, and faucets. (See Table below.) Why does the U.S. 
Energy Act include standards for water use? It is because the energy 
required to convey, treat, and deliver potable water supplies, and the 
energy required to collect, treat, and discharge the resulting 
wastewater, is significant. The energy savings resulting from water 
efficiency are also significant.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    These standards became effective in 1994 for residential and 
commercial plumbing fixtures, although the commercial water closet 
standard was not required until 1997 because of uncertainties regarding 
performance of the fixtures. In this respect, the United States is well 
behind certain countries of Europe, where the six-liter water closet 
has been in use for many years and where horizontal axis washing 
machines are more common than in the United States.
    In 1996, the U.S. Congress passed a reauthorization of the Federal 
Safe Drinking Water Act. For the first time, Congress formally 
recognized the need for water conservation planning by allowing 
individual states to mandate conservation planning and implementation 
as a condition of receiving federal grants for water supply treatment 
facilities.\33\ This was a significant step for the federal government. 
At about the same time, the U.S. Bureau of Reclamation set conservation 
and efficiency requirements for those agricultural and urban water 
agencies that receive federally subsidized water from the Bureau 
facilities. This also was a significant step. Other federal statutes 
create incentives for farmers and landowners to participate in soil and 
water conservation programs, and to initiate voluntary water transfers 
of conserved water.
---------------------------------------------------------------------------
    \33\ U.S. Environmental Protection Agency (1998). Water 
Conservation Plan Guidelines for Implementing the Safe Drinking Water 
Act.
---------------------------------------------------------------------------
    The significant water efficiency and conservation activity, 
however, takes place at the State and regional levels. Interest in 
water efficiency is primarily highest in those regions of the country 
where precipitation is lowest, or where wastewater treatment costs have 
skyrocketed. Seventeen states, representing over 60 percent of the 
Nation's population, had already adopted their own plumbing efficiency 
standards long before passage of the federal law in 1992. Fifteen 
states have also adopted specific conservation programs, which vary 
from mandating conservation planning by water utilities to requiring 
actual implementation of specific water efficiency programs. The states 
most active in conservation activities are: Arizona; California; 
Colorado; Connecticut; Florida; Kansas; New Jersey, Oregon; Texas; and 
Washington State.\34\ Individual cities have also adopted water 
efficiency programs where necessary (New York City, Boston, and Las 
Vegas are examples).
---------------------------------------------------------------------------
    \34\ Miri, Joseph, 1999. ``Snapshot of Conservation Management: A 
Summary Report of the American Water Works Association Survey of State 
Water Conservation Programs.'' American Water Works Association.
---------------------------------------------------------------------------
    In general, where water supply withdrawals are regulated by State 
agencies, water conservation is usually a prominent planning 
requirement for water utilities. A number of states not only require 
plans of their water utilities, but also require that progress be 
demonstrated in water efficiency programs before approvals for 
continued water supply withdrawals are given. Many states also 
condition State grants for new facility construction upon a 
satisfactory demonstration of conservation planning and implementation 
by the water utility.\35\
---------------------------------------------------------------------------
    \35\ One of the best sources on water efficiency in the U.S. is 
Mary Ann Dickinson, Executive Director, Alliance for Water Efficiency, 
P.O. Box 804127, Chicago, IL 60680-4127. The Alliance web site is: 
www.allianceforwaterefficiency.org
---------------------------------------------------------------------------
    California adopted plumbing standards in 1978 for showerheads and 
faucets, and water closet standards in 1992. Comprehensive conservation 
planning was adopted in 1983 for all water agencies serving more than 
3,000 connections or 3,000 people.\36\ In a unique consensus 
partnership, a Memorandum of Understanding was signed in 1991 by major 
water utilities and environmental groups pledging to undertake water 
efficiency practices (the ``Best Management Practices'').\37\
---------------------------------------------------------------------------
    \36\ California Water Code, Sections 10620 et seq.
    \37\ California Urban Water Conservation Council (1991). 
``Memorandum of Understanding Regarding Urban Water Conservation in 
California,'' (First adopted September, 1991).

Environmental Benefits of Integrated Water and Energy Efficiency 
                    Strategies

    Water conservation is a powerful tool in the integrated resource 
management toolbox. By reducing the need for new water supply and 
additional wastewater treatment--particularly in areas of rapid 
population growth--conserved water allows more equitable allocation of 
water resources for other purposes. By way of illustration, one 
estimate indicates that the installation of 1.6 gallon per flush 
toilets in the U.S. will save over two billion gallons per day 
nationwide by the year 2010.\38\ These saved water resources can be 
directed toward future water supply growth or other uses for the water. 
It ``stretches'' the available supply.
---------------------------------------------------------------------------
    \38\ Osann, Edward and John Young (1998). Saving Water Saving 
Dollars: Efficient Plumbing Products and the Protection of American 
Water.
---------------------------------------------------------------------------
    Perhaps most significantly, it has become clear in recent decades 
that the extraction and diversion of water supplies has had major 
impacts on the quality of the natural environment and on individual 
species. Facilities built to dam, divert, transport, pump, and treat 
water are massive projects that often cause serious and sometimes 
irreversible environmental impacts.
    As a result, water conservation is playing an important role in 
helping meet the environmental goals of many communities. Efficiency 
programs have been required in numerous areas to help achieve some of 
the following results:

        <bullet>  Maintaining habitat along rivers and streams and 
        restoring fisheries;

        <bullet>  Protecting groundwater supplies from excessive 
        depletion and contamination;

        <bullet>  Improving the quality of wastewater discharges;

        <bullet>  Reducing excessive runoff of urban contaminants; and

        <bullet>  Restoring the natural values and functions of 
        wetlands and estuaries.

The Role of Price Signals Coupled With Policy

    Attention has turned to technologies that improve energy and water-
use efficiency. From industrial processes to plumbing fixtures and 
irrigation systems, water is being used far more efficiently than in 
the past. One reason the focus of technological innovation has shifted 
from supply development to improving efficiency is economics. When 
water is cheap, there is little incentive to design and build water-
efficient technologies. As the cost of water increases, technology 
options for reducing waste and providing greater end-use efficiency 
become more cost-effective and even profitable. Technologies for 
measuring, timing, and controlling water use, and new innovations in 
the treatment and re-use of water, are growing areas of technology 
development and application.
    Impetus for scientific inquiry and technology innovation and 
development has been provided by both price signals (increasing costs) 
and public policy (e.g., requirements for internalization of external 
costs). Public policy is increasingly incorporating these costs, 
including those of climate change, into resource prices. As water and 
energy prices continue to reflect full costs, including environmental 
costs previously externalized, they increase.
    At the same time, technology has provided a wide range of options 
for expanding the utility value through efficiencies (less water and 
energy required to perform a useful service). The ability to treat and 
reuse water, improve energy efficiency, and substituting ways to 
provide services previously performed by water and energy. Broader 
application of these technologies and techniques can yield significant 
additional energy, water, economic, and environmental benefits.
    Public policy can be designed to encourage ``best management 
practices'' by both water and energy suppliers and users. Appliance 
efficiency standards (for both energy and water) and minimum waste 
requirements are examples. Policy measures have also been used to frame 
and guide market signals by implementing mechanisms such as increasing 
tiered pricing structures, meter requirements (some areas do not even 
measure use), and other means to utilize simple market principles and 
price signals more effectively.
    In an economic and resource management sense, efficiency 
improvements are now considered as supply options, to the extent that 
permanent improvements in the demand-side infrastructure provide 
reliable water and/or energy savings. Most experts agree that coupling 
technology options such as efficient plumbing and energy-using devices 
to economic incentives (e.g., rebates) and disincentives (e.g., 
increasing tiered rate structures) is the best strategy. The coupling 
provides both the means to improve productive water and energy use and 
the incentive to do it.

Seawater Desalination's Role in Integrated Water Supply Portfolios

    Seawater desalination has been viewed as the ultimate drought 
hedge, enabling water providers to augment water supplies with desalted 
ocean water, a virtually inexhaustible water source. Both the theory 
and practice of desalination date back to the ancient Greeks and 
perhaps earlier, but costs have held desalination to limited use.
    The salinity of ocean water varies, with the average generally 
exceeding 30 grams per liter (g/l). The Pacific Ocean is 34-38 g/l, the 
Atlantic Ocean averages about 35 g/l, and the Persian Gulf is 45 g/l. 
Brackish water drops to 0.5 to 3.0 g/l. Potable water salt levels 
should be below 0.5 g/l.
    Reducing salt levels from over 30 g/l to 0.5 g/l and lower 
(drinking water standards) using existing technologies requires 
considerable amounts of energy, either for thermal processes or for the 
pressure to drive water through extremely fine filters (RO), or for 
some combination of thermal and pressure processes. Recent improvements 
in energy efficiency have reduced the amount of thermal and pumping 
energy required for the various processes, but high energy intensity is 
still an issue. The energy required is in part a function of the degree 
of salinity and the temperature of the water.
    Seawater desalination is a primary source of water in some 
countries in the Middle East. It is also becoming an important resource 
in other countries including Spain, Singapore, China, and Australia. A 
few recent examples include:

        <bullet>  In 2006, Singapore completed a 36 MGD seawater 
        reverse osmosis (SWRO) plant capable of serving 10 percent of 
        its national water demand.\39\
---------------------------------------------------------------------------
    \39\ ``Tuas Seawater Desalination Plant, Seawater Reverse Osmosis 
(SWRO), Singapore,'' watertechnology. http://www.water 
 technology.net/projects/tuas/, viewed April 23, 2008.

        <bullet>  As of 2006, more than 20 seawater desalination plants 
        were operating in China.\40\
---------------------------------------------------------------------------
    \40\ ``Seawater desalination to relieve water shortage in China,'' 
China Economic Net, Feb. 28, 2006, http://en.ce.cn/Insight/200602/28/
t20060228<INF>-</INF>6217706.shtml

        <bullet>  In November 2006, Western Australia became the first 
        state in the country to use desalination as a major public 
        water source.\41\
---------------------------------------------------------------------------
    \41\ ``Perth Seawater Desalination Plant, Seawater Reverse Osmosis 
(SWRO), Kwinana, Australia,'' watertechnology. http://www.water 
 technology.net/projects/perth/

    A number of desalination plants are currently being planned or 
developed in the U.S. On January 25, 2008, Tampa Bay Water announced 
that it had commenced full operations of its 25 MGD desalination plant, 
presently the largest seawater desalination plant in North America. At 
full capacity, the plant will provide 10 percent of the drinking water 
supply for the Tampa Bay region.\42\ In 2004, the Texas Water 
Development Board (TWDB) identified desalination as an important 
strategy for meeting growth in water demand.\43\ In its 2006 update to 
the Governor and the Legislature, the TWDB stated that ``Seawater 
desalination can no longer be considered a water supply option 
available only to communities along the Texas Gulf Coast.\44\ It must 
also be considered as an increasingly viable water supply option for 
major metropolitan areas throughout Texas.'' \45\ The report encourages 
State investments for a full-scale seawater desalination demonstration 
project by the Brownsville Public Utilities Board ``. . . as a 
reasonable investment in a technology that holds the promise of 
providing unlimited supplies of drinking water even during periods of 
extreme drought.''
---------------------------------------------------------------------------
    \42\ ``Drought-Proof Water Supply Delivering Drinking Water, The 
Nation's first large-scale seawater desalination plant eases Tampa Bay 
region's drought worries.'' News release, January 25, 2008, http://
www.tampabaywater.org/whatshot/readnews.aspx?article=131, viewed April 
23, 2008.
    \43\ ``According to the 2002 State Water Plan, four of the six 
regional water planning areas with the greatest volumetric water supply 
needs in 2050 will be regions that have large urban, suburban, and 
rural populations located on or near the Texas Gulf Coast. These 
populations could conceivably benefit from a new, significant, and 
sustainable source of high-quality drinking water.'' The Future of 
Desalination in Texas, 2004 Biennial Report on Semvater Desalination, 
Texas Water Development Board, p. ix.
    \44\ Section 16.060 of the Texas Water Code directs the Texas Water 
Development Board to ``. . . undertake or participate in research, 
feasibility and facility planning studies, investigations, and surveys 
as it considers necessary to further the development of cost effective 
water supplies from seawater desalination in the state.'' The Code also 
requires a biennial progress report be submitted to the Governor, 
Lieutenant Governor, and Speaker of the House of Representatives.
    \45\ ``The Future of Desalination in Texas, 2006 Biennial Report on 
Seawater Desalination,'' Texas Water Development Board, Executive 
Summary, pp. iv-v.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In California, interest in seawater desalination is also 
escalating. Heather Cooly and colleagues at the Pacific Institute found 
that as of 2006, about 266 to 379 MGD of new seawater desalination 
facilities were planned in California.\46\
---------------------------------------------------------------------------
    \46\ Cooley, Heather, Peter H. Gleick, and Gary Wolff, 2006. 
Desalination, With a Grain of Salt, Pacific Institute for Studies in 
Development, Environment, and Security, 654 13th Street, Preservation 
Park, Oakland, California 94612, http://www.pacinst.org/reports/
desalination/index.htm
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In November 2007, Poseidon Resources won conditional regulatory 
approval from the California Coastal Commission to build a $300 million 
plant north of San Diego. The Carlsbad Desalination Plant will be the 
largest in the western hemisphere if completed as planned. On its web 
site, Poseidon reported that most of the plant's capacity has already 
been committed to serve baseload water requirements for local water 
agencies.\47\
---------------------------------------------------------------------------
    \47\ Posidon Resources, http://www.carlsbaddesal.com/
partnerships.asp

Water Inputs to U.S. Energy Systems

    The other side of the water/energy nexus is the water intensity of 
energy. In this case, water inputs to energy systems are identified and 
quantified to understand where water is used, and how much is required 
for different types of energy sources and services.
    Water inputs to energy systems are significant but highly variable. 
For example, primary fuels, such as oil, gas, and coal, often require 
water for production, and they sometimes ``produce'' water of various 
qualities as a by-product of extraction. Biofuels may require water not 
only for irrigation of crops but also for production processes. 
Electricity generation in thermoelectric plants typically uses water 
for cooling and other processes, although dry cooling technology exists 
and is improving. Some forms of electricity production such as wind and 
certain co-generation processes require no water at all.
    The USGS estimates in its most recent analysis that 48 percent of 
all U.S. freshwater and saline-water withdrawals were used for 
thermoelectric power, with the majority of the fresh water extracted 
from surface sources (e.g., lakes and rivers) and used for once-through 
cooling at thermal power plants. USGS notes that ``about 52 percent of 
fresh surface-water withdrawals and about 96 percent of saline-water 
withdrawals were for thermoelectric-power use.'' \48\
---------------------------------------------------------------------------
    \48\ Hutson, Susan S., Nancy L. Barber, Joan F. Kenny, Kristin S. 
Linsey, Deborah S. Lumia, and Molly A. Maupin, 2005. Estimated Use of 
Water in the United States in 2000, U.S. Geological Survey, Circular 
1268, (released March 2004, revised April 2004, May 2004, February 
2005) USGS, P. 1. http://water.usgs.gov/pubs/circ/2004/circ1268/
index.html
---------------------------------------------------------------------------
    Water is increasingly viewed as a limiting factor for thermal power 
plant siting and operation. Large-scale thermoelectric plants in the 
U.S., Europe, and elsewhere have experienced serious problems in recent 
years due to the lack of available cooling water. Power production was 
reduced or curtailed in Europe during the heat wave in 2003, and power 
plants in the U.S. have been impacted by low water and by elevated 
temperatures, or both, during the past decade. As recently as this past 
winter power plant operators were concerned about the impact of the 
drought in the U.S. Southeast and the potential for adverse impacts to 
thermal power plants. Hydroelectric power production is also impacted 
by low water levels, including a continuing long-term dry period in the 
Colorado River basin.
    Although cooling systems account for the majority of water used in 
power generation, water is also used in other parts of the process: 
water may be used to mine, process, or transport fuels (e.g., coal 
slurry lines). These processes may have important local impacts on 
water resources. Some energy sources such as oil shale, tar sands, and 
marginal gas and petroleum reserves may have additional water needs 
and/or significant local impacts on water quality and quantity.
    The U.S. National Labs have been working for several years on an 
``Energy/Water Nexus'' effort.\49\ A report entitled ``Energy Demands 
on Water Resources Report to Congress on the Interdependency of Energy 
and Water'' was submitted to Congress in 2007.\50\ As with other 
analyses of the issue, the report found that some energy systems are 
highly dependent on large volumes of water resources (and vulnerable to 
disruptions), while other energy sources are independent of water. 
Further analysis of the opportunities for improving resilience and of 
beneficial decoupling water and energy are in order.
---------------------------------------------------------------------------
    \49\ See for example Sandia's web site at: http://www.sandia.gov/
energy-water/
    \50\ See ``Energy Demands on Water Resources Report to Congress on 
the Interdependency of Energy and Water,'' U.S. Department of Energy, 
December 2006, http://www.sandia.gov/energy-water/
congress<INF>-</INF>report.htm
---------------------------------------------------------------------------
    The National Energy Technology Laboratory (NETL) has developed 
several studies and reports, including an updated report entitled 
``Estimating Freshwater Needs to Meet Future Thermoelectric Generation 
Requirements'' in 2007.\51\ NETL has strong expertise on coal and 
thermal power production at coal-fired power plants. Its study 
indicates that water consumption is projected to increase over a range 
of scenarios, while extraction is expected to decline. This is due to 
an expected shift away from one-through cooling systems, which cycle 
more extracted water through the plants, but consume (e.g., evaporate) 
less than recycle cooling systems. The study also indicates that carbon 
capture and storage (CCS) as a strategy to reduce greenhouse gas 
emissions will add significant water consumptive demands to coal-based 
power production.
---------------------------------------------------------------------------
    \51\ National Energy Technology Laboratory, 2007. ``Estimating 
Freshwater Needs to Meet Future Thermoelectric Generation 
Requirements'' 2007 Update, DOE/NETL-400/2007/1304, www.netl.doe.gov
---------------------------------------------------------------------------
    Other studies from federal labs and research institutions are 
exploring links between energy systems and water requirements. The 
National Renewable Energy Lab (NREL), for example, has been working on 
the role of renewables to reduce water demands from the energy sector.
    A recent research project by graduate students at the University of 
California, Santa Barbara found that water use for renewable forms of 
energy varies substantially.\52\ Solar photovoltaics, wind turbines, 
and landfill gas-to-energy projects require very little water, if any. 
Likewise, geothermal and concentrating solar power (CSP) systems that 
employ dry cooling technology also have minimal water requirements. In 
contrast, irrigated bio-energy crops could potentially consume 
exponentially more water per unit of electricity generated than 
thermoelectric plants. Geothermal plants may also have high water 
requirements, depending on the geothermal resource and the conversion 
technology employed. Many geothermal plants, however, rely on 
geothermal fluids (often high in salts or other minerals). Finally, 
although reservoirs often have multiple purposes (e.g., flood control, 
water storage, and recreation), evaporative (consumptive) losses from 
hydroelectric facilities per unit of electricity are higher than many 
other forms of generation. As the following graph indicates, water 
requirements vary substantially, depending on the primary fuel source 
and the technology employed.
---------------------------------------------------------------------------
    \52\ Information and graph are from Dennen, Bliss, Dana Larson, 
Cheryl Lee, James Lee, Stacy Tellinghuisen, 2007. ``California's 
Energy-Water Nexus: Water Use in Electricity Generation,'' Group 
Project Report, Donald Bren School of Environmental Science & 
Management, University of California, Santa Barbara, available at: 
http://fiesta.bren.ucsb.edu/energywater/
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The various water inputs to energy systems are, as noted, highly 
variable. It is not at all clear that meeting our energy needs requires 
large amounts of water, as has been the case in the past. Indeed, the 
data above indicate that we have choices. An important step in 
addressing the water and energy challenge is to analyze the 
---------------------------------------------------------------------------
relationships between them and the technology and policy options.

Recommendations for Further Research and Development

    There are of course various approaches to meeting the challenge of 
water and energy in the 21st century. I am pleased to have been asked 
by this committee to provide some thoughts on directions for research 
and development.
    It is always useful to begin by examining the questions to be 
addressed. If one asks how to provide low-cost water for energy 
supplies and low-cost energy for water supplies, then the question 
leads to certain kinds of analysis. This indeed is how some are framing 
the question at present.
    It seems clear that both water and energy are scarce in both the 
economic and physical sense, and that there are many competing demands 
for them. It also seems self-evident that environmental impacts (often 
externalized in the past), are real and growing. One of the most 
significant, but by no means the only one, is climate change.
    These observations lead to a conclusion that we should ask a 
different set of questions. It is tempting to take this opportunity to 
deluge a Congressional Committee with a wish-list of research ideas. 
Instead, I will start with just two questions:

        1.  How can we decouple water and energy systems where there 
        are high costs, stresses, damages, or vulnerabilities to 
        systems?

        2.  How can we maximize water and energy efficiency and 
        productivity so as to reduce demands on each and maximize 
        benefits to society?

    Of course these questions involve important data collection and 
analysis of sub-elements of each. To take my first example, we need to 
identify costs (full costs and an accounting for distortions--e.g., 
subsidies and externalities--at all levels), stresses (e.g., limits of 
systems and things like the causes of, probabilities of, and 
consequences of, exceeding those limits), potential economic, 
environmental, and social damages (including irreversible damages), and 
vulnerabilities of systems to perturbations caused by either natural 
events (dry spells) and/or of those with bad intensions (national 
security). These are critically important questions for the Nation, and 
they are not being properly asked and framed, let alone addressed.
    The second question leads to a set of studies that is long overdue. 
We have focused so heavily on supplying energy and water in unlimited 
quantities at ``low prices'' that we have failed to ask the basic 
questions regarding opportunities to do more with less, let alone 
limits of the capacity of systems and the implications of inefficient 
and unproductive use (waste) of critical resources.
    My recommendation to this committee is that you follow these 
important hearings with a process to formulate key questions and issues 
to be addressed by the unsurpassed research, business, and public 
policy capacity of the United States in addressing these critical 
challenges. The Committee should give careful consideration to 
designing, framing, and setting forth key questions to be addressed by 
the research and development community (which I would take to include 
research institutions, business, NGOs, and other interested 
stakeholders as well as key government agencies) to meet the challenges 
of water and energy for the country.
    A good example of an effective collaborative along these lines that 
involves a number of federal agencies as well as the research 
community, local and State government, NGOs, business, and others is 
the Sustainable Water Resources Roundtable.\53\
---------------------------------------------------------------------------
    \53\ Sustainable Water Resources Roundtable, http://acwi.gov/swrr/
---------------------------------------------------------------------------
    By focusing on the key questions, the Committee can provide both 
the leadership and the guidance that is needed.

Conclusion: Opportunities for Integrated Water/Energy Policy Policy

    Policy frameworks are critical to achieving success based on 
advances in science and technology. In considering alternative policy 
strategies, decision-makers should carefully analyze and consider the 
potential multiple benefits available from integrated strategies.
    The United States, like other nations, faces formidable challenges 
in providing water and energy to its citizens in the face of scarcity, 
rising costs, security threats, climate change, and much else. We are 
fortunate to have the scientific and technological capacity, and the 
institutions of governance, to take on these difficult challenges. 
Policy formulation, starting with Congress asking penetrating and 
thoughtful questions, is a critical starting point. From this 
framework, research and development strategies can be developed to 
address society's challenges in effective ways.
    For the past century, the focus of technological innovation in 
water systems was on the extraction, storage, and conveyance of water. 
Huge dams, aqueduct systems, and ``appurtenant'' facilities were 
designed, financed, and built to accomplish the task. Major rivers have 
been entirely de-watered. The costs--economic, environmental, and 
social--are evident.
    Integrated water and energy management strategies, with a focus on 
vastly improved end-use and economic efficiency for both, and careful 
consideration of alternative technology opportunities provided by 
advances in science and technology, can provide significant multiple 
benefits to society. Costeffective improvements in energy and water 
productivity, with associated economic and environmental quality 
benefits, increased reliability and resilience of supply systems (all 
elements of the ``multiple benefits''), are attainable.
    It may be worth quoting the California Energy Commission from its 
Integrated Energy Policy Report: ``Reducing the demand for energy is 
the most effective way to reduce energy costs and bolster California's 
economy.'' \54\ Consistent with this approach, improvements in 
efficiency are identified by the California Department of Water 
Resources as the largest (and in fact the most certain) new water 
supply for the next quarter century, followed by groundwater recharge 
and water reuse. The state's Energy Commission noted: ``The 2005 Water 
Plan Update mirrors the state's adopted loading order for electricity 
resources.'' \55\
---------------------------------------------------------------------------
    \54\ California Energy Commission (2005). Integrated Energy Policy 
Report, November 2005, CEC-100-2005-007-CMF.
    \55\ Klein, Gary (2005). California Energy Commission, California's 
Water--Energy Relationship. Final Staff Report, Prepared in Support of 
the 2005 Integrated Energy Policy Report Proceeding, (04-IEPR-01E) 
November 2005, CEC-700-2005-011-SF.
---------------------------------------------------------------------------
    Methodologies and metrics exist to tap the multiple benefits of 
integrated water/energy strategies, though they can and need to be 
improved. The policies required to incentivize, enable, and mandate 
integrated water and energy policy exist and are being refined to tap 
ample opportunities to improve both the economic and environmental 
performance of water and energy systems.
    With better information regarding energy implications of water use, 
and water implications of energy use, public policy combined with 
investment and management strategies can dramatically improve 
productivity and efficiency. Potential benefits include improved 
allocation of capital, avoided capital and operating costs, and reduced 
burdens on rate-payers and tax-payers. Other benefits, including 
restoration and maintenance of environmental quality, can also be 
realized more cost-effectively through policy coordination. Full 
benefits derived through water/energy strategies have not been 
adequately quantified or factored into policy.
    Public concern regarding environmental costs of diverting and 
extracting water is another reason for the shift in technology focus 
from extraction to efficiency. Precipitous declines in populations of 
fish, and damage to ecosystems around the world, have driven this 
growing call for more sustainable water systems.
    Current technology can provide water supplies through efficiency 
improvements at substantially less cost than the development of new 
supplies in most areas. As water prices increase to reflect full 
capital, operating, and environmental costs, it is likely that 
technology will play an even greater role in providing water efficiency 
improvements.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Biography for Robert C. Wilkinson
    Dr. Robert C. Wilkinson is Director of the Water Policy Program at 
the Bren School of Environmental Science and Management at the 
University of California, Santa Barbara, and he is a Lecturer in the 
Environmental Studies Program at UCSB. Dr. Wilkinson's teaching, 
research, and consulting focus on water policy, energy, climate change, 
and environmental policy issues. Dr. Wilkinson is also a Senior Fellow 
with the Rocky Mountain Institute.
    Dr. Wilkinson advises businesses, government agencies, and non-
governmental organizations on water policy, climate research, and 
environmental policy issues. He serves on the Task Force on Water and 
Energy Technology for the California Climate Action Team and as an 
advisor to State agencies including the California Energy Commission, 
the California State Water Resources Control Board, the Department of 
Water Resources, and others on water, energy, and climate issues. He 
served on the advisory committee for California's 2005 State Water 
Plan, and he represented the University of California on the Governor's 
Task Force on Desalination. Dr. Wilkinson advises various federal 
agencies including the, U.S. DOE National Renewable Energy Laboratory 
and the U.S. EPA on water and climate research, and he served as 
coordinator for the climate impacts assessment of the California Region 
for the US Global Change Research Program and the White House Office of 
Science and Technology Policy.
    In 1990, Dr. Wilkinson established and directed the Graduate 
Program in Environmental Science and Policy at the Central European 
University based in Budapest, Hungary. He has worked extensively in 
Western Europe, every country of Central Europe from Albania through 
the Baltic States, and throughout the former Soviet Union including 
Siberia and Central Asia. He has also worked in Australia, New Zealand, 
Canada, Japan, South Africa, and China.

    Chairman Gordon. Thank you, Dr. Wilkinson.
    And Mr. Levinson, you are recognized.

   STATEMENT OF MR. MARC LEVINSON, ECONOMIST, U.S. CORPORATE 
                  RESEARCH, J.P. MORGAN CHASE

    Mr. Levinson. Thank you, Mr. Chairman. It is quite an honor 
for me to be with such a distinguished panel today. I am going 
to speak about water supply risks and their impact on 
investors.
    First, it might help if I explain exactly where I fit in 
the Wall Street ecosystem. I specialize in economic issues, 
including environmental regulation, and my clients are 
institutional investors who buy publicly-traded stock and 
bonds. I say that to make clear that I have no connection 
whatsoever to our mergers and acquisitions business or to the 
lending business or to the many other things that an investment 
bank does.
    In my opinion, investors are much less concerned about 
water supply risks than they should be. We recently published a 
report, to which the Chairman alluded, contending that water-
supply risks are far more important to many companies than 
investors believe. We also found that very few companies are 
fully aware of these risks.
    A lot of companies now produce PR brochures that talk about 
how they are reducing water use per unit of output, but almost 
none of these companies thoroughly assesses what we call its 
water footprint, which is the total usage of water in its 
supply chain, clear through to the consumption of its products. 
Investors really have no way of evaluating the risk of business 
disruption due to water scarcity or of comparing risks among 
companies.
    We think these risks take three forms. One is physical 
risk. That is the most obvious. This is the risk to which the 
Chairman alluded earlier that occurred with the Brown's Ferry 
Reactor last year. It simply had to be shut down because there 
was not enough water in the Tennessee River to cool it 
adequately.
    The second is a different situation. It is regulatory risk. 
Regulatory risks involve government decisions to allocate and 
price water in response to scarcity. Perhaps the best U.S. 
example occurred in 2001, when lack of water in the Columbia 
and Snake Rivers caused the Bonneville Power Administration to 
curtail electricity sales to aluminum smelters in Montana, 
Oregon, and Washington. In the short run, aluminum production 
plummeted in the U.S. In the long run, the aluminum industry is 
leaving the region because regulators responded to water 
scarcity by raising the price of a key input, electricity. In 
2001, there were ten aluminum smelters in the Northwest. Today 
there are three still operating.
    The third set of corporate risks is reputational. In a 
number of places around the world consumers are taking 
environmental considerations into account in deciding which 
goods and services to buy, and we think companies that are 
perceived as bad actors face a serious risk of consumer 
backlash.
    The risks of water scarcity, of course, are not evenly 
spread through the economy. In addition to semiconductors and 
power generation, water sensitivity is particularly acute in 
the food processing and in oil and gas production.
    I think food processing risks are well known to people, 
perhaps less so in oil and gas where there is now a lot of 
interest in shale formations. Shale rock contains very small 
pores. Basically the oil or gas cannot migrate to the well 
readily. The way this oil is recovered is by injecting large 
amounts of water under high pressure, a technology called 
fracture stimulation. This runs afoul of a lack of water in 
many places, and so the lack of water is actually inhibiting 
the recovery of oil that would otherwise be available.
    The Committee asked me what the Federal Government might do 
to facilitate the equitable and efficient allocation of water 
supplies, and I wanted to give you three thoughts here.
    First, if you look at overall U.S. water consumption, it 
has actually been fairly flat, but there are some disturbing 
trends. An increasing share of this consumption comes from 
groundwater, which suggests that surface water resources have 
been tapped out.
    Irrigation accounts for about two-thirds of U.S. 
groundwater withdrawals, and this share is probably growing. I 
would point out that the effort to increase production of 
ethanol actually increases the draw on groundwater by 
encouraging the planting of corn and other crops in fairly arid 
regions where it has to be irrigated.
    There are more than 100,000 irrigation wells in the United 
States, and only one-seventh of them, according to the 
Agriculture Department, only one in seven irrigation wells has 
a meter on it. If something is not metered, it is not being 
paid for. And there is very little incentive to conserve 
something that you are getting for free.
    So I would suggest that here is an area for the Committee 
to look at. I understand that State law rather than federal law 
governs groundwater, but excessive use of groundwater clearly 
affects interstate commerce, and so there is a federal interest 
here. And in my view it would be useful for Congress to 
encourage the states to apply methods of pricing groundwater 
withdrawals to stimulate conservation. This should apply not 
just to agriculture but to all groundwater withdrawals.
    A second subject in which Congressional involvement might 
be useful is localized water treatment. Almost all of our 
public supplies are now treated centrally. As a result, we are 
using drinking water to water roses and wash down parking lots. 
This represents a huge waste of resources. There is now a lot 
of work going on in developing decentralized water treatments. 
This is in the R&D stage by many private companies. It might be 
an area in which federal research funds or changes in federal 
water treatment regulations would be helpful.
    There is one other subject I want to touch on, and this is 
power generation. I know there is a lot of talk on Capitol Hill 
now about federal loans or guarantee programs for new-
generation nuclear plans and for coal plants with carbon 
capture and sequestration. Both of these technologies require 
large amounts of water. I think it important that the social 
costs of these large water withdrawals be reflected in the 
prices users pay for the electricity from these plants. It is 
just bad policy for the government to be subsidizing water 
usage, and this applies to power plants as much as to 
agriculture and other industries.
    Thank you very much.
    [The prepared statement of Mr. Levinson follows:]
                  Prepared Statement of Marc Levinson
    Thank you, Mr. Chairman. My name is Marc Levinson, and I'm an 
economist at JPMorgan Chase in New York. I appreciate the opportunity 
to speak with you today about water-supply risks and their impact on 
investors.
    First, let me explain just where I fit in the Wall Street 
ecosystem. I specialize in economic issues, including environmental 
regulation, and my clients are institutional investors who buy publicly 
traded stocks and bonds. I have no connection whatsoever to our loan 
officers or to our investment bankers. My perspective is strictly that 
of investors in public companies.
    In my opinion, investors are much less concerned about water supply 
risks than they should be. We recently published a report contending 
that water-supply risks are far more important to many companies than 
investors believe. We also found that very few companies seem fully 
aware of these risks. While many companies now produce public relations 
brochures that tell how they are reducing water use per unit of 
production, almost none of these companies thoroughly assesses what we 
call its water ``footprint,'' the total usage of water in the 
production and consumption of its product. Investors have no way of 
evaluating the risk of business disruption due to water scarcity, or of 
comparing risks among companies.
    We think these risks take three forms. The most obvious is physical 
risk, which means an actual lack of water. This could have heavy costs 
for an industry such as semiconductor manufacturing, which needs 
massive quantities of clean water. Intel Corporation alone uses as much 
water each year as a city the size of Rochester, New York. We estimate 
that a single production interruption at a semiconductor plant could 
cost $200 million in lost revenue and badly hurt the company's share 
price. The customers waiting for those semiconductors would suffer 
financial losses as well.
    Physical risk is more common than generally realized. In 2007, for 
example, the Tennessee Valley Authority was forced to shut a nuclear 
plant because there simply wasn't enough acceptable cooling water in 
the Tennessee River. We don't think the TVA is the only utility that 
will experience this problem.
    The second set of risks that companies face is regulatory. 
Regulatory risks involve government decisions to allocate and price 
water in response to scarcity. Perhaps the best US example occurred in 
2001, when lack of water in the Columbia and Snake Rivers caused the 
Bonneville Power Administration to curtail electricity sales to 
aluminum smelters in Montana, Oregon, and Washington. In the short run, 
US aluminum production plummeted. In the long run, the aluminum 
industry is leaving the region, because regulators responded to water 
scarcity by raising price of a key input, electricity. In 2001, there 
were 10 aluminum smelters in the Northwest. Today, there are only 
three.
    The third set of corporate risks arising from water shortage is 
reputational. In a number of places around the world, consumers are 
taking environmental considerations into account in deciding which 
goods and services to buy. We think companies that are perceived as 
``bad actors'' by wasting water face a serious risk of consumer 
backlash.
    The risks of water scarcity are not evenly spread through the 
economy. In addition to semiconductors and power generation, water 
sensitivity is particularly acute in food processing and in oil and gas 
production.
    The food processing sector requires large amounts of water in its 
supply chain, principally for crop production. Getting one pound of 
beef to the consumer's table in the United States requires, on average, 
about 2,200 gallons of water. Higher input costs, due in part to 
increased competition for and uncertainty about water supply, already 
are hurting food manufacturers.
    In the oil-and-gas sector, there is a lot of excitement now about 
shale formations. Shales contain rock with very small pores, such that 
the oil and gas within the rock cannot readily migrate to wells. A 
technology called fracture stimulation can help recover these 
resources--but it does so by injecting large amounts of water under 
high pressure. Water scarcity is already limiting the development of 
energy shales in several parts of the country.
    The Committee has asked me what the Federal Government might do to 
facilitate the equitable and efficient allocation of water supplies. 
Here are a few thoughts.
    If you look at the aggregate numbers, U.S. water use has been 
fairly flat since the 1980s, at about 400 billion gallons per year. But 
there are disturbing trends. An increasing share of those 400 billion 
gallons per year is groundwater rather than surface water. Annual 
groundwater withdrawals rose 14 percent between 1985 and 2000, while 
surface water withdrawals were flat. This suggests that many rivers and 
reservoirs are being fully utilized, so water users are increasingly 
relying on groundwater, which is subject to less regulation. This shift 
will probably continue, because climate change is expected to reduce 
the flow of surface water, especially in the Southwest.
    Irrigation accounts for about two thirds of U.S. groundwater 
withdrawals. Government promotion of biofuels has led to large 
increases in corn plantings in some fairly arid states, especially on 
the Great Plains, and it's likely that a lot of this increased acreage 
is irrigated. This means even more demands on groundwater.
    There more than 100,000 irrigation wells in the U.S., and only one-
seventh of them have meters. An unmetered well is likely to be a well 
that a farmer can use without paying for the water. Of course, there is 
little incentive to conserve something that is free. When the 
Department of Agriculture asked farmers about barriers to reducing 
energy use or conserving water, the most common response was that 
conservation would not save enough money to cover its own costs. The 
second most common response was that conservation measures are not 
affordable. Both of these responses are ways of saying that water is so 
cheap that it's not worth conserving.
    I recognize that State law, rather than federal law, usually 
governs groundwater. But excessive use of groundwater clearly affects 
interstate commerce, so there is a federal interest here. In my view, 
it would be useful for Congress to encourage the states to adopt 
methods of pricing groundwater withdrawals to stimulate conservation. 
Pricing should apply not just to agriculture, but to all users 
withdrawing groundwater.
    A second subject in which Congressional involvement might be useful 
is localized water treatment. Almost all of our public water supplies 
are treated in centralized treatment plants. As a result, drinking 
water is being used to water rose bushes and wash down parking lots. 
This represents a large waste of resources. It might be more cost 
effective to treat water at individual buildings rather than centrally, 
so that only water needed for human consumption is treated. Several 
companies are looking into technologies for decentralized water 
treatment, and this may be an area in which federal research funds or 
changes in federal water-treatment regulations would be helpful.
    There is one other subject I want to touch on, and that is power 
generation. I know there is a great deal of talk on Capitol Hill about 
federal loans or loan guarantees for new-generation nuclear plants and 
for coal plants with carbon capture and sequestration. Both of these 
technologies require very large amounts of water. I think it is 
important that the social cost of those large water withdrawals be 
reflected in the prices users pay for electricity from those plants. 
It's simply bad policy for the government to be subsidizing water 
usage, and that applies just as much to power plants as to agriculture 
and other industries.
    Thank you for the opportunity to testify this morning.

                      Biography for Marc Levinson
    Marc Levinson is an economist at JPMorgan Chase in New York. He 
specializes in microeconomic issues, including industry structure and 
regulation, and works closely with JPMorgan's equity and credit 
analysts and their clients in understanding the impact of economic 
developments on publicly traded securities. He is accredited both as a 
supervisory credit analyst and as an equity analyst, although he does 
not make investment recommendations with respect to individual 
companies.
    Mr. Levinson frequently publishes investment research on energy, 
climate change, and environmental regulation. In 2007, he participated 
in drafting the National Petroleum Council's report to the U.S. 
Secretary of Energy, entitled ``Facing the Hard Truths About Energy.'' 
He also contributed to the London Accord, a collaborative effort among 
several major investment banks to examine the investment implications 
of climate change.
    Prior to joining one of JPMorgan's predecessor companies in 1999, 
Marc Levinson was finance and economics editor of The Economist in 
London. He was formerly a writer on business and economics for 
Newsweek. His articles have appeared in such publications as the 
Harvard Business Review, the Financial Times, and Foreign Affairs. He 
is the author of four books, most recently The Box: How the Shipping 
Container Made the World Smaller and the World Economy Bigger 
(Princeton University Press, 2006), which has received numerous awards.

    Chairman Gordon. Thank you, Mr. Levinson, and Dr. Pulwarty, 
Dr. Pulwarty, you are recognized.

STATEMENT OF DR. ROGER S. PULWARTY, PHYSICAL SCIENTIST, CLIMATE 
   PROGRAM OFFICE; DIRECTOR, THE NATIONAL INTEGRATED DROUGHT 
 INFORMATION SYSTEM (NIDIS), OFFICE OF OCEANIC AND ATMOSPHERIC 
RESEARCH, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Dr. Pulwarty. Good morning, Chairman Gordon, Ranking Member 
Hall, and the Members of the Committee. Thank you for inviting 
me to speak with you today on the National Integrated Drought 
Information System and its role in addressing some of our water 
supply challenges in the 21st century.
    My name is Roger Pulwarty. I am a climate scientist in the 
National Oceanic and Atmospheric Administration and the 
Director of the National Integrated Drought Information System 
or NIDIS Program. I have also been fortunate to be a lead 
author on adaptation in the Intergovernmental Panel on Climate 
Change Fourth Assessment report and on the recently released 
IPCC technical report on climate and water resources, the 
results of which I was fortunate to have presented before this 
committee last year.
    As is widely acknowledged, drought is not a purely physical 
phenomenon, but is an interplay between water availability and 
the needs of humans and the environment. Drought is slow in 
onset and its effects, such as impacts on energy including 
hydropower, tourism, and commodity markets, can continue to be 
felt long after an event is over.
    As outlined in Public Law 109-430, NIDIS is envisioned to 
serve as an early warning information system for managing 
drought-related risks in the 21st century. Impetus for 
information services to support federal, State, and local 
responses has risen from ongoing concerns over water security 
and scarcity as mentioned before in the Southwest since 1999, 
and the Southeast since early 2007, along with declining water 
levels in the three largest Great Lakes since the late 1980s.
    A great deal of progress has been made since the NIDIS 
Program was established in December 2006. A national 
interagency and interstate program implementation team has been 
developed, the web-based drought portal was launched in 
November 2007. It now provides comprehensive national-level 
information on ongoing drought conditions and emerging 
conditions. NOAA and NIDIS are accelerating their improvements 
of operational climate forecasts and information on past 
droughts tailored to watersheds and local scales such as the 
upper basin of the Colorado and the Southeast, including 
Tennessee, Georgia, Florida, Alabama, and the Carolinas.
    NIDIS works through numerous federal agencies, tribes, 
states, and local governments. As such, there is significant 
leveraging of existing observing system infrastructure and 
products such as the drought monitor to provide improved data 
streams at the level of detail needed for decision-making at 
watersheds, Colorado basin, and at regional scales such as the 
Southeast.
    Data and predictions are by themselves insufficient to 
ensure adaptation and flexibility in the water resources 
sector. A hallmark, no pun intended, of NIDIS is the provision 
of decision support tools and training, coupled with the 
ability of users to report local conditions back to the portal. 
Near-term activities include tailoring of the drought portal to 
add locally-specific data and information at the watershed and 
county levels. Water managers are already explicitly 
considering how to incorporate the potential effects of a 
changing climate into specific designs.
    For example, in the California Southern Metropolitan Water 
District and Seattle and Las Vegas, adaptive measures have been 
undertaken. But the barriers to implementing adaptive measures 
include the inability of some natural systems to adapt at the 
rate of combined demographic pressures and climate, 
understanding and quantifying our water demands and impediments 
to the flow of timely and reliable information relevant for 
decision-making.
    Climate services designed to support adaptation, of which 
NIDIS is an example, will be important in coping with current 
and future extremes and their effects on water resources, 
regardless of how that change is derived. As part of their 
drought management, municipalities and State agencies will have 
improved climate information and forecasts at key entry points 
for allocating domestic and industrial water usage.
    Water resource managers will have access to more detailed 
information on low-flow conditions when balancing irrigation 
and hydropower with the needs of wildlife and flows to support 
coastal economies. Emergency declarations can now better reach 
out to those communities in need of assistance with improved 
information on the aerial extent and severity of developing 
droughts.
    So while per-capita water use is declining in some parts of 
the country, trends and demand, observational records, and 
climate projections provide abundant evidence that our fresh 
water resources are vulnerable. Priorities for drought early 
warning information and decision support tools to prepare our 
nation for these challenges requires a mixed portfolio of 
approaches, including: enhancing the networks of systematic 
observations of key elements in the human, ecological, and 
physical systems, including monitoring groundwater and 
vegetation stress; promoting drought plans that maintain State 
sovereignty but responds to the needs of shared watersheds, 
including developing trans-boundary monitoring and early-
warning information for our internationally-shared watersheds 
with our neighbors to the north and the south; developing 
drought information impact assessment tools that include the 
costs and benefits of various adaptations and changing water 
demands; and finally, developing usable drought management 
triggers for specific planning thresholds and scenarios in 
agriculture, water, energy, and the coast.
    The challenges of managing water supplies to meet social, 
economic, and environmental needs requires matching what we do 
with what we actually know. NIDIS offers the Nation a mechanism 
to achieve this service requirement by providing a basis for 
integrating drought monitoring, research, and information for 
decision support.
    Thank you for inviting me to testify at this hearing today, 
and I am happy to answer any questions you might have.
    [The prepared statement of Dr. Pulwarty follows:]
                Prepared Statement of Roger S. Pulwarty
    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for inviting me to speak with you today about the National Integrated 
Drought Information System (NIDIS); the information/data currently 
available to local, State and regional water decision-makers; and how 
we can improve the information available to these decision-makers for 
adapting to current and future drought conditions.
    My name is Roger Pulwarty; I am a Physical Scientist in the 
National Oceanic and Atmospheric Administration's (NOAA's) Climate 
Program Office and the Director for the U.S. National Integrated 
Drought Information System (NIDIS). I had the honor of serving as a 
lead author on the Intergovernmental Panel on Climate Change (IPCC) 
Working Group II, in Chapter 17, Assessment of Adaptation Practices, 
Options, Constraints and Capacity, and on the IPCC Special Report on 
Climate Change and Water Resources released this past April. I am also 
a lead author of the U.S. Climate Change Science Program (CCSP), 
Synthesis and Assessment Report on Weather and Climate Extremes in a 
Changing Climate and the Unified Synthesis Report. My role in these 
reports focuses on impact assessment and adaptation responses.
    In general, NOAA's climate programs provide the Nation with 
services and information to improve management of climate sensitive 
sectors, such as energy, agriculture, water, and living marine 
resources, through observations, analyses and predictions, decision 
support tools, and sustained user interaction. Our services include 
assessments and predictions of climate change and variability on time 
scales ranging from weeks to decades for a variety of phenomena, 
including drought. In this testimony I will highlight: (1) present 
drought-related adaptation measures being undertaken in the water 
sector across the U.S., and (2) the role of the NIDIS in improving our 
capacity for responding to drought.
    Drought is not a purely physical phenomenon, but is an interplay 
between water availability and the needs of humans and the environment. 
Drought is a normal, recurrent feature of climate and while its 
features vary from region to region, drought can occur almost anywhere. 
Because droughts can have profound societal and environmental impacts, 
there are several definitions of drought, each correct in its use. 
These definitions include meteorological drought, which is defined by 
the magnitude of precipitation departures below long-term average 
values for a season or longer; agricultural drought, which is defined 
as the soil moisture deficit that impacts crops, pastures, and range 
lands; and hydrological drought, which is defined by significant 
impacts on water supplies. NOAA provides information on all three types 
of droughts in its U.S. drought information products.
    Drought is a unique natural hazard. It is slow in onset, does not 
typically impact infrastructure directly, and its secondary effects, 
such as impacts on tourism, commodity markets, transportation, 
wildfires, insect epidemics, soil erosion, and hydropower, are 
frequently larger and longer lasting than the primary effects. Primary 
effects include water shortages and crop, livestock, and wildlife 
losses. Drought is estimated to result in average annual losses to all 
sectors of the economy of between $6 to $8 billion (in 2002 dollars; 
Economic Statistics for NOAA, April 2006, 5th edition). The costliest 
U.S. drought of the past forty years occurred in 1988 and caused more 
than $62 billion (in 2002 dollars) of economic losses (Economic 
Statistics for NOAA, April 2006, 5th edition). Although drought has not 
threatened the overall viability of U.S. agriculture, it does impose 
costs on regional and local agricultural economies. Severe wild fires 
and prolonged fire seasons are brought on by drought and strong winds. 
These fires, similar to the ones in California this past year, can 
cause billions of dollars in additional damages and fire suppression 
costs.
    Recent IPCC reports, including the recent Technical Report on 
Climate Change and Water Resources, highlight emerging needs for the 
development and communication of climate and climate impacts 
information to inform adaptation and mitigation across sectors when 
changes are beyond average climate conditions and extremes. Drought 
risk management provides an important prototype for testing adaptation 
strategies across the full spectrum of climate time scales. Most 
communities (and countries) currently manage drought through reactive, 
crisis-driven approaches. Experience shows that effecting change in 
managing climate-related risk is most readily accomplished when: (1) a 
focusing event (climatic, legal, or social) occurs and creates 
widespread public awareness; (2) leadership and the public are engaged; 
and (3) a basis for integrating monitoring, research, and management is 
established. The NIDIS offers the Nation a mechanism to achieve this 
latter service requirement. The IPCC Fourth Assessment (2007) and the 
CCSP reports offer impetus for integrating knowledge about the nature 
of societal and environmental vulnerability, attribution of the 
relative influences of climate variability and change, and for services 
to support federal, State and local adaptive responses to the full 
spectrum of climate. This impetus is further strengthened by the 
ongoing debates as seen occurring in connection with water scarcity in 
the West since 1999 and in the Southeast since 2007, along with 
declining Great Lake water levels since 1986.
    Given that a drought occurs when water supply is insufficient to 
meet water demand, drought impacts are evaluated relative to the demand 
from environmental, economic, agricultural, and cultural uses. The 
impacts of past droughts have been difficult to estimate. This problem 
results from the nature of drought, which is a phenomenon with slow 
onset and demise that does not create readily-identified and discrete 
short-term structural impacts. Drought may be the only natural hazard 
in which the secondary impacts can be greater than the more 
identifiable primary impacts, such as crop damage. Impacts may continue 
to be felt long past the event itself as secondary effects cascade 
through economies, ecosystems, and livelihoods.
    The National Integrated Drought Information System Act of 2006 
(NIDIS Act; 15 U.S.C.  313d and  313d note) prescribes an approach 
for drought monitoring, forecasting, and early warning at watershed, 
State and county levels across the United States. Led by NOAA, this 
approach is being developed through the consolidation of physical/
hydrological and socioeconomic impacts data, engaging those affected by 
drought, integration of observing networks, development of a suite of 
drought decision support and simulation tools, and the interactive 
delivery of standardized products through an Internet portal 
(www.drought.gov). NIDIS is envisioned to be a dynamic and accessible 
drought risk information system that provides users with the capacity 
to determine the potential impacts of drought, and the decision support 
tools needed to better prepare for and mitigate the effects of drought.
    As requested in the 2004 Western Governors' Association Report, 
Creating a Drought Early Warning System for the 21st Century: The 
National Integrated Drought Information System, NIDIS is being designed 
to serve as an early warning system for drought and drought-related 
risks in the 21st century. With these guidelines in mind, the explicit 
goal of NIDIS is to enable society to respond to periods of short-term 
and sustained drought through improved monitoring, prediction, risk 
assessment, and communication.
    Over the next five years, NIDIS will build on the successes of the 
U.S. Drought Monitor, Seasonal Outlooks, and other tools and products 
provided by NOAA and other agencies to effect fuller coordination of 
relevant monitoring, forecasting, and impact assessment efforts at 
national, watershed (e.g., the Colorado Basin), states (e.g., GA, AL, 
FL), and local levels. NIDIS is beginning to provide a better 
understanding of how and why droughts affect society, the economy, and 
the environment, and is improving accessibility, dissemination, and use 
of early warning information for drought risk management. The goal is 
to close the gap between the information that is available and the 
information that is needed for proactive drought risk reduction. 
Federal monitoring and prediction programs that feed into NIDIS are 
also working with universities, private institutions, and other non-
federal entities to provide information needed for effective drought 
preparedness and mitigation.
    NIDIS will provide more comprehensive and timely drought 
information and forecasts for many users to help mitigate drought-
related impacts. For example, hydropower authorities will benefit from 
enhanced water supply forecasts that aim to incorporate improvements in 
monitoring soil moisture, precipitation, and temperature for snowpack 
conditions into forecasting efforts and drought information for water 
management decisions. Municipalities and State agencies will have 
improved drought information, based on present conditions and past 
events, and forecasts when allocating both domestic and industrial 
water usage. Water resource managers will have access to more 
information when balancing irrigation water rights with the needs of 
wildlife. Purchasing decisions by ranchers for hay and other feed 
supplies will be enhanced through the use of drought information to 
identify areas of greatest demand and the potential for shortages. 
Changes in water quantity and quality due to climate change and other 
factors are expected to affect food production and prices. Farmers will 
be better positioned to make decisions on which crops to plant and when 
to plant them. Since drought information is used in allocating federal 
emergency drought relief, improvements in monitoring networks will also 
lead to more accurate assessments of drought and, as a result, 
emergency declaration decisions that better reach out to those 
communities in need of assistance. An example of a specific improvement 
in monitoring networks is the addition of soil moisture sensors to the 
climate reference network by NOAA/NIDIS. The identification of gaps in 
monitoring needed for early warning system development, primarily 
within snow cover, soil moisture, stream gauge, and ground water 
networks (in partnership with the U.S. Geological Survey), will be 
identified in NIDIS early warning pilot programs in selected locations. 
Also, in partnership with Department of Agriculture (USDA), priorities 
for snow cover/snow telemetry sites will be updated as need arises. 
Cross-agency partnerships to fill monitoring gaps will be developed 
with the interagency NIDIS Executive Council.
    Data alone is not sufficient to ensure effective adaptation. A 
hallmark of NIDIS is the provision of decision support tools coupled 
with the ability for users to report localized conditions. To this end, 
NIDIS will link multi-disciplinary observations from a number of 
sources to `on-the-ground' conditions that will yield value-added 
information for agricultural, recreational, water management, 
commercial, and other sectors. Multi-disciplinary observations include 
land surface conditions (e.g., for fire/fuel risk and soil moisture), 
streamflow and precipitation observations, climate models, and sectoral 
and environmental impacts information (to identify potential high 
impact areas or sectors for different types of drought events). Also, 
impacts information (i.e., how drought is affecting a location, how 
similar/past droughts have affected the location) will be provided by 
NIDIS, as required in the NIDIS Act, and as recommended by the Western 
Governors Report, and decades of study on the types of information 
leads to effective early warning triggers for response.
    The first step towards accomplishing these goals was to produce an 
implementation plan. With the results of deliberate and broad-based 
input from workshops held with federal, State, and local agencies, 
academic researchers, and other stakeholders, the NIDIS implementation 
plan was produced and published in June 2007. To provide guidance on 
system implementation, technical working groups were formed to focus on 
five key components of NIDIS. These components are public awareness and 
education, engaging preparedness communities, integrated monitoring and 
forecasting, interdisciplinary research and applications, and the 
development of a national drought information portal.
    A great deal of progress has been made since the NIDIS program was 
established in December 2006. The U.S. Drought Portal, launched in 
November 2007 and hosted on the NIDIS website (www.drought.gov), is 
operational and providing comprehensive information on emerging and 
ongoing droughts, and enhancing the Nation's drought preparedness. 
Other Current NIDIS activities include conducting the first national 
workshop to assess the status of drought early warning systems across 
the United States, 17-19 June, Kansas City, MO. A NIDIS Southeast 
drought workshop was recently held in Peachtree City, Georgia, 29-30 
April 2008 to begin coordinating drought early warning information 
systems for the Southeast region especially for the Appalachicola-
Chattahoochee-Flint and the Alabama-Coosa-Tallapoosa basins 
encompassing the upper watersheds of Georgia to the coastal resources 
of Alabama and Florida.
    While NOAA is the lead agency for NIDIS, NOAA works with numerous 
federal agencies, emergency managers and planners, State 
climatologists, and State and local governments, to obtain and use 
drought information. NOAA routinely disseminates drought forecast 
information via its National Weather Service (NWS) drought statements, 
and collaborates with State drought committees and the media to assure 
NOAA information is correctly understood and used. NOAA strives to 
provide an end-to-end seamless suite of drought forecasts, regional and 
local information, and interpretation via its Climate Prediction 
Center, six Regional Climate Centers, Regional Integrated Sciences and 
Assessments (RISA) including the Southeastern Climate Consortium, local 
NWS field offices and State climatologists. Efforts are underway to 
improve drought early warning systems including coordinating 
interagency drought monitoring, forecasting, and developing indicators 
and management triggers for societal benefit. The other major federal 
agencies involved in NIDIS are the Department of the Interior, USDA, 
the National Aeronautic and Space Administration, the Department of 
Energy, the Department of Homeland Security, the Department of 
Transportation, the Army Corps of Engineers, the Environmental 
Protection Agency, and the National Science Foundation. There is 
significant leveraging of existing observing system infrastructure, 
data, and products produced by operating agencies, for example, 
stations of the NOAA National Weather Service Cooperative Observer 
Program, USDA Natural Resources Conservation Service SNOTEL (SNOpack 
TELemetry) network, Soil Climate Analysis Network, National Climate 
Data Center Climate Reference Network, and the United States Geological 
Survey streamflow and ground-water networks, as well as the USDA-Joint 
Agricultural Weather Facility and the USDA-Natural Resources 
Conservation Service/Water and Climate Center Weekly Report--Snowpack/
Drought Monitor Update. NIDIS also provides a framework for 
coordinating the research agenda among these agencies.
    At present NOAA/NIDIS is supporting the development of new drought 
monitoring and prediction products and accelerating future improvements 
of NOAA's operational climate forecast and application products through 
the use of competitive grants, and through the tailoring of the U.S. 
Drought Portal to add locally specific data and information at the 
level of watersheds and counties. Questions being addressed include 
early warnings of low flow conditions on the Colorado, on drought and 
fire risk, agriculture on the Southern Great Plains and the reliability 
of water supplies in the Southeast U.S.
    Information services for adaptation on short-term (seasonal) or 
longer-term (multi-year) drought, will be important in coping with 
current climate vulnerabilities and early impacts in the near-term, and 
will help build resilient economies as our climate changes, regardless 
of how that change is derived. It is important to note that unmitigated 
climate change could, in the long-term, exceed the capacity of some 
natural, managed and human systems to adapt especially in drought 
prone--heavily developing regions such as the Southwest. If climate 
change results in increasing water scarcity relative to demands, future 
adaptations may include technical changes that improve water use 
efficiency, demand management (e.g., through metering and pricing), and 
institutional changes that improve the tradability of water rights. If 
climate change affects water quality, adaptive strategies will have to 
be developed to protect the ensuing human uses, ecosystems and aquatic 
life uses. It takes time to fully implement such changes, so they are 
likely to become more effective as time passes. The availability of 
water for each type of use may be affected or even limited by other 
competing uses of the resource.
    Climate is one factor among many that produce changes in our 
environment. Demographic, socioeconomic and technological changes may 
play a more important role in most time horizons and regions. As the 
number of people and attendant demands upon already stressed river 
basins and groundwater sources increase, even small changes in our 
climate, induced naturally or anthropogenically, can trigger large 
impacts on water resources. Present hydrological conditions are not 
anticipated to continue into the future (the traditional assumption). 
It will be difficult to detect a clear climate change effect within the 
next couple of decades, even if there is an underlying trend. 
Consequently, methods for adaptation in the face of these uncertainties 
are needed. Early warnings of changes in the physical system and of 
thresholds or critical points that affect management priorities become 
important. Water managers in some states are already considering 
explicitly how to incorporate the potential effects of climate change 
into specific designs and multi-stakeholder settings. Integrated water 
resources and coastal zone management are based around the concepts of 
flexibility and adaptability, using measures which can be easily 
altered or are robust to changing conditions. For example, in 
California and Nevada adaptive management measures (including water 
conservation, reclamation, conjunctive use of surface and groundwater, 
and desalination of brackish water) have been advocated as means of 
pro-actively responding to climate change threats on water supply. 
Consequently a complete analysis of the effects of climate change on 
human water uses should consider cross-sector interactions, including 
the impacts of and opportunities for changes in water use efficiency 
and intentional transfers of the use of water from one sector to 
another. For example, voluntary water transfers (including short-term 
water leasing and permanent sales of water rights) from agricultural to 
urban or environmental uses are becoming increasingly common in the 
Western United States. An additional major challenge in the coming 
decades will be maintaining water supplies for environmental services, 
which support tourism, hunting, fishing and other recreational 
economies throughout the United States.
    Adaptation is unavoidable because climate is always varying even if 
changes in variability are amplified or dampened by anthropogenic 
warming. Moreover, adaptation will be necessary to meet the challenge 
of demographic pressures and climate trends which we are already 
experiencing. There are significant barriers to implementing adaptation 
in complex settings. These barriers include both the inability of 
natural systems to adapt at the rate and magnitude of demographic, 
economic, climatic and other changes, as well as technological, 
financial, cognitive, behavioral, social and cultural constraints. 
There are also significant knowledge gaps for adaptation, as well as 
impediments to flows of knowledge and information relevant for 
decision-makers. In addition, the scale at which reliable information 
is produced (i.e., global) does not always match with what is needed 
for adaptation decisions (i.e., watershed and local). New planning 
processes are attempting to overcome these barriers at local, regional 
and national levels in both developing and developed countries.
    Adaptive capacity to manage climate changes can be increased by 
introducing adaptation measures into development planning and 
operations (sometimes termed `mainstreaming'). This can be achieved by 
including adaptation measures in land-use planning and infrastructure 
design, or by including measures to reduce vulnerability in existing 
disaster preparedness programs (such as introducing drought warning 
systems based on actual management needs).
    Major barriers to implementing adaptive management measures are 
adaptation itself is not yet a high priority, and that the validity of 
local manifestations of global climate change remains in question. 
Coping with the uncertainties associated with estimates of future 
climate change and the impacts on economic and environmental resources 
means we will have to adopt management measures that are robust enough 
to apply to a range of potential scenarios, some as yet undefined. 
Greenhouse gas mitigation is not enough to reduce climatic risks, nor 
does identifying the need for adaptations translate into actions that 
reduce vulnerability. By implementing mainstreaming initiatives, 
adaptation to demographic and climate change will become part of, or 
will be consistent with, other well-established programs to increase 
societal resilience, particularly environmental impacts assessments, 
adaptive management and sustainable development.
    Climate variability and change affect the function and operation of 
existing water infrastructure--including hydropower, structural flood 
defenses, drainage, and irrigation systems--as well as water management 
practices. Observational records and climate projections provide 
abundant evidence that freshwater resources are vulnerable and have the 
potential to be strongly impacted by climate variability and change, 
with wide-ranging consequences on human societies and ecosystems. 
Observed warming over several decades has been linked to changes in the 
large-scale hydrological cycle. Several gaps in knowledge exist in 
terms of observations and research required to better understand the 
relationship between climate change and water issues. Observational 
data and data access are prerequisites for adaptive management, yet 
many gaps exist in observational networks. It is important to improve 
understanding and modeling of changes in climate related to the 
hydrological cycle at scales relevant to decision-making. Information 
about the water-related impacts of climate change, including their 
socioeconomic dimensions, is incomplete, especially with respect to 
water quality, aquatic ecosystems, and groundwater.
    Early warning information and decision support tools that are 
currently being developed to better prepare our nation, locally and 
regionally, for drought include:

        <bullet>  Enhancing networks of systematic observations of key 
        elements of physical, biological, managed and human systems 
        affected by climate variability and change particularly in 
        regions where such networks have been identified as 
        insufficient;

        <bullet>  Strengthening and expanding water conservation and 
        efficiency programs;

        <bullet>  Adopting integrated strategies at the federal level 
        (including high level advisory councils) and support a 
        framework for collaboration between research and management;

        <bullet>  Promoting local watershed efforts;

        <bullet>  Improving groundwater monitoring and management 
        strategies;

        <bullet>  Developing usable drought management triggers for 
        planning in agriculture, water, energy, health, environment, 
        and coastal zones;

        <bullet>  Developing economic impacts assessment tools 
        including the costs and benefits of various adaptations;

        <bullet>  Coordinating among drought monitoring and forecasting 
        efforts at federal regional, State, and local levels; and

        <bullet>  Actively engaging communities and states in 
        monitoring, preparedness, and planning.

    The challenges of managing water supplies to meet social, economic, 
and environmental needs requires matching what we know with what we do. 
NOAA and NIDIS provide mechanisms for the Federal Government to help 
agencies, states and local communities meet their economic, cultural, 
and environmental water management challenges in a timely and efficient 
manner.
    Thank you for inviting me to testify at this hearing today and I 
will be happy to answer any questions the Members of the Committee may 
have.

                    Biography for Roger S. Pulwarty
    Roger S. Pulwarty is a climate scientist and the Director of the 
National Integrated Drought Information System (NIDIS) at the 
Department of Commerce/National Oceanic and Atmospheric Administration 
in Boulder, Colorado. He also leads the risk management component of 
the World Bank/NOAA project on ``Mainstreaming Adaptation to Climate in 
the Caribbean.'' From 1998-2002 Roger directed the NOAA/Regional 
Integrated Sciences and Assessments (RISA) Program. Roger's research 
interests are on climate in the Americas, assessing social and 
environmental vulnerability, and designing climate services to meet 
information needs in water resources, ecosystem and agricultural 
management in the United States.
    Dr. Pulwarty has served in advisory capacities to various Federal 
and State agencies, the National Research Council, the Glen/Grand 
Canyon Adaptive Management Program, and to the UNDP, UNEP, World Bank 
and the Organization of American States. He is a lead author on the 
2007 IPCC Fourth Assessment Report Working Group 2, the IPCC Special 
Report on Climate Change and Water Resources, and on the U.S. Climate 
Change Science Program Synthesis and Assessment reports. Roger is 
Professor Adjunct at the University of Colorado, Boulder and the 
University of the West Indies. He is the co-editor of Hurricanes: 
Climate and Societal Impacts (Springer, 1997).

                               Discussion

     Expanding the Federal Government's Role in Water Research and 
                              Development

    Chairman Gordon. Thank you, Dr. Pulwarty. At this point we 
will open our first round of questions. The Chair recognizes 
himself for five minutes.
    When I was growing up, my father used to tell me about how 
really his life and life on our farm changed when the rural 
electrification came out there. At that time we had a good 
well. That is how we got our water, and my other grandparents, 
we had a good spring, and everybody had their own little tin 
can down at the, or cup rather down at the spring. But those 
times have gone. Even if you have a spring or a well, they 
probably are going to be contaminated now.
    And so particularly in rural America, and when I saw rural 
America, I am not talking about way out farms like we were. I 
am talking about even small little subdivisions right outside 
of town, oftentimes they don't have water. And as we call it 
toting water is something that many, many Americans are doing 
right now.
    And constantly folks are telling me, well, you know, the 
waterline is within a mile of our home, you know, but we can't 
get it the rest of the way. So this is a real problem. It is a 
problem as you pointed out with the nexus of water and energy 
and manufacturing. Wars have been fought and they will continue 
to be fought over water and probably more so in the future.
    So what I would like to do is, using your cumulative 
wisdom, is to get some suggestions on a federal role. You have 
already, if any, and you have given us some of those ideas, but 
I want to be more narrow in the sense that this committee 
really only has jurisdiction over federal research and 
development, I think, in this area.
    And so I think we have been, done a pretty good job of 
trying to take good ideas and build a consensus and move them 
forward. So what I would like for you to do, what I might say 
in the longer-term, is to submit back to us any suggestions you 
might have that this committee can do.
    But right now I would like to hear you cumulatively talk 
about one, two, or three of the maybe most significant things 
that this committee could come forward with in terms of federal 
R&D. Mr. Matheson and Mr. Hall already have a bill on that, and 
we would like to see how that, you know, that role could be 
expanded.
    So I will open the floor to whoever wants to start off. 
Anyone want to start?
    Dr. Overpeck. Without any doubt research and development 
can play a huge role in how we manage our water. I think what 
is really the biggest problem is what we don't know. We don't 
know what water lies underground. We don't really know how to 
predict what kind of stream flows will occur in the future, or 
how groundwater infiltration will change in the future at the 
scales that are important for decision-makers, that is, at the 
scale of your farm or watershed.
    We don't know how climate is going to vary in the future 
with enough precision to be able to forecast it, and we don't 
know how climate change is going to affect our water reserves.
    So all of these things require more research and 
development to get the clear answers so that we develop our 
country and move populations around and grow in a way that is 
sensible and makes sense with regards to our true future water 
supply.
    And I think my colleagues will talk about also as we start 
to develop new energy economy, that has to take into account 
water. Water is far more valuable, I think, than many of our 
citizens realize. We have to provide the underlying framework 
for making good decisions, and I think much of that stems from 
research and development.
    I applaud the bill that your colleagues have put together. 
I think it is very important to be looking at efficiency and 
conservation because certainly we can save a lot of water that 
way. Thank you.
    Dr. Parker. I would like to compliment you on the creation 
of this H.R. 3957 bill that I was handed. I was just scanning 
it and realized that it covers everything from water pricing 
for conservation and water reuse for efficiency of use of the 
resource. I think Dr. Wilkinson mentioned water reclamation in 
California and the use of perhaps dual systems and the use of 
water of various qualities for various purposes.
    Now, it is an infrastructure challenge, but I think we 
better be heading in that direction, particularly in the arid 
West where I think the availability of the resource probably 
may, is becoming a limiting factor.
    Chairman Gordon. Anyone else?
    Dr. Parker. I think it is a terrific bill.
    Chairman Gordon. Well, Mr. Matheson, being from Utah, has a 
firsthand interest and knowledge of that.
    Dr. Wilkinson. Just quickly, I think there is some obvious 
opportunities in technology development for efficiency. We have 
come a long way just in the last decade or two with the 
efficiency of a lot of plumbing fixtures and a lot of other 
opportunities for laser leveling of fields and irrigation 
technologies and the rest. So I think there is a long way to 
go, and there is a lot of opportunities there.
    The other is water efficiency of our energy systems. What 
can we do to develop energy systems that require less water or 
no water, and how can we develop portfolios of energy systems 
that take pressure off of our water systems. I think those two 
are important areas.
    Finally, filtering technology. A lot of our water now with 
concerns about pharmaceuticals and the rest is going to be 
treated to greater degrees, and looking for efficient ways to 
use water and to filter and treat it in ways that meet the 
health standards that we all want to see but do that efficiency 
I think is going to be very important.
    Chairman Gordon. I will try to abide by the rules here. 
Does anyone else have a real quick suggestion?
    Mr. Levinson. Yes, sir. I did want to touch on the point 
that water availability is not simply an engineering issue and 
an issue of R&D. I think that while the Committee clearly 
doesn't have a tax jurisdiction, the Committee can do a great 
deal to bring into public discussion the point that water is, 
in fact, a scarce resource and needs to be priced. Because, 
frankly, without pricing the possibilities are quite limited.
    Chairman Gordon. But right now with our limited time, but I 
am trying to be more specific to what we can do from this 
committee right now, getting suggestions.
    Mr. Levinson. Yes. I think that to, while certainly there 
is a need to promote conservation technology and that is all 
well and good, you really also have a bully pulpit here to use 
in order to make clear that this is a scarce resource. There 
does need to be action on the pricing front if we are actually 
going to have conservation.
    Chairman Gordon. We are going to have a variety of 
hearings, and we hope to do that.
    Dr. Pulwarty, did you have anything you want to add?
    Dr. Pulwarty. One of the major issues is developing some of 
the new technologies, not only for efficiency but for the 
transfer of technology into practice, and I think the bills 
make that case.
    Chairman Gordon. Thank you. There will be a point where we 
are going to have, as was pointed out, a megadrought or other 
problem that will bring the whole Congress, the Presidency all 
together for a water program, and what happens oftentimes is 
that is, you know, the cow is out of the barn.
    So what I hope that we can do is lay a foundation with R&D 
so that at that time we can really start to implement it. What 
I would request that you do is get back to the Committee any 
suggestions in that area that you think, again, that there is 
either a legislative role or a role for us to request different 
agencies to be involved. We will then try to take those ideas 
and build a consensus and do some good work here.
    Ms. Johnson is recognized for five minutes. Oh, excuse me. 
I am sorry. Mr. Hall is recognized for five minutes.

                Water Information and Technology Abroad

    Mr. Hall. I would always yield to Ms. Johnson if she wanted 
me to, but let me get mine behind us here, and thanks for that 
peek into your background, Mr. Chairman. I enjoyed that. No 
telling how good you could have done if you would have had more 
opportunities as a young man.
    One of the old references I have always heard and any time 
you get a speech as long as 15 or 20 minutes, someone always 
refers to water and fire as wonderful friends but fearful 
enemies. And we have sure experienced that on more than one 
time on the plains of Texas and in the drought that we had and 
then the over-availability of water. So I guess, Dr. Parker, 
availability is important, and it is also important to manage 
it.
    So I would ask Dr. Parker, we have to operate on 
information and knowledge, and what, how would you compare the 
information and technology available to water managers in the 
United States to those in other nations that face similar 
problems to what we face?
    Dr. Parker. I would say the short answer is I think we have 
got better information. I think that there are nations such as 
Germany that we might be lagging behind in terms of pushing 
innovative alternative green technologies, that kind of thing, 
but in terms of hydrologic information, et cetera, I think we 
are a little better off.
    Mr. Hall. Well, you very ably pointed out, I think, in your 
testimony that when you discussed water quality and how it has 
improved since the passage of several federal water laws or 
water acts.
    What else can we do to ensure the quality and security of 
our water supply? We have you here to testify, and the Chairman 
and others here will take your testimony, study it, and 
everything you say is available to every Member of Congress 
because of the court reporter that is taking it down somewhere 
here that will report it.
    What else can we do to ensure the quality and security of 
our water supply? We can pass laws. What is the next step?
    Dr. Parker. I actually edited it out of my spoken testimony 
some ideas about non-point source pollution, which is, it is 
not only a technical and a management issue, but it is also a 
legal issue in the sense that where I referred to some of our 
laws and practices as becoming obsolete. There is a prime 
example of an issue that isn't dealt with very well within the 
legislation.
    We have done some work for EPA. Now, this isn't the, 
probably the appropriate thing for me to say, advising them on 
urban water supply system security. They have a research 
program in Cincinnati. It is a very good one. It is under-
funded. It ought to be well supported. It was driven by 
concerns about deliberate acts of harm to water supply systems. 
They are doing good work. It has brought application beyond the 
terrorism context, but I think it is kind of a hand-to-mouth 
operation that each year has to fight for the limited 
resources. It seems under-appreciated to me to the extent that 
you have any influence over that.
    Mr. Hall. I thank you.

                                Biofuels

    Quickly, Dr. Pulwarty, one of the benefits of NIDIS that 
you described in your testimony is that farmers would be better 
positioned to make decisions on which crops to plant and when 
to plant them. Now, given the overwhelming incentives we passed 
last year for biofuels and the reference to other crops that 
they ought to plant and those that planted other crops 
including corn followed the market and the increase in 
reception of the benefits of planting that. Have you seen 
caution or hesitation on the part of farmers to plant fuel 
crops after seeing the information that NIDIS has provided? Or 
is the monetary incentive overwhelming the risk of the natural 
environment?
    Got an answer for that?
    Dr. Pulwarty. The latter.
    Mr. Hall. That is a good answer, and I think my time is up.
    Chairman Gordon. You are a very good witness.
    Now the gentlelady from Texas is recognized.

                 Climate and Water Quality and Quantity

    Ms. Johnson. Thank you very much, Mr. Chairman.
    To the panel, I chair the Subcommittee of Water Resource 
and Development on transportation infrastructure, and we are 
dealing a great deal with supply. I am wondering what about the 
temperature change affects water supply, quality or quantity?
    Dr. Overpeck. Well, temperature change certainly has a 
major effect on water supply. As temperature goes up, there is 
an increase, and it is not a linear increase, in the amount of 
moisture that the atmosphere can hold. So the atmosphere will 
demand more moisture, and where will it get that moisture? It 
will get it from soil, it will get it from forests, it will get 
it from agricultural plants. It will get them from reservoirs. 
It will get them from any open source of water, and it will 
draw that water out.
    So these temperature changes that are coming are huge, just 
gigantic, and they will demand a lot of water, and they will 
make the droughts of the past look pale, because it will be so 
much hotter.
    Ms. Johnson. Yes.
    Dr. Pulwarty. I wanted to complement Dr. Overpeck's 
statement. One of the impacts on temperatures is on snowpack, 
and what we have seen not only in terms of early runoff, there 
has been an impact on the actual quality, the amount of water 
that is in the snow. In 2005, 2006, on the upper Colorado we 
received 105 percent of precipitation. Because of the dryness 
before that and because of the warmth of that spring, 105 
percent of precipitation was reduced to about 70 percent of the 
reliable stream flow.
    We have been seeing that in different years based on 
temperature, evaporation, and sublimation, and vegetation 
stress.

                        Workforce and Education

    Ms. Johnson. I know that every major body of water in this 
country is contaminated, and I also know that we have a 
shortage of expertise in addressing this issue. And we have 
dealt with that somewhat in this committee, because we know 
there is such a shortage of science and math engineering 
students.
    I am wondering how would you determine that we would 
address many of the problems now as it relates to the research 
here with such a shortage of people? Of qualified people?
    Dr. Overpeck. I think this goes back to Congressman Hall's 
question between the United States and other countries of the 
world, our advantage is that we are an advanced country. That 
means that we ought to be able to bring to bear much more 
knowledge. Knowledge is power. But it is not just knowledge, 
power for our country, it is power for every individual that 
has to make decisions in their day-to-day life about water.
    And so we really need programs that educate everybody, not 
just the water managers, but the people who use water, because 
so many of the solutions will require cooperation of the 
citizens of the United States and that we work together. There 
are huge discrepancies between the per-person water use in 
cities in the West that really are astounding, and we need to 
learn how to use our very valuable water treasure more 
carefully.
    Ms. Johnson. Thank you very much. I am doing a series of 
cable shows on subjects to try to begin to educate the public, 
and one of the major questions I still have is how do we pay 
for all of this? We are looking at creating a dedicated fund or 
maybe the economist----
    Mr. Levinson. If I may, being the economist in the room, 
offer two thoughts on this. One is that this all doesn't have 
to be in the public sector. There is in certain areas a lot of 
potential for private investment in water conservation, if it 
pays off. And I, you know, hate to sound like a broken record, 
but to a certain extent you get back into pricing here because 
that is what makes it interesting for people to buy 
conservation equipment.
    And to the extent that there is a demand for water 
conservation, there will be a lot of private initiative in 
developing ways to conserve water and process technologies in 
particular industries, for example, or improving irrigation or 
that sort of thing. And there will be private people paying for 
this R&D. It doesn't have to be done by the government.
    And second, to the extent that it is priced, part of the 
amount that people pay for water can, in fact, be used for 
public sector research and public sector infrastructure in this 
area.
    Chairman Gordon. Thank you, Mr. Levinson.
    Ms. Johnson. Thank you very much.
    Chairman Gordon. And Mr. Rohrabacher, you are recognized.

             More on Climate and Water Quality and Quantity

    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
coming from California I certainly understand the significance 
of what has been presented to us today. We live on a desert 
that goes right up to the ocean, and a lot of times we forget 
about that and Mulholland and other great champions of 
California, well known and appreciated, and I wonder if we are, 
our generation is going to have, create a better future as the 
Mulhollands did for us in the past.
    Dr. Wilkinson, let me just ask you, and I did really 
appreciate your detailed analysis of the California situation. 
What, this year and the last couple of years, have we had 
trouble with snowfall in California?
    Dr. Wilkinson. Yes, indeed.
    Mr. Rohrabacher. We did? We do? Okay. Tell me about it. Do 
we, is the snowpack, I understand the snowpack in the Sierra 
Nevada is actually higher this year than it was.
    Dr. Wilkinson. Well, we have considerable variability. We 
had good snowpack earlier in the year. For the last two months 
we have had very little, and actually it started quite late. I 
took my graduate students up to Yosemite in December, and we 
drove across the pass. Over the mountains there was virtually 
no snow at all in early December. Normally, of course----
    Mr. Rohrabacher. In December?
    Dr. Wilkinson. In December. Normally we would have a lot of 
snow.
    Mr. Rohrabacher. Right. Okay.
    Dr. Wilkinson. But between early December then when it 
started snowing and about two months ago we got a pretty good 
snowpack.
    Mr. Rohrabacher. And on the average is it higher this year 
than last year?
    Dr. Wilkinson. It is a little bit----
    Mr. Rohrabacher. Than years in the past?
    Dr. Wilkinson.--below the average level but not a huge 
amount. The problem is that with very little for the last two 
months, we are now facing very serious water situation. Of 
course, you probably know last week they did the snow survey at 
the Summit by Echo Lake, and they were walking on soil. There 
was virtually no snow. So it is quite troubling.
    Now, in terms of a water supply situation this year, we 
certainly are seeing a very clear signal that we are getting a 
shift at mid-elevations from snow to rain because of warmer 
conditions. So that pattern is already evident.
    Mr. Rohrabacher. Okay. I just note, Dr. Overpeck, that you 
did mention that the droughts were so much worse in the past 
than we are experiencing today, and while I certainly, you 
know, I am clearly one who disagrees with the idea that we have 
man-made climate change going on, but why is it, why are you 
convinced that these droughts in the past have, which, of 
course, obviously had nothing to do with human activity, why 
are you so convinced that today it is all a result of human 
activity even though the droughts in the past were worse than 
they are today?
    Dr. Overpeck. Good question. In my testimony where I was 
able to expound a little bit longer, I tried to highlight that 
we don't know the origin of the current droughts. We do know 
that they are being made worse by the higher temperatures. That 
is causing the rain on snow problem and the early melting of 
the snow that is giving California a little fit this year. But 
we really don't know the origin of these droughts that are 
going on now, and that is why I tried to emphasize this idea of 
a no-regrets approach.
    Mr. Rohrabacher. Okay. I would suggest that we also don't 
know the cause of the temperature rise. I have a lot of 
sympathy with people who say, ``Look, this is what the climate 
is, and we got to prepare for it because there will be 
droughts, we need to do water, et cetera.'' But when people 
have to lace their testimony with a reconfirmation of the man-
made global warming theory, it doesn't add to the validity 
here. It doesn't. To me it seems, frankly, it takes away from 
the presentation.
    One last thing here, and I would like to note this, and Mr. 
Levinson mentioned that nuclear energy uses water. Have you 
looked at the high-temperature gas cool reactor as a new type 
of reactor, and does that use the same water?
    Mr. Levinson. I am probably not the best one here to talk 
about that.
    Mr. Rohrabacher. Let me note, Mr. Chairman----
    Mr. Levinson. Others may be more familiar.
    Mr. Rohrabacher.--traditional nuclear power plants do use 
water, obviously, because they are based on steam. There is a, 
and I keep pushing this because I want people to take a look at 
this alternative, there is a high-temperature gas cool reactor. 
My friends who believe in global warming will love it as well, 
I might add, because it is, of course, clean and does not 
produce ``greenhouse gases,'' but it does not use the water 
that the traditional nuclear power plants do.
    And I would suggest it is something we should look at, 
because I do understand there is a direct relationship between 
the amount of energy and water, and Dr. Wilkinson, your 
testimony was very insightful in that. In fact, the 
desalinization now actually uses less water than we use in 
pumping water throughout the State of California, and I think 
that is a significant fact that we need to take into 
consideration.
    Thank you very much to the whole panel.

              Population Growth and Water Supply Concerns

    Mr. Baird. [Presiding] I thank the gentleman. I will fill 
in for, as Chair until Mr. Gordon returns.
    I will recognize myself for five minutes.
    Do we have a sense of carrying capacity of our country in 
terms of how big our population can get? You know, population 
is growing rather rapidly right now, and we are talking about 
already seeing shortfalls of water. Any thoughts of that in 
terms of what the tradeoffs would be? Do we have some numbers 
that say if our population grows by X, then we are going to 
have to reduce water consumption by Y? Any thoughts about that?
    Dr. Wilkinson.
    Dr. Wilkinson. I don't know the specific answer in terms of 
what number we might accommodate. I can give you, though, some 
breakdown. In California we use about 80 percent of the water 
for agriculture and about 20 percent for the urban system for 
people directly. In much of the west it is even more for 
agriculture, on the order of 90 percent. This varies, of 
course, tremendously around the country and the type of 
agriculture and so forth. In California, a lot of the 
discussion revolves around transfers of water from agriculture 
to urban.
    So in theory, one could double the state's population and 
only take 20 percent of the water currently going to 
agriculture. That would leave another 60 percent still. That is 
in theory. I am not sure anybody really wants twice as many 
people in California or anywhere else. We have a lot of 
crowding already.
    But the transfer of water back and forth becomes in terms 
of a limiting factor and carrying capacity an interesting 
question. I will say that Los Angeles has increased by one 
million people and held water use level. That means per capita 
use has gone down considerably, and that is mainly through 
these efficiency programs, more efficient plumbing fixtures and 
the rest.
    Mr. Baird. Mr. Levinson.
    Mr. Levinson. Yes, Mr. Chairman. I wanted to mention there 
is our recent report that was referred to earlier a very 
interesting picture of population growth and water consumption 
in southern Nevada. The story there is that the local water 
authorities simply imposed very draconian measures right at the 
start of this decade, basically telling people, no, they 
couldn't plant grass anymore, golf courses couldn't draw public 
water supplies anymore, that sort of thing. They experienced 
quite rapid population growth during the past seven or eight 
years, and at the same time they experienced a fairly sharp 
decline in water consumption.
    So I think that the notion that there is a necessary 
correlation between population growth and the growth of water 
consumption isn't right.
    Mr. Baird. Dr. Pulwarty.
    Dr. Pulwarty. To complement that, there has been changes in 
the efficiency of use. We know that it took 200 tons of water 
to create a ton of steel years ago. Now it takes three to four. 
We are seeing lots of reductions in the per capita use of 
water. But that does not mean that demand is not increasing 
because population is increasing, even if we are leveling off 
in terms of per capita use.
    One of the things we do have to keep in mind when we talk 
about carrying capacity is also we are ingenious, you know. One 
hundred years ago we talked about some of these issues, and we 
did have a lot of adaptive strategies in place. Where we are 
seeing the most immediate threats are in the environmental 
services provided by the natural environment in terms of 
recreation and tourism and the sources of our water supply. 
That I think is where we will bear the brunt of immediate 
pressure.

                         Water Quality Concerns

    Mr. Baird. We had a rather disturbing report here in the 
D.C. Metro area about a month and a half or so ago about 
contamination of the drinking water. Admittedly in parts of a 
trillion but reports of anti-seizure medications, a host of 
other medications, et cetera.
    Two questions. How common is this across the U.S. water 
supply, and what technologies exist today to get us actually 
pure water? If somebody has twin boys at home and any parent 
here could get him water out of the drinking fountain, and you 
say to yourself, so what meds am I giving my kids today with 
their glass of water in their sippy cup? You would feel a 
little bad about that.
    What can you tell us about what we can do to purify the 
water further and how common this problem is?
    Dr. Overpeck. Well, I don't think we have any experts here 
on that side of water, but I certainly share your concern as a 
parent. And I know from my colleagues at the University of 
Arizona that there is lots we can do in terms of researching 
out what is in our water and how we then treat it to remove 
unwanted contaminants, because most of our water treatment 
doesn't deal with that. And one of the solutions down the road, 
which my colleagues in California are already adopting is 
essentially toilet-to-tap. We are having to use this water that 
has been used before, and we will do that more and more into 
the future.
    So we better get some research going to figure this out. 
That is all I can say.
    Mr. Baird. A more appetizing terminology might help advance 
that effort.

              Ocean Desalinization's Environmental Impacts

    One last question. We read in some of your testimony about 
desalinization. What are the adverse, or are there adverse 
environmental impacts to desalinization if you have got a bunch 
of, you know, are we changing the mineral makeup of the near-
shore environment?
    And any thoughts on that? I am particularly thinking about 
as we look at ocean acidification as a byproduct of climate 
change and the reduction of available carbonate. Does 
desalinization also take carbonate out of the, as a mineral, 
take it out of the system or----
    Dr. Wilkinson. There are two primary concerns about 
environmental impacts from ocean desalinization. One is the 
entrapment and entrainment of marine organisms on the intake 
side of the equation, and there are ways to remedy that by 
drawing in the water through the sand and beach wells and so 
forth. But there are concerns about that.
    And then on the flip, as you mentioned, is discharge, the 
brine discharge back to the ocean, which is more saline than 
what was taken out because we are taking some fresh water and 
then returning a saltier mix back in. Some of the solutions to 
that proposed are to mix that with effluent from waste water 
systems so actually the salinity is closer to the ocean, may 
not be a bad solution. But both of those are challenges for 
ocean deals.
    Mr. Baird. Thank you very much.
    Mr. Smith.

                             Water Storage

    Mr. Smith. Thank you, Mr. Chairman. Thank you to the panel 
for your insight on the issues.
    It is interesting. I come from rural Nebraska, where 
irrigation is very important. It is actually helping feed the 
world I would argue. Yet I only heard a little bit about 
surface storage.
    Dr. Wilkinson, would you say that surface storage can 
perhaps help us mitigate climate change?
    Dr. Wilkinson. Surface storage clearly plays an important 
role already in our water supply systems around the country. 
One of the concerns with surface storage is with increased 
variability in the system, as Dr. Overpeck described, we may 
need, where we have surface systems that are providing both 
flood control as well as water supply, we may need to hold 
those systems at lower levels to provide that flood control or 
take further risks because of pattern changes in precipitation.
    So that becomes problematic. We would sacrifice water 
supply and hydropower for those systems that provide those 
services if we are to operate those systems to deal with 
increased flood control risks.
    The other issue with surface storage----
    Mr. Smith. Wait. If I could have clarification. I am sorry.
    Dr. Wilkinson. Uh-huh.
    Mr. Smith. I am trying to follow you. You are saying that 
we need to draw down?
    Dr. Wilkinson. We will have to leave more flood control 
space during the flood.
    Mr. Smith. Because of----
    Dr. Wilkinson. Because of concerns that we may have strong 
precipitation events that would fill them up quickly and then 
spill into flood, and we have experienced some of that. We have 
had some problems around the country, and so one of the 
concerns when you have less certainty as to what might happen 
with precipitation, but an increased chance that you may have 
high precipitation events, then to maintain that flood control 
system you begin to lose, there is a tradeoff there. You begin 
to lose some of that water storage.
    The other big issue, of course, as Jonathan mentioned, with 
increased temperatures, we are going to have increased 
evaporation, and that is actually quite a serious issue with 
surface storage, especially in arid areas. We are losing a lot 
of water. Now, that doesn't mean we are not going to continue 
to use surface storage systems, but we may need to recalibrate 
our rural curves and our expectations of water supply coming 
out of them based on climate change.
    Mr. Smith. Can you give any numbers for what you think the 
difference is today? It is, I think we might be able to agree 
that climate change is a bit of a moving target in terms of 
defining it. We are even getting away from the global warming 
terminology and going to climate change based on some of the 
numbers of the last 24 months or so.
    Can you paint a picture with numbers, easily understood, 
perhaps, of where we are with surface storage today, where we 
need to be, compared to the past 100 years or so?
    Dr. Wilkinson. I can't give you a specific number, we need 
X amount more. Of course, it depends around the country what 
our water supply situation is. Let me suggest two other 
considerations, though, in addition to and coupled with surface 
storage, and that is groundwater management. We have tremendous 
opportunities right now around the country, certainly in 
California we have huge opportunities to manage groundwater 
more effectively and to use groundwater storage. Picture it as 
an empty bucket underground, storage potential, that can be 
managed. That is an opportunity, I think, we pretty much all 
agree is a priority for water management. Of course, that means 
maintaining quality of what gets into the ground and once it is 
in the ground, maintaining that quality so we don't have the 
kinds of issues that were just mentioned, the concerns about 
water quality and what is safe to drink.
    Mr. Smith. Now, you said we needed X amount more of what? I 
think you said something like we need X amount more.
    Dr. Wilkinson. I can't tell you exactly how much more 
surface storage the country would need, and part of that would 
depend on how well we use groundwater and how efficiently we 
use water. That would, in turn, reflect what our surface 
storage requirements would be nationwide.
    So I would have to think about it in the context of the 
demand side, how are we using water, the other options for 
storage, including groundwater, and then what we need to do 
with our surface storage systems. I would suggest we would need 
to consider that as a package in the integrated way.
    Mr. Smith. And would you suggest that we need more 
reservoirs?
    Dr. Wilkinson. I think in some places we might and some 
places there is serious discussion of removing reservoirs. So I 
think you probably have everything on the table. Where do we 
need more? Where do we have systems that may not be cost 
effective and may need to come out.
    Mr. Smith. Very good. Very good.
    Dr. Overpeck.
    Dr. Overpeck. Yeah. Thank you. I mean, I think what we 
really are running up against here is we don't have the 
knowledge to answer your questions. We don't know exactly how 
the water supply from the atmosphere will change in the future 
and how the demand by the atmosphere in terms of evaporation 
will change in the future. We need to nail that down and factor 
that into our models of both above ground and below ground 
storage.
    But I do agree with Dr. Wilkinson that below ground storage 
might turn out to be a much more advantageous approach, 
particularly in states like your own that have abundant 
aquifers. We are already doing this in Arizona and many other 
states, such as Texas, are putting the water underground. And 
you don't always get out what you put in, but nonetheless, you 
don't have the problem of evaporation or some of the other 
problems that are associated with above-ground storage.
    And one of the ironies of climate change is that with the 
probability of increased frequency of drought comes a 
probability of increased flood as well. This is because the 
hydrologic cycle of the atmosphere is getting accelerated, and 
there is more moisture up there, more energy, and it gives us 
both extremes in greater frequency.
    And we are already seeing this around the world.
    Chairman Gordon. Thank you, Mr. Smith. We are trying to 
beat a vote here, and Ms. Richardson has been gracious enough 
to yield to Mr. Matheson, who has another commitment, and you 
are recognized for five minutes.

               The Environmental Protection Agency's Role

    Mr. Matheson. Thanks, Mr. Chairman. I will be brief and 
maybe not use all five minutes.
    You had a discussion with the Chairman earlier about the 
bill I introduced, the Water Use Efficiency and Conservation 
Research Act of 2007. As you probably know, it would establish 
a research, development, and demonstration program within the 
EPA's office of research and development to promote efficiency 
in conservation.
    I was curious what role that the people on the panel would 
envision the EPA should have in supporting our long-term water 
efficiency and conservation effort policies in this country?
    I don't know who wants to answer. Anyone can answer.
    Dr. Wilkinson. Let me just start out briefly, I think that 
EPA deserves a lot of credit for some very good work over the 
years. The low-impact development, some of the slides I was 
showing, storm water capture and attenuation of pollution, for 
example. That they are doing very good work on water use 
efficiency.
    Of course, it is the 1992 Energy Act that includes the 
requirements for efficiency in plumbing fixtures, and that has 
made a huge difference. EPA has done a lot to follow up on 
that, so I think they have already done a lot of good work. I 
think it is a very helpful move in what you have proposed here 
to take it a step further.
    Dr. Parker. I see EPA as a very visible entity throughout 
the water supply community. I see them as advocates as various 
approaches to water supply and completion. They are out at 
conferences, they are in regulatory situations, they are in 
planning activities. There is only so much that they can do, 
though, to advocate without putting a little money on the 
table. And their research budget has been cut back so severely 
in the last few years they are losing their credibility.
    I think you have nailed it with this, to give them a little 
bit of money to push just what is needed.
    Mr. Matheson. I appreciate that, and I notice in your 
testimony and reports from your organization, Dr. Parker, you 
make a number of recommendations for additional research.
    Could you maybe offer just your opinion about what you 
think are the highest priorities or the most critical areas 
where we ought to be investing in R&D, looking out over the 
next 20, 30 years for where we want to go? What do you think 
are the best priorities for R&D on water conservation and water 
use?
    Dr. Parker. I think we need to invest more in dual water 
systems. I think we need to invest more in the institutional 
side of the house. It is severely neglected. Ms. Johnson from 
Texas was talking about her concern about human resources, and 
I interpreted her concern as being professionals in the field 
but then the conversation took sort of the direction of public, 
the level of how informed the public is.
    But the truth is is that in terms of having professionals 
available to address problems and staff our agencies and our 
consulting companies, et cetera, is really in sorry shape. The 
dwindling research budget for graduate students in universities 
is not adequate to produce the people that we need in our field 
just when the problems are becoming most challenging. And the 
social science side of it has always been neglected. The water 
policy experts that I know are all in their 60s. So we are 
losing the few that we have.
    So the social sciences, innovative supply technologies, 
conservation, I think our hydrologic networks are probably 
adequate, but they have been allowed to be eroded.
    Mr. Matheson. I appreciate that.
    Mr. Chairman, I appreciate my colleague letting me go.
    Chairman Gordon. Thank you, and now Mr. Hall is recognized 
for a quick question, and then we are going to finish up with 
Ms. Richardson.

                  Can We Capture and Store Rain Water?

    Mr. Hall. I ask the question of Dr. Pulwarty. Something 
that has been bothering me for a long time, and you know, need 
spawns breakthroughs and wars bring on weaponry like the 
Manhattan Project and things like that. And shouldn't we be 
thinking in the long-term thinking in the future of how to save 
water?
    And it worries me, I have been working on a bill trying to 
put together something for a future, a study for the future of 
working on a bill, maybe even a sense of Congress or something 
that or some study group, when a bottle of water gets to be 
worth more than a good bottle of beer or a bottle of oil, you 
know, we got to go to thinking more about it.
    And I see in Texas and west Texas the rains fall, and in 
east Texas rain is falling, and it goes on down to the sea. 
Shouldn't we be capturing that someday, even at 100,000 acres 
at a time to have it? And we don't have that need yet, and it 
is too expensive now, but I remember when it was too expensive 
to have a module for astronauts to escape a shuttle from. And 
we shouldn't ever think anything is too expensive to save 
lives, but it was also too heavy. Engineers couldn't prove it, 
but someday is there, I will just leave this thought with you 
gentlemen.
    Be thinking about a way to, giant sumps or something, to 
capture that water and not let it run off to the sea and have 
it for the time when we have the droughts.
    Yes, sir.
    Dr. Pulwarty. I think this is an extremely important 
question as to what mix and types of storage mechanisms that we 
are, in fact, talking about, and at the same time have enough 
left over in the system to make sure that the coastal economies 
that depend on fresh water and flow for oyster beds, mussels, 
and other things like that are themselves supported as a 
result.
    One of the issues we have with withdrawing water for 
storage is we then increase saline intrusion from salt water 
into the near-shore aquifers. So as long as we are balancing 
all of those kinds of issues, then I think, yes, storage is one 
of the options.
    And we do have to think in terms of groundwater as well, 
simply because if you can't fill the reservoirs you have, extra 
storage does not help us.
    Mr. Hall. One day I think we will see a huge metal or 
otherwise sumps under there, and at my age I don't even buy 
green bananas, so I can't look that far. I can't see that far 
ahead, but you younger men, and this young Chairman here, I am 
going to get him to work with me on something to set up some 
kind of a study like that so we have a plan for 30 years from 
now.
    And I will try to stay in Congress that long to see that 
they carry it out.
    Mr., I yield back my time.
    Chairman Gordon. Thank you, Mr. Hall. I have already made 
arrangements for Mr. Hall to say my obituary so, Ms. 
Richardson, you are recognized.

          More on Ocean Desalinization's Environmental Impacts

    Ms. Richardson. Thank you, Mr. Chairman.
    Dr. Parker, as you can hear from Mr. Hall and our Chairman 
here, you are in need of the next generation of water folks. As 
you can see, we have got great folks here that I am really 
concerned of the day when we won't have Mr. Hall here to give 
us good analogies.
    Mr. Chairman, I would like to invite you and or maybe one 
of the hearings we could have in the future would be about 
desalination. The largest home of the country's largest and 
most advanced federally-sponsored seawater desalination 
research and development project is in my district. Dr. 
Wilkinson, I was a little surprised with your comment because 
back on January 30, 2008, the Long Beach Water and the United 
States Department of Interior, Bureau of Reclamation 
constructed an under-ocean floor intake and discharge 
demonstration system, which I happened to view because it is 
right there at the Bluff Park where I walk my dogs on the 
weekend. And the only other similar facility is in Japan, and I 
was particularly, caught your comment because it was founded 
that essentially the underwater ocean floor intake system, the 
ecological impacts of entrainment and impingement typically 
associated with open ocean intakes are avoided with this 
system, which is what when you were asked the question. And 
this natural biological filtration process reduces the organic 
and suspended solids largely eliminating the need for 
additional pretreatment, which reduces the overall energy 
footprint and cost of operation.
    So I am not sure if you are familiar with the success of 
what we recently had. The project was, as I said, recently 
completed. I think, Mr. Chairman, it would be well worth either 
one of us taking a trip. We can take a Tennessee guy and have 
you have a real good time in California, or we could have a 
hearing here. I think there has been some very recent 
information.
    And Dr. Wilkinson, I am not sure if you are familiar with 
those results, but they have been substantial to the impacts of 
being nearly 30 percent more energy efficient than the reverse 
osmosis technology system.
    Dr. Wilkinson. I think you are exactly right. The Long 
Beach project is quite good, and the Bureau of Reclamation has 
been helping.
    My point was that using that kind of an intake avoids the 
entrainment and impingement, so that is one of the 
opportunities where the geology supports it to use that kind of 
system. I think that is a success, and I think they are doing 
some very good work in Long Beach.
    Ms. Richardson. So, in terms of funding and research and 
things that we can do, I think it is a valid area for us to 
consider.
    Chairman Gordon. I certainly agree. I just talked to our 
staff and she said that we need to be sure to get somebody in 
on a future hearing. Her response was that we have been talking 
with them extensively, and the term she used about what they 
are doing was ``fascinating.'' So I am glad that is coming out 
of Long Beach, and we want to continue to learn more about it.
    Ms. Richardson. Thank you.
    I yield back the balance of my time.
    Chairman Gordon. Thank you. We are maybe eight minutes away 
from a vote, so let me thank our witnesses for appearing here 
today. Under the rules of the Committee the record will be held 
open for two weeks for Members to submit additional statements 
and additional questions that they might have of the witnesses. 
I ask witnesses if you will respond to us if you see particular 
areas of federal R&D and also if you know a particular agency 
you think where that should be carried out. Such information 
would be most welcome, and it will be a part of our thought 
process.
    And this hearing is now adjourned.
    [Whereupon, at 11:31 a.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Stephen D. Parker, Director, Water Science and Technology 
        Board, National Research Council

Questions submitted by Chairman Bart Gordon

Q1.  Please provide the Committee with recommendations of additional 
Federal research and development to increase water supply and water use 
efficiency.

A1. See Confronting the Nation's Water Problems (2004)\1\ by a 
committee of the Water Science and Technology Board. This report was 
called for by a Congressional mandate and would seem to provide a very 
complete response to this question. See in particular the executive 
summary and Table 3-1 for particulars.
---------------------------------------------------------------------------
    \1\ National Academies of Science, 2004. Confronting the Nation's 
Water Problems: The Role of Research. Water Science and Technology 
Board, Committee on Assessment of Water Resources Research, National 
Research Council, Washington, DC.

---------------------------------------------------------------------------
Questions submitted by Representative Ralph M. Hall

Q1.  In your testimony, you point out a number of issues that exist do 
to aging infrastructure and outdated water management systems. If you 
were to prioritize these issues, which we are often called on to do as 
lawmakers with limited funds, which of these issues would you address 
first? What viable solutions exist that need to be adopted on a broad 
scale? Which area has been lacking research that we now need to devote 
resources to?

A1. Personally, I believe federal leadership through EPA programs or 
research funding should give priority to (not necessarily in order):

        <bullet>  water reuse for potable and non-potable purposes, 
        including use of dual water supply systems;

        <bullet>  alternative, innovative, green urban stormwater and 
        combined sewer overflow system design and management; and

        <bullet>  water demand management approaches.

Q2.  In recent years we have been exploring a number of new energy 
sources to try to reduce greenhouse gas emissions from fossil fuels; 
however, as you know, a number of these alternative energy sources 
require large amounts of water. How do those changes in societal 
preferences affect your calculations on available water resources?

A2. The ``water-energy'' nexus presents many challenges to those 
concerned with water requirements for energy development and energy 
requirements for water supply. The WSTB has been unsuccessfully trying 
to develop a comprehensive study in this area. We have few positions as 
an entity and my personal experience is limited. My only 
recommendations would be that consideration of energy alternatives take 
into account very carefully the water implications. This does not 
appear to have been the case in the crafting of biofuels policy as 
indicated in a 2007 WSTB report Water Implications of Biofuels 
Production in the United States (summary attached).

Q3.  In order to face the coming challenges in water availability and 
quality, we need qualified scientists and engineers. Could you discuss 
the number of graduate and post-graduate students going into water 
issues versus other scientific pursuits? Is this enough to provide 
critical information to decision-makers over the next few decades? What 
can be done to encourage greater interest in this subject?

A3. The issue you identify is worrisome. I have no real numbers, as 
perhaps the National Science Foundation might, but it appears that new 
folks are not entering the water field and that our workforce is aging. 
It seems that restoration of respectable funding levels for water 
resources research might reverse the problem, as we certainly are going 
to have well qualified people in many disciplines, including the social 
sciences, to help address the increasingly complex problems that are 
emerging. The attached Confronting the Nation's Water Problems (2004) 
should help shed some light.

Questions submitted by Representative Adrian Smith

Q1.  Federal drinking-water quality regulations for naturally occurring 
toxins, such as arsenate, can be burdensome to small communities, as 
costs of remediation are very high and far beyond the budget of a small 
town. Are these challenges best addressed at the local, State, or 
national level, and what types of solutions should be proposed?

A1. This question identifies a very large and challenging issue that 
affects a fifth of the U.S. population. It is also a problem being 
addressed by EPA. In 1997 the WSTB published Safe Water from Every Tap: 
Improving Water Service to Small Communities, a report that provides 
guides on relevant technological, financial, institutional, and 
operational issues. The report is attached in pdf; I personally have 
not tracked EPA follow through. You might peruse this report or its 
summary and then ask EPA for information and opinions.

Q2.  What are your views on balancing the demand for various uses of 
water, including, drinking water; agricultural uses; energy generation; 
habitat, especially for endangered species; and recreation?

A2. Conflicting demands are presenting themselves in many regions of 
the Nation, and conflicts are not limited to arid areas. The ACF-ACT 
basins in GA-FL-AL provide a vivid example and there will be more of 
this in the future. Each case is unique and it is hard to generalize, 
but in my opinion decisions must be informed by advanced simulation/
optimization models, with visualization capabilities, to produce 
results for discussions by experts in all relevant disciplines and 
decision-makers along with all stakeholders. Not everyone is going to 
get everything they desire but consensus on outcomes can be achieved. 
It is unfortunate that the venues for such decision-making were 
effectively eliminated with the demise of the many river basins in the 
early 1980s. In my opinion, such river basin commissions may have been 
ahead of their time and should be resurrected.

Question submitted by Representative Russ Carnahan

Q1.  Could better data and monitoring improve water quality and 
quantity for St. Louis and surrounding areas?

A1. Yes. Such data would be necessary but insufficient. The attached 
2008 WSTB report Mississippi River Water Quality and the Clean Water 
Act: Progress, Challenges, and Opportunities discusses this and 
describes several implementation actions that should be pursued at the 
federal, State, and local levels.

Question submitted by Representative David Wu

Q1.  It is important that states and local communities are part of the 
discussion regarding water challenges. However, I am worried that some 
stakeholders may have been overlooked. The United States has unique 
political relationships with more than 560 tribes. Many of these tribes 
have treaties with the United States that recognize tribes continue to 
have certain rights; in some cases this includes water. This is a very 
important topic we are discussing here today and all stakeholders 
should have a voice at the table. Has your board included tribes in its 
work? If not, why has this not been done? Will you include tribes in 
the future?

A1. Yes. The WSTB has engaged tribes and other relevant stakeholders in 
its work--both as committee members and as ``resource people'' to help 
inform our process.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Jonathan Overpeck, Director, Institute for the Study of 
        Planet Earth; Professor, Geosciences and Atmospheric Sciences, 
        University of Arizona

Questions submitted by Chairman Bart Gordon

Q1.  Please provide the Committee with recommendations of additional 
federal research and development to increase water supply and water use 
efficiency.

A1. Several federal research and development efforts would contribute 
to increasing water supply, and/or using our water supply more 
efficiently. These include:

1) A well-funded multi-year (I suspect at least 10 years would be 
needed) National Water Supply Science and Assessment Program. This 
effort would undoubtedly have to be multi-agency (e.g., NOAA, NSF, 
USGS, NASA, USDA), and ensure at least 50 percent of the funds were 
targeted at the extramural research community (e.g., universities and 
private firms)--to ensure maximum peer-review, regional focus, and 
interdisciplinarity. This Program could be part of, and would benefit 
greatly from, a National Climate Service (see more below) that was 
explicitly directed to include water supply in its mandate. Major foci 
should include:

         1a) documenting the size and quality of current below-ground 
        water resources at the scale of one kilometer or less. This is 
        currently not known for most parts of the country, and would 
        require drilling, geophysics, modeling and data synthesis.

         1b) obtaining much improved estimates of likely future 
        climate-related changes in water availability, in terms of 
        rainfall, snow, evaporation run-off, stream-flow, aquifer 
        recharge and other metrics. This will require substantial 
        climate research (e.g., to understand the dynamics of the North 
        American monsoon and tropical storms), climate modeling and 
        hydrological modeling. The goal should be to make substantial 
        improvements on the climate and water projections included in 
        the Fourth Assessment of the Intergovernmental Panel on Climate 
        Change (2007). Close partnership between the scientific 
        research community and regional water-related decision-makers 
        is critical, and the program should focus significant funding 
        on the regional science and assessment often neglected in 
        federal R&D programs.

         1c) a thorough investigation of how well the Nation's current 
        water storage system is working, and how it can be augmented, 
        e.g., by increased above-ground and below-ground storage. This 
        investigation should factor in climate change (1b, above), as 
        well as possible social and environmental issues that are, or 
        could emerge as, problems. Although the promise of further 
        above-ground storage is limited, below-ground storage potential 
        has not been thoroughly evaluated.

         1d) a complete interdisciplinary (e.g., natural science, 
        social science, economics and law) examination of how water is 
        currently used, and how greater efficiency could be achieved. 
        Studies of this type have occurred, but they have tended to be 
        small, short-term, and not interdisciplinary enough to guide 
        effective policy at both national and regional scales. All 
        aspects of water use need to be examined, understood, and 
        optimized for maximum efficiency.

2) An improved Integrated National Climate and Water Monitoring System 
is needed to track water supply, water quality and water use 
projections, and to help update them as will inevitably be needed. The 
system should be designed to support water-use policy and to give 
stakeholders a comprehensive inventory of local to national water 
supplies (below and above ground) at any given point in time, from the 
present into the future. Over the past couple decades, streamflow 
monitoring (gauging) has declined due to funding cuts just as water 
supply concerns have become more acute. The same holds true for climate 
monitoring at the local to regional scales needed for water supply 
prediction. The proposed Integrated National Climate and Water 
Monitoring system should include monitoring of all underground 
resources, and should be designed to support the proposed (#1 above) 
National Water Supply Science and Assessment Program and other water 
storage programs.

3) A funded National Water Oversight Program or Commission is needed to 
ensure that all policy decisions made at local to national levels 
include scientifically robust assessments of their possible impact on 
water supply. For example, as the Nation explores alternative energy 
solutions, water requirements (savings or usage) should be factored in. 
The same holds true for public lands and agricultural policy. Water 
supply is too important to be just an afterthought.

4) A national Water Education initiative is needed in order to make 
sure that our citizens understand water supply issues broadly (e.g., 
including climate and energy issues) and are prepared to work together 
to ensure the Nation's water supply into the future. Essential parts of 
this initiative should include K-12 education, informal programs, and 
university training, and--especially critical--the next generation of 
water supply scientists and engineers. As water supplies become more 
limited due to population increases, aquifer depletion, and/or climate 
change, the need for this expanded workforce will only increase.

Questions submitted by Representative Ralph M. Hall

Q1.  One of the things that has been stressed in recent National 
Academies of Science reports is the need for more regional modeling and 
greater information resources at the regional level. You state in your 
testimony that the current warming has led to a decrease in spring 
snow-pack. Given that this year was a record year for snowfall in the 
Rockies, what is your confidence level regarding the fall off of spring 
snowpack attributable to climate change versus natural climate 
variability?

A1. I strongly concur with the NAS-stated need for great focus on 
regional climate and water research, observation, modeling and 
assessment. All of the research and development initiatives that I 
advocate in this document need to have greater regional focus than is 
the norm for federal programs. The reason for more regional focus is 
simply because most decisions, particularly with respect to water, are 
made at the regional-scale. Also, our scientific understanding of 
physical processes (e.g., climatic and hydrologic) at the regional 
scale lags understanding at broader scales. This limits effective 
regional decision-making.
    Both natural climate variability and human-caused climate change 
are, and will increasingly be, water supply concerns, particularly in 
the U.S. West and Southwest. Because there is substantial climate 
variability from year to year, and particularly with respect to 
precipitation, it is dangerous to read much into what happens in any 
given year. The details of the most recent ``water year'' (starting in 
October, 2007) have not all been analyzed yet, but the trend over the 
last couple decades has been toward an increasingly small spring 
snowpack at the scale of the U.S. West. This has recently been 
attributed in the peer-reviewed scientific literature to warmer 
temperatures, and also--in the same study--connected to a trend toward 
smaller Colorado River flows. Thus, there may always be exceptions in 
any given year, but the longer-term trend is what we should be focused 
on and worried about.

Q2.  In your written statement, you include a figure from the IPCC that 
illustrates the changes in runoff projected by the mid-21st century 
relative to the average run off from 1900-1970. Isn't it true that the 
early part of the 20th century is recognized as being an unusually wet 
period and that rainfall and water supply were at the high range of 
natural variability? Does this IPCC figure take into account such that 
this level of run off may not have been average, but in fact above 
average if looking over a longer period of time?

A2. Parts of the 20th century do appear to have been wetter than the 
long-term (e.g., 1000 year) average in some regions (e.g., much of the 
U.S. West, particularly the Southwest and region of the Colorado 
River). The figure in my testimony was not from the IPCC 4th 
Assessment, but rather was from the more recent work of Milly et al., 
2008 (reference included in my written testimony). They probably used 
the 1900-1970 average because run-off records exist for this period 
across the U.S. (and much of the globe), and because they considered 
the period to be representative of what many people think of as 
``average.'' This period did include the extremely wet period of the 
1920's (when the Colorado water allocations were made), but also the 
drier periods of the 1930's and 50's. In their work, Milly et al., do 
not compare projected future runoff with the longer-term average, 
perhaps because it is not possible to calculate the longer-term (multi-
century) average for all of the U.S.

Q3.  Dr. Overpeck, in your testimony you call for a national climate 
service designed to support local and regional decision-makers in 
dealing with climate-related reductions in water supply. How would such 
a service differ from NIDIS and its current mission? Would you envision 
expanding the role of NIDIS or creating another entity?

A3. Although it is still young, NIDIS should--in addition to being a 
valuable program in the face of drought--be considered an excellent 
``pilot'' for some of what a National Climate Service should be. NIDIS 
was designed to deal with drought, particularly at the regional scale 
so important to decision-making, and it should grow and flourish in 
that capacity. The design of a National Climate Service should learn 
from NIDIS, as well as other existing programs, but it should be a new 
program with a broader mission.
    Without any doubt, a National Climate Service should be designed to 
be--first and foremost--responsive to the needs of regional decision-
makers: those that have a true ``stake'' in climate variability and 
climate change. In this respect, a National Climate Service should be 
designed not just after the innovative aspects of NIDIS, but should 
also be heavily informed by the design and successes of the Regional 
Integrated Sciences and Assessment (RISA) Program funded out of the 
NOAA Climate Program Office (http://www.climate.noaa.gov/
cpo<INF>-</INF>pa/risa/); indeed, much of NIDIS was informed by this 
NOAA RISA program. One of the key innovations of the RISA program is 
sustained partnership between regional science experts and regional 
decision-makers. Another innovation is that the RISA's enable 
interagency and interdisciplinary collaboration, and--first and 
foremost--serve to be constant champions of regional climate and water 
science. The needs of regional stakeholders should then drive a much 
larger integrated, multi-agency, National Climate Service that meets 
those needs via interdisciplinary climate system (including water!) 
research, observations, modeling and assessments.
    Because NOAA is by far the strongest climate agency in the Federal 
Government, they should lead the National Climate Service. However, the 
trickiest part, perhaps other than funding, will be to devise a new 
mechanism to ensure that (1) multi-agency partners truly work together, 
(2) use their funding within, and among agencies as intended, and (3) 
work--as a priority--to meet the needs of the regional stakeholders. 
Some entity, such as a Commission of regional scientists and 
stakeholders, is needed that reports both to Congress and the White 
House, and that has a responsibility to verify that funds are being 
used to--first and foremost--meet the needs of the regional 
stakeholders. Otherwise, interagency cooperation and coordination will 
not be optimal, as many current ``interagency'' programs unfortunately 
demonstrate.
    One of the primary benefits of a new National Climate Service would 
be to provide advantage to the Nation, and its regional stakeholders, 
in adapting to climate change as well as natural climate variability--
including drought. I am currently working with a national group of 
regional climate (i.e., RISA) scientists to develop a more 
comprehensive plan for a regionally driven National Climate Service, 
and I will forward our proposed plan to you and your committee as soon 
as we have a complete document.

Q4.  Dr. Overpeck, in your testimony you discuss the vulnerability of 
the Southwest to climate change related drought and you also point out 
the many times in the past the Southwest has dealt with drought. Given 
the susceptibility of this region to drought, would you say it is more 
important to invest in research to predict it or research to mitigate 
the effects and explore other ways to increase potential supply?

A4. The Southwest U.S., extending from California into Texas, and 
northward into the central Rockies, is going be increasingly challenged 
by water supply problems no matter what. The region is prone to more, 
and longer droughts, than the rest of the Nation, and climate change is 
already making the situation worse with higher temperatures, less 
spring snowpack, and declining river flow. It is safe to say, that the 
situation could easily get worse, but it is also safe to say that there 
are things we can do about it.
    We need to take both climate change (and drought) adaptation and 
mitigation seriously. This means the region, hopefully with help from 
the Nation as a whole (which also has a stake in climate change and 
drought), must learn to use water more wisely, but also do whatever it 
can to reduce future threats--namely climate change--to water supply. 
In my response to Chairman Gordon's question above, I have outlined 
some important research and development initiatives that could help, 
and because of the inevitable climate and water challenges facing the 
Southwest, I am a strong advocate for a National Climate Service (also 
see above). For these same reasons, I think it is also imperative that 
the nations of the globe--with the United States in the lead--start 
working aggressively to reduce greenhouse gas emissions to 80 percent 
below 1990 levels by 2050. To say that Southwesterners--Arizonans and 
Texans alike--have a real stake in all these efforts is an 
understatement.

Questions submitted by Representative Adrian Smith

Q1.  Nebraska's panhandle has experienced nearly a decade of severe 
drought. What steps or technologies are needed to prepare for and 
mitigate long-term drought?

A1. Clearly Nebraska has a major stake in seeing something done about 
drought, just as we in the Southwest do. Fortunately, what I have 
outlined above summarizes the national research and development efforts 
needed by Nebraska and neighboring states. In the past, I have 
researched what the Dust Bowl drought did to the Nebraska region, and I 
learned first-hand that the record-hot--and wilting--temperatures of 
the 1930's will seem cool in comparison with what will likely come if 
greenhouse gas emissions are not reduced dramatically and quickly. 
Nonetheless, the climate change already in the pipeline (due to inertia 
in the climate system) AND natural drought variability, means that the 
people of Nebraska and surrounding states must also prepare for, and 
adapt to, likely future drought. My foregoing responses should help 
understand what is needed.

Q2.  What are your views on balancing the demand for various uses of 
water, including, drinking water; agricultural uses; energy generation; 
habitat, especially for endangered species; and recreation?

A2. This is as much a values question as it is scientific. I value each 
of the entities that you mention, and I also have faith that our 
country can figure out a way--using knowledge and technological 
innovation--to keep all of these entities healthy and in the balance. 
However, we cannot do this assuming business as usual, and that is why 
I have suggested a number of research and development programs in my 
foregoing responses. It is also why I am a strong supporter of cutting 
global greenhouse gas emissions to at least 80 percent below 1990 
levels by 2050. We do not want to sacrifice any of these fundamental--
and valued--entities.
    Your question raises one additional critical point: the role of 
water in energy production. I note this in my above responses, but also 
would be a supporter of a massive (ca. $50-$100B/year) government 
effort to develop new and improved energy alternatives that will speed 
the much needed greenhouse gas emission reductions that are needed to 
curb climate change, as well as to make our country truly energy 
independent and a global leader in energy technology sales. I bring 
this up here because it is critical that we factor in water demand as 
we develop new sources of energy: the climate-water-energy nexus is 
critical not just for Nebraska, but for our entire nation.

Question from Representative David Wu

Q1.  Western communities, specifically, have unique circumstances and 
relationships with tribal governments as it relates to water. Tribes 
often have priority water rights that states and local governments, and 
other users, must account for when creating water plans. As far as 
partnerships go, what types of opportunities exist for collaborative 
efforts that recognize tribal water rights and support both non-tribal 
and tribal efforts?

A1. I am not a Native Nations water rights specialist, but I live in 
state, and in a region, blessed with many Native American neighbors. In 
this context, I have worked with some of our regional Tribes on 
climate-related issues. In my foregoing responses, I have emphasized 
the need to drive research and development--including a National 
Climate Service--with the needs of regional decision-makers. In the 
Southwest, and across the U.S., the Tribes are at the table as 
important regional stakeholders. As it stands, we don't have the 
institutions that treat climate and water supply issues (including 
energy--another key issue in Indian Country) holistically, and that is 
what I am advocating in my foregoing responses. Any legislation that 
comes to pass needs to be crafted to ensure the Tribes, and their 
members, are fully invested partners in the activities that result.
    On a slightly more personal side, I recently supervised a Navajo 
graduate student who just received her Master's degree after completing 
a Four-Corners climate and society (agriculture and ranching) thesis. 
Her focus included helping leaders and kids on the Navajo Nation learn 
about climate issues. There is a clear need for more such graduate 
students, and the Federal Government could help with funding at both 
the undergraduate and graduate levels. The desire is often there, but 
funding and appropriate opportunities can be harder to find--especially 
for the interdisciplinary knowledge creation and learning that is 
needed. Climate and water partnerships would undoubtedly benefit from 
such increased funding for education.
                   Answers to Post-Hearing Questions
Responses by Marc Levinson, Economist, U.S. Corporate Research, J.P. 
        Morgan Chase

Questions submitted by Chairman Bart Gordon

Q1.  Please provide the Committee with recommendations of additional 
Federal research and development to increase water supply and water use 
efficiency.

A1. The greatest urgency involves exploration of pricing schemes to 
encourage conservation. Federal R&D money would be well spent in the 
agricultural area, developing crop varieties that require less 
irrigation, but there is little incentive for developing and planting 
such crops so long as most farmers are able to draw on water for free. 
It might also be worth considering a requirement for Congress to 
evaluate water impacts when considering legislation; such a requirement 
might have been useful during consideration of last year's law 
increasing the renewable fuels standard and this year's farm bill. I 
think there will be ample private funding available for R&D into water-
conservation and decentralized water-treatment technologies if these 
are economically viable, and no federal R&D effort is required.

Questions submitted by Representative Ralph M. Hall

Q1.  You mention in your testimony the concept of a water 
``footprint.'' Could you provide us with a couple of examples of 
companies that are aware of their water footprint and steps they may be 
taking to address their water footprint?

A1. We have examined a limited number of companies around the world and 
do not claim to have complete information on this subject. Among the 
companies we have examined, only Unilever has ever reported its water 
footprint. Subsequent to the publication of our recent report on this 
subject, other food and beverage companies have advised us that they 
intend to do further analysis of their water footprints. In general, 
large food manufacturers appear to recognize that they can achieve the 
largest reductions in their water footprints by encouraging greater 
water efficiency among agricultural suppliers, and some are starting to 
examine this issue.

Q2.  You discuss in your testimony that companies face regulatory risks 
in the form of allocation and price controls when water becomes scarce. 
In your work, has JPMorgan Chase found any regulatory reform options 
that might address such problems such that water utilized responsibly 
while business can remain on track?

A2. Yes, we have seen two types of regulatory reforms that are 
important in this way. First, there are a number of jurisdictions that 
have imposed significant cost increases for water. Unfortunately, these 
increases often affect only customers drawing water from municipal 
systems, not agricultural and industrial users that draw water directly 
from rivers or groundwater sources. Better pricing schemes are urgently 
needed. Second, some jurisdictions have imposed strong non-price 
regulations that limit water usage, such as requiring the use of 
recycled water to irrigate golf courses or barring the use of grass in 
landscaping in desert areas. We are not aware of jurisdictions that 
have adopted regulations concerning allocation of water in the event of 
physical scarcity.

Q3.  You mention nuclear power as an energy source that utilizes large 
amounts of water and therefore includes a ``societal'' cost that should 
be factored into the price users pay for electricity for these plants. 
Should the same hold true from other sources of power, including 
renewables, such as biofuels and solar?

A3. Certainly. Water is a scarce resource, and its cost should be borne 
by those who consume it. Biofuels impose very heavy water demand, 
particularly by encouraging the cultivation of corn in water-scarce 
areas. In the case of solar, the water-related cost is likely to occur 
mainly in the manufacturing process rather than at the generating site.

Q4.  In your testimony you touch upon the impact increased biofuels 
production has on water usage. In examining the development of the 
biofuels industry, has JPMorgan Chase performed an analysis of the 
water usage associated with feedstocks other than corn for biofuels 
production? Are there drought resistant plants that could provide 
biofuels feedstock at lower ``water'' cost?

A4. We have not performed an analysis of the water usage associated 
with biofuels feedstocks. This would require complex modeling, as much 
of the impact is likely attributable to changed patterns of land use 
arising from higher crop prices. For example, ethanol has led to a 
large increase in cultivated corn acreage in the Great Plains states; 
whereas corn grown for ethanol in Ohio might not require extensive 
irrigation, corn grown for ethanol in Nebraska is likely to require 
heavy irrigation. The intrusion of cultivation into former conservation 
reserve areas, another consequence of U.S. biofuels policy, also 
increases water demand while potentially reducing the recharge of 
aquifers. Switchgrass and sorghum are frequently mentioned as plants 
with lower water requirements that are suitable for ethanol, but 
suitable varieties are not presently commercially available. In any 
event, their impact on water consumption would depend upon whether they 
supplant corn production in arid locations, or whether they are planted 
in even more arid locations and serve to increase the total amount of 
land under cultivation.

Q5.  Please expand on your comments alluding to the fact that several 
companies are looking into technologies for decentralized water 
treatment and that federal R&D funds may be helpful? If we were to 
decentralize water treatment for human consumption, how would we ensure 
that all water for human consumption met baseline standards? What 
regulatory mechanisms would be needed? What would the costs associated 
with such a change from centralized to decentralized water treatment be 
for a city like Washington, DC?

A5. I'm not sure the need here is for federal funding, as I hear 
anecdotally that considerable venture capital is active in the field of 
decentralized water treatment. A more important issue may be whether 
federal water-treatment regulations inadvertently favor large-scale 
municipal plants over smaller-scale treatment. For the cost reasons you 
indicate, it is probably not cost-effective to decentralize water 
treatment in an area where centralized treatment is already in use. 
However, it may well be sensible to consider decentralized treatment 
for new housing subdivisions, large office complexes, and rural areas 
being connected to piped water for the first time. Decentralized 
treatment effectively requires two sets of supply pipes, one for 
purified water and the other for non-potable water, which would be 
connected to outdoor spigots, cooling towers, and similar uses, but not 
to indoor plumbing.

Questions submitted by Representative Adrian Smith

Q1.  Many energy generation methods require water to produce power. 
Hydropower, nuclear energy, petroleum refining, clean coal 
technologies, and biofuels production all require large amounts of 
water. What steps should be taken in both the public and private 
sectors to address water-use challenges as energy demand increases?

A1. I think the big issue here is that subsidies encourage energy 
consumption without regard to the social costs involved in producing 
the energy. It would be desirable for Congress to pay more attention to 
the water impacts when crafting energy legislation, and for energy 
produces to be forced to pay a reasonable price for the water they 
draw. It is worth considering whether closed-loop recycling systems 
should be mandated at new energy facilities. This undoubtedly would 
raise energy costs, but is highly desirable from the viewpoint of water 
conservation.

Q2.  If new hydropower facilities were to be built to meet the growing 
energy needs of the United States, what would be the main water-use 
challenges that would need to be addressed?

A2. I do not expect extensive construction of hydropower facilities in 
the U.S., due both to environmental concerns and to the fact that many 
of the most suitable locations are already in use. My comment on this 
is that in the past we have mistakenly relied almost entirely on 
supply-side measures to meet water demand. It is highly desirable to 
provide incentives to limit demand, and pricing is the best mechanism 
for this purpose.

Q3.  Mr. Levinson, my home State of Nebraska has a large agricultural 
industry, and irrigation is a common practice in much of my district. 
You mentioned in your testimony that groundwater use should be governed 
by federal, rather than State, law. What federal legislation would you 
propose for the best allocation of ground- and surface-water, and what 
would be the major benefits of regulation on a federal level, instead 
of a State level?

A3. My testimony was not that the Federal Government should take 
control of groundwater use, but rather that the Federal Government 
should explore methods of requiring states to adopt groundwater pricing 
schemes. I note that the Federal Government uses its budgetary powers 
to impose many such obligations on states, by threatening to withhold 
grants for particular programs unless State governments take specific 
actions. This same approach could be used to force states to adopt 
schemes to price both groundwater and surface water. As a practical 
matter, I think it would be extremely difficult for the Federal 
Government to make detailed allocation and pricing decisions at a great 
remove from the affected communities, so I think it is wiser to leave 
this task to lower levels of government within broad parameters.

Q4.  What are your views on balancing the demand for various uses of 
water, including, drinking water; agricultural uses; energy generation; 
habitat, especially for endangered species; and recreation?

A4. I have no particular views on this subject. Insofar as the subject 
of my testimony is concerned, I think it would be helpful if those 
responsible for planning for water scarcity were to outline in advance 
a series of emergency conservation measures in priority order, so that 
individuals and companies would be able to have a better sense of the 
likelihood that their supplies would be curtailed in the event of 
severe supply shortfalls.

Questions submitted by Representative David Wu

Q1.  How do we ensure that rural minority communities are addressed 
when we build out water infrastructure? Many of these areas have little 
to no existing infrastructure in place, and I'm afraid if they are not 
a part of our plans, we will be significantly short-changing a large 
population. What roles can corporations play in this?

A1. Please see my response to Representative Hall's question concerning 
decentralized treatment, which may provide a more cost-effective 
alternative for rural communities than laying supply pipes for great 
distances. There has been considerable private investment in water-
distribution systems, but whether such companies would find it 
attractive to invest in a relatively small-scale distribution system 
would depend on the specifics.
                   Answers to Post-Hearing Questions
Responses by Roger S. Pulwarty, Physical Scientist, Climate Program 
        Office; Director, The National Integrated Drought Information 
        System (NIDIS), Office of Oceanic and Atmospheric Research, 
        National Oceanic and Atmospheric Administration, U.S. 
        Department of Commerce

Questions submitted by Chairman Bart Gordon

Q1.  Please provide the Committee with recommendations of additional 
Federal research and development to increase water supply and water use 
efficiency.

A1. Some of the relevant priorities identified by the National Science 
and Technology Council's Subcommittee on Water Availability and Quality 
are: (1) Quantifying the future availability of freshwater in light of 
both withdrawal uses, and ecosystem uses; (2) Assessing and predicting 
the effectiveness of land use practices and watershed restoration on 
water quality and ecosystem health; (3) Developing information and 
efficiency tools to aid in water management including wastewater reuse 
and low-water-use crops; and (4) Improve linkages between climate and 
hydrologic prediction models and their applications.
    To address these priorities, we will need to focus on improvements 
in the ability of climate models to recreate the recent past as well as 
make projections under a variety of forcing scenarios. Research should 
focus on the development of a better understanding of the physical 
processes that produce extremes and how these processes change with 
climate as well as the reconciliation of model projections of 
increasing drought severity, frequency, or duration for different 
regions of the U.S. The creation of annually-resolved, regional-scale 
reconstructions of the climate for the past 2,000 years would help 
improve our understanding of present rates of change in the context of 
very long-term regional climate variability.
    Development of improved recharge monitoring techniques and social 
science research on the severity of drought impacts and institutional 
responses (to understand the effects of human activity on groundwater 
recharge) would provide information needed to increase our water 
supply.
    In addition, it is important to understand the response of the 
biological community to changes in streamflow and stream temperature, 
clarity, and chemistry, which are key issues in addressing instream 
flows and aquatic needs. It is also important to understand the degree 
to which aquifer storage is changing and will change in the future 
(given various climate, land and water use patterns), in addition to 
how changes in groundwater will affect streamflow and surface-water 
flow as a result of water management activities, land-use change, 
climate change, diversions, and storage.
    Adaptive measures include both demand and supply side approaches. 
Demand-side measures include water recycling, reducing irrigation 
demand, water markets, and economic incentives such as metering and 
pricing. Supply-side measures include conjunctive surface-groundwater 
use, increases in storage capacity, and desalination of sea water. 
Critical issues over the near term include: (1) ensuring adequate water 
to maintain environmental services that support economic and cultural 
benefits; (2) ensuring development, marketing, and adoption of 
efficient technologies, and (3) managing information needed to 
coordinate data collection and quality control, which will allow us to 
transform data and forecasts into accessible, credible, and usable 
information for early warning, risk reduction and adaptation practices 
in the water resources sector.

Questions submitted by Representative Ralph M. Hall

Q1.  In his testimony, Mr. Levinson mentioned that the Tennessee Valley 
Authority had to shut a nuclear plant since there was not enough 
cooling water in the Tennessee River. What monitoring, prediction, risk 
assessment, and communication tools could NIDIS provide for existing 
plants to avoid such a circumstance? Similarly, what monitoring, 
prediction, risk assessment, and communication tools could NIDIS 
provide so that states and companies could make informed decisions as 
to where to site a nuclear power plant, or any other type of electrical 
power plant, in relation to water access?

A1. To clarify, and for the record, the Tennessee Valley Authority 
(TVA) advises that its Brown's Ferry Nuclear Plant was not shut down 
because of a lack of cooling water. The plant was derated because of a 
permitting agreement with the Alabama Department of Environmental 
Management that states TVA will not exceed a 24-hour downstream average 
temperature of more than 90 degrees.
    Demand for energy increases demand for freshwater supplies, and 
increased demand on water requires additional energy to store and 
transport water. Freshwater withdrawals for energy account for 39 
percent of total withdrawals in the United States. Transportation of 
water to produce energy introduces additional costs in plant design. 
Increases in water temperature in streams and reservoirs can reduce the 
water's effectiveness as cooling water for nuclear plants (as occurred 
at the Browns Ferry nuclear plant in Alabama in 2007).
    As part of its forecast of precipitation, NIDIS communicates 
forecasts of ambient air temperature. This is useful because there is a 
close correlation between air and stream temperatures. The Department 
of the Interior (the U.S. Geological Survey and the U.S. Fish and 
Wildlife Service) and others can use NIDIS information to provide 
improved information regarding potential risks of high temperature 
instream events.
    NIDIS could provide valuable information used to make more informed 
decisions for the siting of nuclear power plants. Plant sitings require 
assessments of municipal and industrial demands and associated water 
supply reliability. NIDIS can provide information on past drought 
records for a particular location, water supply reliability for 
projected uses, and air temperature-stream temperature relationships. 
NIDIS works with states, communities, and agencies to enable 
development of risk assessment tools based on past events and 
forecasted droughts.

Q2.  In your testimony, you discuss the need to develop adaptive 
measures to increase the available water supply or use water more 
efficiently to address threats to the water supply. I have introduced 
legislation that would encourage research into treating water derived 
from underground when extracting oil and gas to utilize it for other 
purposes. Is this the type of adaptive measure you would encourage us 
to explore?

A2. NOAA does not have an established position on H.R. 2339, but as a 
researcher on adaptation strategies, my answer would be: Yes. Sixty-
five percent of the produced water generated in the U.S. (over one 
trillion gallons in 1993) is injected back into the producing 
formation, 30 percent is injected into deep saline formations, and five 
percent is discharged to surface waters. The produced water typically 
contains a mix of contaminants, including high saline levels. Standards 
of treatment for reuse are set by industry technical organizations such 
as the American Petroleum Institute (API) and the Oil Producers 
Association. The API has listed carbon absorption, air stripping, 
filtration, biological treatment, ultraviolet light, and chemical 
oxidation as potential treatments.
    Standards for produced water disposal are determined by State, 
national, and international regulatory bodies. Key questions to be 
addressed include:

        (1)  What technologies exist to treat produced water to 
        disposal or re-injection standards and what water quality 
        standards must be met?

        (2)  How much would this cost?

Q3.  Several reports, and some of the witnesses who testified at the 
hearing, have called for the creation of a National Climate Service. 
Would NIDIS be a good platform to emulate for the collection, 
organization and dissemination of all climate information and products? 
Or does the shear volume of climate information require a larger or 
more complex set up? Would NIDIS be integrated into such a service, or 
would it stay a separate entity?

A3. The NIDIS structure could provide guidance for the development of a 
National Climate Service. NOAA and our partner agencies are still in 
the process of developing an operational definition of ``climate'' 
services (i.e., examining how these services are different from 
``weather'' services) and completing its analysis of what is lacking in 
the way such services are currently delivered throughout the Federal 
Government. Any National Climate Service would likely focus on a 
broader class of issues and information users, and could provide an 
umbrella for programs such as NIDIS by developing a cross-agency 
partnership to sustain comprehensive observations and monitoring 
systems, and provide for state-of-the-art research, modeling, 
predictions, and projections.
    NIDIS could function within this broader system, and would continue 
to inform collaborative coordination and planning and act to identify 
innovations in drought preparedness for transferability to other parts 
of the country. NIDIS is in essence a decision support system; its main 
function is to develop, deliver, and communicate drought information, 
forecasts impacts, information for preparedness and risk reduction (or 
more generally valued climate services).

Q4.  The National Science and Technology Council's Subcommittee on 
Water Availability and Quality, or SWAQ, released a report last year 
about science and technology requirements for water availability and 
quality. This report was a follow-up to their 2004 report. In both 
papers, the Subcommittee strongly recommends that the U.S. develop a 
standardized and integrated measuring measures and create an account of 
its water. Although they suggest that some agencies have been involved 
in bringing this project together, would NIDIS be an appropriate place 
for the dissemination of this type of data? Or should it be housed in a 
sister program, that would feed information into and receive 
information from NIDIS, but be separate for separate management and 
decision-making purposes?

A4. NIDIS should not be tasked with the full collection and archiving 
of such data but as a recipient or client to help shape the collection 
by advising on priorities (e.g., key areas for monitoring improvements) 
through its focus on drought response and risk reduction; a separate 
program working with NIDIS would be most appropriate.
    NIDIS would be a good coordinator for integrated information, 
acting as a clearinghouse for information that feeds into specific 
early warning and decision support systems, and would provide a 
catalyst for drought mitigation practice. Data on water availability 
and quality would feed into NIDIS' early warning design.

Q5.  Would you give an example of what Federal, State and non-
governmental monitoring programs feed into NIDIS? How much do these 
monitoring efforts cost? Are there gaps in the monitoring system? If 
so, where do they occur?

A5. Given its preliminary status, main inputs into NIDIS so far are 
from federal agencies, such as NOAA, the U.S. Geological Survey (e.g., 
Stream Gauge Network), and the U.S. Department of Agriculture (e.g., 
Soil Climate Analysis Network). In addition, recent efforts have begun 
to include water and reservoir levels in partnership with U.S. Army 
Corps of Engineers, the Bureau of Reclamation, and states. In June 
2008, NIDIS convened a national workshop on the status of drought early 
warning system across the U.S. States, private sector (energy water, 
agriculture) and Tribal representatives at the conference agreed to 
engage with NIDIS on data provision and integration. These are actively 
being pursued for inclusion (with appropriate data standards) into the 
U.S. Drought Portal, and are important for supplementing and improving 
the U.S. Drought Monitor in locations with pilot early warning systems 
in development.
    The original recommendations for NIDIS (in the 2004 Western 
Governors' Association report) included supporting county-level 
monitoring, because droughts are declared at the county level. At that 
recommended density, there are still gaps in our monitoring network. 
NOAA is addressing these through the Historical Climate Network 
Modernization and the Cooperative Observer Program (COOP) network.
    The needs for improved monitoring are in groundwater quantity and 
quality, soil moisture, high elevation snowpack runoff timing, and 
ecosystems. These characteristics are important in modulating 
streamflow. Data on these variables are not yet collected using 
standardized approaches at similar spatial or temporal scales, and the 
long-term viability of the data collection efforts is uncertain. Recent 
initiatives such as the National Environmental Status and Trends 
Indicators action plan and pilot activity would provide guidance on 
assimilating and archiving existing data. A comprehensive groundwater-
level network may be needed to assess groundwater-level changes, the 
data from which should be easily accessible in real time.
    Soil moisture in the first one or two meters below the ground 
surface regulates land-surface energy and moisture exchanges with the 
atmosphere, and plays a key role in flood and drought genesis and 
maintenance. Soil moisture deficit partially regulates plant 
transpiration and, consequently, constitutes an effective diagnostic. 
Active and passive microwave data from polar orbiting satellites or 
reconnaissance airplanes provide some estimates of surface soil 
moisture with continuous spatial coverage. However, these approaches 
are limited in that they only measure soil moisture within the first 
few centimeters of the soil surface, and they are reliable only when 
vegetation cover is sparse or absent. NIDIS recently (February 2008) 
convened a small workshop to assess the reliability of such sensors for 
soil moisture measurements.
    The lack of long-term soil moisture data over vast areas of the 
United States affects how well soil moisture is incorporated into 
hydrologic models for watersheds or large regions. NIDIS, in 
collaboration with the National Climatic Data Center (and with USDA 
Natural Resources Conservation Service (NRCS)'s Soil Climate Analysis 
Network to complement their network), is in the process of deploying 
over 100 soil moisture sites around the country. Even a few long-term 
monitoring networks of soil moisture would substantially decrease the 
uncertainty in predicting processes that are critically dependent on 
soil moisture levels (like flow, water chemistry, and plant response). 
Similarly, the uncertainty of predictive models for managing water 
supply in western streams reflects the density of stream flow and 
rainfall monitoring networks, because the amount and the quality of 
data in areas characterized by high spatial variability in 
precipitation determine the reliability and precision of such models. 
Inclusion of nonagricultural areas, along with a long-term commitment 
for high quality data will assist water resources analysis on climatic 
and regional scales.
    The U.S. Geological Survey has the beginnings of a ground-water 
network in the Ground Water Climate Response Network. This network 
provides ground-water level data from 167 of the 366 Climate Divisions 
in the United States and Puerto Rico. About half of the data in this 
network are accessible in real time.

Q6.  Recognizing that this is a fairly new effort, how successful has 
NIDIS been in predicting expected drought areas thus far? What 
resources or assistance would you need to improve your ability to make 
such predictions?

A6. Historically, skill in predicting drought has not been very high. 
However, there are climate regimes in which predictability of seasonal 
drought has improved, particularly during El Nino or La Nina 
conditions. NOAA's Climate Prediction Center has shown demonstrable 
skill in predicting drought at seasonal time scales, during El Nino or 
La Nina events (and in particular during the winter). However, El Nino 
and La Nina conditions are only active about half the time. Prediction 
of multi-season and multi-year drought has not been successful. NIDIS 
has been successful in developing a nascent system for monitoring the 
climate and identifying potential drought conditions as they evolve, 
but additional time will be required before we see great improvement in 
drought prediction.
    Predictions could be improved through increased focus on multi-
season and multi-year drought prediction capabilities, through focused 
research on drought prediction. In the interim, some significant 
improvements in prediction are possible through improved monitoring of 
all the components of the climate system related to drought. These 
components include estimates of rain and snow, snowpack depth and 
liquid water equivalent, as well as estimates of the soil 
characteristics, ground water, and vegetation. Improved monitoring 
requires better integration of data from observation systems that 
already exist (computers to store, merge, analyze and provide the data) 
as well as installation of additional observation equipments (e.g., in 
situ instruments and satellite sensors) where needed. Monitoring of the 
physical climate system must also be augmented by estimates of the 
demand for water resources imposed by agriculture, industry, and 
population shifts and growth. A ``drought'' is not felt until available 
water is insufficient to meet specific needs.

Q7.  Have you received all the necessary information from State and 
local partners? What about federal agencies? What barriers have you 
encountered?

A7. Agencies and states have been very responsive by providing 
information and data sets to be linked to NIDIS activities.
    As conceived in NIDIS, coordination includes:

        <bullet>  Establishment of a national research agenda,

        <bullet>  Efforts targeted at emerging problems, (e.g., as in 
        the Southeast in 2007),

        <bullet>  Sustained attention on identifying monitoring and 
        forecasting gaps, and

        <bullet>  A competitive grants and contracts program to 
        addresses national research needs not addressed by specific 
        agency missions.

    Coordination can facilitate technology transfer from research 
organizations to user communities. However, agencies must maintain a 
high level of leadership, accountability and autonomy.
    In the next few years NIDIS will begin to tailor the Drought Portal 
for multi-state watersheds. This will provide a mechanism for more 
fully understanding the barriers to integrating State and local partner 
data and information for early warning information needs.

Q8.  In an ideal world, how far into the future would your predictions 
need to be able to reach to fully prepare or mitigate the effects of an 
impending drought?

A8. The time it takes to fully prepare or mitigate the effects of an 
impending drought varies depending on the specific problem(s) being 
addressed. For agriculture, predictions are required for three to six 
months ahead of an impending drought event. However, the sustainability 
of economic activities and environmental goals requires warnings of 
droughts onset, areal extent, and potential duration (a season, a year 
or a decade or longer), and potential impacts on each of these time 
scales. This is especially the case in regards to urban water needs in 
the west, forest health, low flow thresholds for meeting interbasin 
transfer requirements, energy plant siting, and environmental flows.

Q9.  How well known is the drought portal? Does the website collect 
statistics on hits per month or types of users it is getting? What can 
be done to ensure that this portal becomes a well-known information 
source with farmers and local water managers as it is with universities 
and State governments?

A9. NIDIS is actively engaging all of its partnering agencies to help 
educate the public on the U.S. Drought Portal (USDP). Examples include 
the U.S. Department of Agriculture, which has agricultural extension 
agents in nearly every county in the Nation, and NOAA's National 
Weather Service, which has local weather experts in 135 offices around 
the country.
    The USDP will provide education and outreach materials, publicly 
available, which will be geared toward local agency representatives 
engaging constituents at the local level and touting the benefits of 
USDP use. In addition, representatives of NIDIS are participating in 
numerous workshops, forums, and meetings around the country in order to 
communicate what is available on the USDP, to encourage its use and 
develop its role in proactive drought risk management, and to receive 
feedback on its content.
    The USDP keeps track of web hits for users entering the Portal. 
Currently USDP receives 40,000 hits per month. Software is currently 
being developed to allow tracking of hits to web pages hosted as 
``portlets'' within the USDP. The USDP cannot track its users by type 
at this time.

Q10.  Have the droughts we have been experiencing strained our ability 
to meet international obligations regarding water resources?

A10. Please see the response to question 11 (below) for a combined 
response.

Q11.  The U.S. shares not only its borders with Canada and Mexico, but 
it also shares watersheds. With respect to this geographical reality, 
how has U.S. water policy, particularly in the western half of the 
country, affected relations with our neighbors?

A11. These are critical concerns and have been broached in numerous 
constituent meetings and other public fora. Canada and Mexico are 
actively seeking to complement and link to NIDIS with their own 
information, since droughts cross these political boundaries.
    The U.S. has treaties with Mexico over both the Rio Grande River 
and the Colorado River. The Rio Grande agreement, resulting from a 1994 
treaty, stipulates that Mexico must allow a certain amount of water 
from the Rio Grande to reach the U.S. In return, the U.S. must provide 
Mexico with 1.5 million acre feet a year from the Colorado River. These 
commitments have not entirely been met on either side. Drought and 
growing economic development have affected the ability of both 
countries to meet their international commitments. Unfortunately, the 
treaty provisions for allocating shortages during a drought, and in 
fact what legally constitutes ``exceptional drought,'' are ambiguous 
and no provisions in the treaty cover the possibility of a climatic 
change that could alter the long-term availability of water in the 
river. Research of the U.S. Climate Change Science Program (Synthesis 
and Assessment Report (SAP) 3.3, pp. 22-23; SAP 4.3, pp. 121-150) 
suggests that even modest climatic changes might have serious and 
dramatic impacts on the Colorado River flow. Critical concerns include 
changes in: (1) water availability from altered precipitation patterns 
or higher evaporative losses due to higher temperatures; (2) the 
seasonality of precipitation and runoff; (3) flooding or drought 
frequencies; and (4) the demand for and the supply of irrigation water 
for agriculture.
    Changing water demands in the United States, combined with climate 
change, could seriously compromise hydroelectric power generation and 
other uses in Canada, especially in drier regions in southern areas of 
the Canadian part of the basin (e.g., Okanagan and Osoyoos lakes). 
There are several (at least 12) large bilateral drainage basins, or 
groups of small basins, for which the International Joint Commission 
has responsibility under the Boundary Waters Treaty of 1909. Many of 
these basins, and their sub-basins, have water-sharing agreements where 
rivers flow north or south across the border. In some basins, pollution 
control agreements are also in place to protect ecosystems and water 
quality (e.g., Great Lakes-St. Lawrence River). Climate affects both 
the quantity and quality of these waters, and the ability of one 
country to meet its present obligations to the other.
    Thirty to thirty-five percent of the water in the Columbia River 
basin originates in Canada yet only 15 percent of the basin lies in 
Canada. On the Columbia River, the predicted trend towards greater flow 
in winter and less flow in spring is expected to continue affecting 
salmon migration as well as hydropower.
    Increased evaporation (especially during winter) is expected due to 
warmer temperatures, which would lower Great Lakes water levels and 
reduce the flow of rivers in the system, including the St. Lawrence. In 
the scenario described above, adverse impacts on shipping, 
hydroelectric power generation, and water quality are projected. A 
recent amendment to the International Boundary Waters Treaty Act by 
Canada prohibits bulk-water removals and diversions from border and 
trans-border waters but does not deal with attempts to divert internal 
Canadian waters, an issue that a number of provinces have similarly 
addressed. There is also a risk that these disagreements will spill 
over into economic policy, trade agreements, and security arrangements.
    International obligations have been met, but not without contention 
during drought situations. However, given trends in the Great Lakes, 
the Colorado, the Rio Grande and the Columbia Rivers, further strains 
are foreseeable in the near future and will be exacerbated during 
conditions of exceptional drought.

Questions submitted by Representative Adrian Smith

Q1.  Nebraska's panhandle has experienced nearly a decade of severe 
drought. What steps or technologies are needed to prepare for and 
mitigate long-term drought?

A1. Mitigation options will be different for agricultural producers, 
municipal water suppliers, city and county land use planners, 
environmental interests, and State agencies, but ideally, all should be 
working in coordination. NIDIS works very closely with the National 
Drought Mitigation Center (NDMC) at the University of Nebraska, 
Lincoln. The NDMC director co-chairs the interagency and interstate 
NIDIS Implementation Team with the NIDIS director. The following are 
collaborative activities led by the NDMC using, in part, funds provided 
by NOAA Grants:

Mitigation measures already underway:

        (1)  Nebraska Rural Response Hotline: Interchurch Ministries of 
        Nebraska, an interdenominational non-profit organization based 
        in Lincoln, spearheaded the establishment of the Nebraska Rural 
        Response Hotline during the farm crisis of the 1980s. The 
        Hotline has grown steadily in both the number of calls it 
        receives and in the resources and partnerships available to 
        help callers, as responders listened to needs and found ways to 
        meet them. In 2007 it took nearly 5,000 calls. Among the ways 
        they assist are listening to individual farmers and ranchers to 
        help identify options in a crisis, providing vouchers for 
        counseling and referrals to other professional services, and 
        organizing regular workshops around the state focusing on needs 
        such as financial and legal planning. Drought is one of many 
        stressors facing the agricultural community.

        (2)  Nebraska Health & Human Services is working with 
        municipalities to reduce the vulnerability of their water 
        supplies.

        (3)  Increased soil moisture monitoring.

Planned mitigation measures:

    Nebraska has a drought mitigation plan that has identified more 
strategies, some of which will require additional funding, either for 
agency staff time or for assistance or incentives for farmers and 
ranchers. The planned mitigation activities are included in the 
appendices of the state's drought plan (http://carc.agr.ne.gov/docs/
NebraskaDrought.pdf).
    Some agricultural policies may lead to hazard-resistance or to 
practices that increase vulnerability. This is of increasing importance 
because of the disruptions in food security that may come about as a 
result of climate change (irrespective of what drives that change).

Q2.  What are your views on balancing the demand for various uses of 
water, including, drinking water; agricultural uses; energy generation; 
habitat, especially for endangered species; and recreation?

A2. In addition to water supply planning, both urban and rural land-use 
practices can either contribute to drought vulnerability or to drought 
resistance. In most cases, practices that build resilience to drought 
can also build resilience to other possible threats, including 
wildfires, energy production reliability, and economic down-turns. In 
general, practices that lead to increased soil fertility, redundancy in 
natural systems, and increased biodiversity build resilience. Practices 
that encourage more risk-taking and deplete natural resources faster 
than they are replenished increase vulnerability.
    Recreation forms the backbone of the economy for many western 
states. The impacts of impending changes are anticipated to be felt by 
the environment sector, and these will impact the environmental 
services that provide tourism, recreational and other economic 
generators for rural communities. Environmental requirements for water 
are actually minuscule compared with municipal, industry, and 
agricultural needs. In some regions environmental needs are less than 
10 percent of supply with agriculture, household, and industrial needs 
accounting for the rest. The economic benefits of environmental 
services outweigh the costs of their water needs and as such, 
efficiency in the other three sectors will provide a large economic and 
social benefit. Multi-objective planning is a logical approach for 
developing strategies to pursue complex goals.

                                   

</pre></body></html>
